App. 1
FOR PUBLICATION

UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
PASADENA REPUBLICAN CLUB,
No. 20-55093
a General Purpose Political
D.C. No.
Committee, on behalf of
2:18-cv-09933-AWT-AFM
itself and its members,
OPINION
Plaintiff-Appellant,
v.
WESTERN JUSTICE
CENTER, a California
nonprofit corporation;
CITY OF PASADENA;
JUDITH CHIRLIN,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
A. Wallace Tashima, District Judge, Presiding*
Argued and Submitted December 7, 2020
Pasadena, California
Filed January 25, 2021
Before: Susan P. Graber and Carlos T. Bea, Circuit
Judges, and Jennifer A. Dorsey,** District Judge.
* A. Wallace Tashima, Circuit Judge, for the Ninth Circuit
Court of Appeals, sitting in the United States District Court, for
the Central District of California, by designation.
** The Honorable Jennifer A. Dorsey, United States District
Judge for the District of Nevada, sitting by designation.

App. 2
Opinion by Judge Bea
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Anthony T. Caso (argued), Center for Constitutional
Jurisprudence, Fowler School of Law, Chapman University, Orange, California, for Plaintiff-Appellant
William E. Thomson III (argued), Debra Wong Yang,
Dhananjay S. Manthripragada, Daniel R. Adler, and
Jason S. Kim, Gibson Dunn & Crutcher LLP, Los Angeles, California, for Defendants-Appellees Western
Justice Center and Judith Chirlin.
Dawn Cushman (argued), Jonathan A. Ross, and Carol
A. Humiston, Bradley & Gmelich LLP, Glendale, California, for Defendant-Appellee City of Pasadena.
Justin R. Sarno and Sylvia Chu, Dentons US LLP, Los
Angeles, California, for Amicus Curiae League of California Cities.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
BEA, Circuit Judge
The restraints set forth in the United States Constitution generally bind only government actors, excluding private actors from its reach. Nearly sixty
years ago, however, the Supreme Court held that, in
certain circumstances, a private actor who leased
government property must comply with the constitutional restraints as though they were binding covenants

App. 3
written into the lease agreement itself. Although the
Court deemed the lessee to be a state actor, it reserved
this finding for the set of circumstances under which
the “State has so far insinuated itself into a position of
interdependence with [a private actor] that it must be
recognized as a joint participant in the challenged activity.” Burton v. Wilmington Parking Auth., 365 U.S.
715, 725 (1961). Indeed, the Court explicitly limited its
applicability to the “peculiar facts or circumstances
present,” cautioning that the conclusions drawn from
the case “are by no means declared as universal truths
on the basis of which every state leasing agreement is
to be tested.”1 Id. at 725-26. We, now, must revisit this
precedent and determine whether it is applicable to
the case before us.
Pasadena Republican Club (the “Club”) contracted
with Western Justice Center (“WJC”), a private nonprofit organization, to rent some space in WJC’s building for a speaking event. Shortly before the event,
however, WJC learned about the speaker’s association
with a politically active group that, as WJC explained,
holds “positions on same-sex marriage, gay adoption,
and transgender rights [that] are antithetical to [its]
values.” WJC then rescinded the rental agreement. In
1

In fact, the dissenting justices criticized the Court’s opinion
for failing to elucidate a workable standard in determining what
constitutes “state action.” See Burton, 365 U.S. at 728 (Harlan, J.,
dissenting) (“The Court’s opinion, by a process of first undiscriminatingly throwing together various factual bits and pieces and
then undermining the resulting structure by an equally vague
disclaimer, seems to me to leave completely at sea just what it is
in this record that satisfies the requirement of ‘state action.”).

App. 4
response, the Club filed a lawsuit alleging that its
First Amendment rights had been violated. The Club
claimed that WJC’s leasing arrangement with the City
of Pasadena (the “City”) constituted sufficient grounds
to bring constitutional claims against WJC, a private
§ 501(c)(3) nonprofit organization dedicated to civic improvement. Relying exclusively on Burton, the Club
filed claims against the City, WJC, and WJC’s Executive Director under 42 U.S.C. § 1983.
We reject the Club’s assertions and hold that WJC
is not a state actor for purposes of the Club’s constitutional claims. Neither the circumstances under which
WJC rehabilitated the building and acquired the lease,
nor the terms of the lease itself, convert WJC into a
state actor. Similarly, the government does not, without more, become vicariously liable for the discretionary decisions of its lessee. To apply the ruling in
Burton, the private party’s conduct of which the plaintiff complains must be inextricably intertwined with
that of the government. See Brunette v. Humane Soc’y
of Ventura Cty., 294 F.3d 1205, 1212-13 (9th Cir. 2002);
Vincent v. Trend W. Tech. Corp., 828 F.2d 563, 569 (9th
Cir. 1987). For the reasons set forth herein, we affirm
the District Court’s dismissal.
I.

BACKGROUND
A. The City acquires the Property and
leases it to WJC

In 1988, the City sought to purchase from the
United States Government real property located at

App. 5
55-85 South Grand Avenue, Pasadena, California. (the
“Property”). The purchase was contingent upon the approval of a leasing agreement between the City and
WJC for the rehabilitation and use of the Property.
Among other things, the City intended to “provide increased and improved legal services to the citizens of
Pasadena” and “provide a forum for educational research.”
In 1989, the City purchased the Property and executed an agreement to lease it to WJC (the “Lease”).2
The Lease described the relationship:
[WJC] is entering into this Lease, rather
than diretly purchasing the Premises, because [WJC] does not qualify as an organization eligible to purchase the Premises [from
the U.S. Government]. It is the intent that neither [the Pasadena Surplus Property Authority] nor the City of Pasadena shall be required
to contribute general funds to the acquisition,
restoration or renovation of the Premises, but
nothing contained herein shall be construed
as prohibiting or restricting the City against
assisting [WJC] in applying to third parties
for grants of funds to be used for restoring the
Premises. This Lease is not entered into as a
commercial transaction by either party. . . .

2

Initially, the Lease was between WJC and the Pasadena
Surplus Property Authority, a public corporation formed by the
City. It was not until 1994 that the Authority transferred the
Property to the City. For purposes of this Opinion, however, we
reference only the City.

App. 6
The Lease required WJC to pay for all costs related to
the acquisition, improvement, repair, and maintenance
of the Property. Indeed, the Lease specifically stated
that the City shall “have no obligation, in any manner
whatsoever, to repair and maintain the Premises nor
the building located thereon nor the equipment therein,
whether structural or nonstructural.”
The Lease also limited WJC’s use of the Property
to “non-profit law related functions,” including:
(i) operation of a center for the study of the
following matters: alternative dispute resolution, administration of justice, delivery of
legal services, and other legally oriented issues; (ii) providing space to non-profit entities for legal seminars, meetings, conferences,
hearing rooms, deposition rooms, arbitration
rooms, law library, research space; (iii) residential and office facilities for legal researchers and scholars and ancillary services such
as dining facilities; and (iv) for subleasing portions of the Premises to tax exempt organizations providing law related services, and for
no other purposes whatsoever.
Although the Lease required WJC to “use the [Property] for these purposes during ordinary business
hours,” it also stated that WJC was not precluded from
“using the [Property] for community meetings and
other purposes during non-business hours.” Critically,
the City asserts that it “derives no income, revenue or
other financial benefit on account of [WJC]’s rental of
meeting rooms” and “has no input or control over the

App. 7
entities to which [WJC] may rent its meeting rooms . . .
during the evening hours.”
In 1994, the City agreed to lend to WJC up to
$458,000 for further rehabilitation of the Property.
WJC has repaid those loans (and accrued interest
thereon) in full through rental payments to the City.
WJC currently pays to the City $1 per month in rent.
B. WJC rescinds the Club’s rental for the
scheduled speaking event
Prior to the planned event that gave rise to this
litigation, the Club periodically rented event space for
its meetings that occurred outside of normal business
hours. Consistent with that practice, the Club contracted with WJC to rent some space on the Property
for a speaking event to occur on April 20, 2017. Dr.
John Eastman, former dean at the Chapman University School of Law and professor of constitutional law,
was scheduled to speak during the event.
After reserving the space for April 20 but before
the event had occurred, the Club attempted to reserve
the space for an additional event to occur the following
month. The Executive Director of WJC, retired Los Angeles Superior Court Judge Judith Chirlin, informed
the Club that WJC’s Executive Committee had enacted
a new policy to “not make the [Property] available for
rental to political groups—one side or the other.” WJC
enacted this new policy “because of the heightened political rancor these days, and because it is the mission
of [WJC] to promote peaceful conflict resolution and

App. 8
reduce prejudice and intergroup conflict.” The Club
was told that WJC would honor the Club’s rental for
April 20, but would not rent to the Club thereafter.
Notwithstanding the pledge to honor its commitment, on the very afternoon of April 20, Judge Chirlin
informed the Club that WJC would not allow the
scheduled speaking event to take place on the Property
later that same evening:
It is with regret that I inform you that [the
Club] cannot use our facilities for your meeting tonight. While I knew that Prof Eastman
was a professor and author, we learned just
today that he is the President of the National
Organization for Marriage (NOM). NOM’s positions on same-sex marriage, gay adoption,
and transgender rights are antithetical to
the values of [WJC]. [WJC] exists to build a
more civil, peaceful society where differences
among people are valued. WJC works to improve campus climates with a special focus on
LGBT bias and bullying. We work to make
sure that people recognize and stop LGBT
bullying. Through these efforts we have built
a valuable reputation in the community, and
allowing your event in our facility would hurt
our reputation in the community
We will return the fee that you have paid immediately.

App. 9
C. Procedural history
In November 2018, the Club filed this action
against WJC, Judge Chirlin, and the City. Relying on
§ 1983, the Club alleges that all defendants discriminated against the Club’s political viewpoints and religious beliefs in violation of the First Amendment.
Additionally, under 42 U.S.C. § 1985(3), the Club alleges that Judge Chirlin conspired to violate the Club’s
First Amendment rights.
In May 2019, WJC and Judge Chirlin moved to
dismiss the claims under Rule 12(b)(6) of the Federal
Rules of Civil Procedure, and the City moved for summary judgment. The District Court granted both motions. For purposes of this appeal, the District Court
held that the operative complaint does not plausibly
allege that either WJC or Judge Chirlin acted “under
color of state law” pursuant to the “joint action” or
“symbiotic relationship” test found in Burton. The District Court also held that the undisputed facts show
that the City did not delegate to WJC any final policymaking authority of the City that caused the Club’s alleged constitutional violation. The Club timely appeals
from this decision.
II.

JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291.

We review de novo a district court’s decision to
grant a motion to dismiss. “To survive a motion to

App. 10
dismiss, a complaint must contain sufficient factual
matter, accepted as true, to state a claim for relief that
is plausible on its face.” Caviness v. Horizon Cmty.
Learning Ctr., Inc., 590 F.3d 806, 812 (9th Cir. 2010)
(internal quotation marks omitted). “A claim has facial
plausibility when the plaintiff pleads the factual content that allows the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Id. (internal quotation marks omitted).
We also review de novo a district court’s decision
to grant a motion for summary judgment. See Balint v.
Carson City, 180 F.3d 1047, 1050 (9th Cir. 1999) (en
banc). In doing so, we do not weigh the evidence but,
rather, determine whether there is a genuine issue of
material fact. See id.
III. MOTION TO DISMISS
A. The Club’s § 1983 claims against WJC
and Judge Chirlin
Title 42 U.S.C. § 1983 provides that “[e]very person who, under color of any statute, ordinance, regulation, custom, or usage, of any State . . . subjects, or
causes to be subjected, any citizen of the United States
. . . to the deprivation of any rights, privileges, or immunities secured by the Constitution and the laws,
shall be liable to the party injured in an action at law”
(emphasis added). “The ultimate issue in determining
whether a person is subject to suit under § 1983 is the
same question posed in cases arising under the Fourteenth Amendment: is the alleged infringement of

App. 11
federal rights fairly attributable to the [government]?”
Sutton v. Providence St. Joseph Med. Ctr., 192 F.3d 826,
835 (9th Cir. 1999) (quoting Rendell-Baker v. Kohn, 457
U.S. 830, 838 (1982)); see also Lugar v. Edmondson Oil
Co., 457 U.S. 922, 935 n.18 (1982) (noting that “conduct
satisfying the state-action requirement of the Fourteenth Amendment [also] satisfies the [§ 1983] statutory requirement of action under color of state law”).
1. State action under Burton and its
progeny
“The determination of whether a nominally private person or corporation acts under color of state law
‘is a matter of normative judgment, and the criteria
lack rigid simplicity.” Rawson v. Recovery Innovations,
Inc., 975 F.3d 742, 747 (9th Cir. 2020) (quoting Brentwood Acad. v. Tenn. Secondary Sch. Athletic Ass’n, 531
U.S. 288, 295-96 (2001)). Courts must engage in “sifting
facts and weighing circumstances” to answer what is
“necessarily a fact-bound inquiry.” Lugar, 457 U.S. at
939. Indeed, “[no] one fact can function as a necessary
condition across the board . . . nor is any set of circumstances absolutely sufficient.” Lee v. Katz, 276 F.3d 550,
554 (9th Cir. 2002) (quoting Brentwood Acad., 531 U.S.
at 295-96).
The Supreme Court has developed four different
tests that “aid us in identifying state action: ‘(1) public
function; (2) joint action; (3) governmental compulsion
or coercion; and (4) governmental nexus.’ ” Rawson,
975 F.3d at 747 (quoting Kirtley v. Rainey, 326 F.3d

App. 12
1088, 1092 (9th Cir. 2003)). The “[s]atisfaction of any
one test is sufficient to find state action,” but “[a]t bottom, the inquiry is always whether the defendant has
exercised power possessed by virtue of state law and
made possible only because the wrongdoer is clothed
with the authority of state law.” Id. at 747-48 (internal
citations omitted).
Here, the Club relies exclusively on the “joint action” or “symbiotic relationship” test.3 The test asks
“whether the government has so far insinuated itself
into a position of interdependence with a private entity
that the private entity must be recognized as a joint
participant in the challenged activity.” Brunette, 294
F.3d at 1210. A private entity may be considered a
state actor “only if its particular actions are ‘inextricably intertwined’ with those of the government.” Id. at
1211.
In Burton, the progenitor of this test, a state parking authority acquired land to construct a public parking garage. 365 U.S. at 718. Before construction began,
however, the parking authority learned that the anticipated revenue from the garage would not be sufficient to finance its purchase, construction, or
operations. Id. at 719. To secure additional monies, the
parking authority executed long-term leases with commercial tenants. Id. The leasing agreements required
3

We therefore need not decide if any other state-action test
applies. See Harvey v. Brewer, 605 F.3d 1067, 1078 (9th Cir. 2010)
(explaining that “a court will not pass upon a constitutional question if there is some other ground upon which the case may be
disposed”).

App. 13
the parking authority to pay the cost of the tenants’
utilities, heat, maintenance, and repairs—all of which
were paid for from public funds. Id. at 720.
The Supreme Court held that one of the tenants, a
restaurant that refused to serve customers based on
their race, was a state actor because the parking authority was a joint participant in the tenant’s operations and, thus, a joint participant in the tenant’s
discrimination. Id. at 723-25. The Court focused on
the mutual benefits conferred from the relationship:
the tenant transacted more business because its customers were afforded a convenient spot to park in the
public garage, and that convenience had an effect of
increasing the utilization (and revenue) for the garage. Id. at 724. Critically, the parking authority also
depended on the tenant’s rental payments for its financial success because the garage was not a selfsustaining facility. See id. In other words, the tenant’s
commercial operations “constituted a physically and financially integral and, indeed, indispensable part of
the State’s plan to operate its project as a self-sustaining unit.” Id. at 723-24. In all, Burton teaches us that
“substantial coordination” and “significant financial integration” between the private party and government
are hallmarks of a symbiotic relationship. Brunette,
294 F.3d at 1213.
Heeding the Supreme Court’s own instruction to
limit Burton’s holding to “the peculiar facts or circumstances present,” Burton, 365 U.S. at 725-26, we have
repeatedly distinguished Burton and declined to expand its applicability. In Vincent, for instance, we held

App. 14
that a government contractor performing maintenance
services at an Air Force base was not a state actor because “the government did not profit from [the contractor]’s alleged unconstitutional conduct.” 828 F.2d at
569-70. “While [the contractor] may have been dependent economically on its contract with the Air Force, [the
contractor] was most certainly not an indispensable element in the Air Force’s financial success.” Id. at 569.
We, therefore, found “no significant financial ‘integration’ between [the contractor] and the Air Force.” Id.;
see also Brunette, 294 F.3d at 1213-14 (holding that
there was no symbiotic relationship where a private
news company accompanied a “quasi-public” Humane
Society in executing a search warrant of a breeder’s
ranch because plaintiff failed to allege that the news
company “rendered any service indispensable to the
Humane Society’s continued financial viability”).
That is not to say that Burton is not binding precedent. Recently, in Rawson v. Recovery Innovations,
Inc., we concluded that a private nonprofit hospital
was a state actor. There, a patient sought to hold a private hospital and its doctors liable for petitioning a
state court to commit him involuntarily to hospital
custody and forcibly injecting him with antipsychotic
medications. Rawson, 975 F.3d at 747. Noting that
“Burton remains instructive,” we held that the § 1983
claims survived summary judgment because the private hospital operated its facility on the same grounds
as the state’s main psychiatric hospital. Id. at 745-46.
Not only did the private hospital lease its facility from
the state, but the grounds were “recognizable” and

App. 15
“clearly marked as a state hospital.” Id. at 756. Further entangling the two, the private hospital’s medical director was also a full-time physician at the
state hospital. Id. at 746. We considered this particular leasehold relationship only one of several factors weighing in favor of finding state action.4 We
ultimately concluded that the state had “undertaken a
complex and deeply intertwined process [with private
actors] of evaluating and detaining individuals for
long-term [involuntary] commitments, and therefore,
the state has so deeply insinuated itself into this process that [the private actors’] conduct constituted state
action.” Id. at 757 (internal quotation marks omitted)
(alterations in original).

4

Indeed, we “consider[ed] the full factual context” in Rawson, observing numerous factors weighing in favor of finding state
action, such as (1) the private hospital “exercise[d] powers traditionally held by the state” by detaining and forcibly treating Rawson to “protect[ ] both the public and Rawson himself ”; (2) the
private hospital “perform[ed] actions under which the state owes
constitutional obligations to those affected” by attempting to commit him involuntarily, thereby depriving Rawson of his liberty interests; (3) the state, through the county prosecutor, significantly
involved itself and “played an outsized role” in the private hospital’s decisionmaking to petition to commit Rawson involuntarily;
(4) the state approved the private hospital’s petition to commit
Rawson involuntarily; and (5) the private hospital was “charged
with applying state protocols and criteria in making evaluation
and [involuntary] commitment recommendations.” See Rawson,
975 F.3d at 751-56.

App. 16
2. WCJ and the City lack the significant degree of integration, dependency, and coordination that was
apparent in Burton
Applying the principles distilled from Burton and
its progeny, we cannot find state action here. First,
WJC and the City manage their operations independently of each other. In Burton, the parking authority operated a parking garage in the same building as
its commercial tenants and depended on those forprofit tenants for its initial financing and continued
viability. The parking authority relied on rental payments—the restaurant paid $28,700 per year—to defray the parking authority’s own operating expenses
because the parking garage was not a self-sustaining
facility. In contrast, the Club does not allege that WJC
helps to defray any operating expenses for the City.
Nor does the Club allege that the City performs any
City functions on the Property or that the City is responsible for any expenses related to the Property. Indeed, all expenses related to the Property are paid
directly by WJC, which is a self-sustaining organization itself. Cf. Rendell-Baker, 457 U.S. at 842-43 (noting
the salience in Burton that “the rent from the restaurant contributed to the support of the garage”); Geneva
Towers Tenants Org. v. Federated Mortg. Inv’rs, 504
F.2d 483, 487 (9th Cir. 1974) (explaining that, in Burton, the “interdependence was principally financial”
and the “rents paid by the shop partially defrayed the
cost of the public facility and enhanced its success”).

App. 17
Although WJC borrowed money from the City to
acquire and improve the Property, the Club does not
allege that WJC and the City are financially integrated. Cf. Rendell-Baker, 457 U.S. at 840 (holding that
“receipt of public funds does not make [a private
school’s] discharge decisions acts of the State”). The
Club does not allege that the City provided any capital
to support WJC’s operations, nor does the Club allege
that the City provided any below-market interest
rates.5 Cf. Geneva Towers, 504 F.2d at 487 (holding that
there was interdependence where private parties invested in a public housing project and received belowmarket interest rates). On the contrary, the operative
complaint acknowledges that WJC has reimbursed the
City in full for all loans and accrued interest.
Indeed, the City distanced itself from WJC
through the terms in the Lease. Unlike in Burton—
where the lease required the parking authority to pay
its tenants’ bills for utilities, heat, maintenance, and
repairs—the Lease here does not require the City to
cover any costs related to WJC or the Property. Instead, the Lease explicitly requires WJC to pay for its
own utilities, operations, maintenance, and repairs.
Also, unlike in Rawson—where a private hospital not
only leased its facility from the state, but operated
alongside the state hospital on the same campus that
was “clearly marked as a state hospital,” 975 F.3d at
5

We do not mean to suggest that any one of those particular
facts “function[s] as a necessary condition” or would be “absolutely sufficient” to establish that WJC acted under color state of
law. Lee, 276 F.3d at 554.

App. 18
756—the Club does not allege that the Property hosts
any City-managed operations or that the Property is
marked as City-owned land. And further unlike in
Rawson, the Club does not allege that WJC and the
City share any personnel. See id. at 746.
The Club suggested during oral argument that
WJC’s leasing arrangement with the City, alone, is
enough to satisfy Burton. But merely contracting with
the government does not transform an otherwise private party into a state actor. See Rendell-Baker, 457
U.S. at 840-41 (distinguishing Burton and explaining
that “[a]cts of such private contractors do not become
acts of government by reason of their significant or
even total engagement in performing public contracts”); Vincent, 828 F.2d at 569-70 (distinguishing
Burton and finding no state action where a contractor
performed maintenance services at a U.S. Air Force
base because “[t]here is no significant financial ‘integration’ between [the contractor] and the Air Force”).
Moreover, the City does not profit financially from
WJC’s alleged discrimination. In Burton, the financial
successes of the parking authority and its tenant were
inextricably linked an increase in the tenant’s revenue
achieved through the restaurant’s business plan of racial discrimination (more customers, at least in 1961)
correlated with an increase in the parking authority’s
revenue (more cars parked). The parking authority’s financial success also hinged on the tenant’s success to
the extent that the tenant could afford the critical
rental payments, which subsidized the garage’s operations. Therefore, the “profits earned by [the tenant’s]

App. 19
discrimination not only contribute[d] to, but also
[were] indispensable elements in, the financial success
of [the] governmental agency.” 365 U.S. at 724. But
here, the City does not realize any share of the revenue
earned from WJC’s rental agreements. Regardless of
however much WJC may profit from renting or refusing to rent event space, the City receives only $1 per
month in rent. Thus, the Club fails to plead that WJC’s
nonprofit operations are indispensable to the City’s
continued viability. Cf. Brunette, 294 F.3d at 1213-14
(finding no symbiotic relationship because plaintiff
failed to allege that the private news company “rendered any service indispensable to the Humane Society’s continued financial viability”); Vincent, 828 F.2d
at 569-70 (finding no symbiotic relationship because
the contractor performing maintenance services at the
Air Force base “was most certainly not an indispensable element in the Air Force’s financial success”).
Setting aside the fact that the City does not profit
financially from WJC’s alleged discrimination, the
Club maintains that the City “profits” intangibly by allowing civic programs to operate in the City. The Club
contends that WJC canceled the speaking event to preserve its reputation, which allowed WJC to continue
carrying out its “non-profit law related functions,”
which in turn benefited the City and its citizens. But
this contention expansively stretches Burton to capture the mere generic promotion of a public purpose—
the principal goal of government writ large. Adopting
this theory would cast almost any nonprofit with a
civic mission and some contractual relationship with

App. 20
the government as a state actor. The City certainly derives some benefit insofar as its citizens benefit from
WJC’s “study of dispute resolution and the administration of justice.” But “any exchange of mutual benefits
. . . falls far short of creating the substantial interdependence legally required to create a symbiotic relationship.” Brunette, 294 F.3d at 1214.
Finally, the City’s involvement in WJC’s alleged
discrimination is nowhere near the requisite degree of
“substantial cooperation” mentioned in Burton. The
City did not participate in, or know in advance about,
the initiation or the cancellation of the Club’s speaking
event. In fact, the City did not even learn about the
incident until the Club filed the complaint in this case.
The Club fails to allege that the City “significantly involve[d] itself in the private parties’ actions and decisionmaking at issue.” Rawson, 975 F.3d at 753; see also
Brunette, 294 F.3d at 1212 (finding that a private party
and a “quasi-public” entity “acted independently”
where neither “assisted the other in performance of its
separate and respective task” nor participated in the
other’s preparatory meetings before the alleged constitutional violation).
In all, WJC and its agents were not state actors for
purposes of the Club’s § 1983 claims. The Club fails to
allege that the City has “undertaken a complex and
deeply intertwined process” with WJC to discriminate
against the Club by canceling its speaking event. Rawson, 975 F.3d at 757 (internal citation omitted). The
Club also fails to allege that the City “has so deeply
insinuated itself into this process that [WJC’s] conduct

App. 21
constituted state action.” Id. (internal citation omitted). Accordingly, we affirm the District Court’s dismissals.
B. The Club’s § 1985(3) claim against Judge
Chirlin
While § 1983 provides a cause of action if one person deprives an individual of his constitutional rights,
§ 1985(3) provides a cause of action if two or more
persons conspire to deprive an individual of his constitutional rights. Like § 1983, which requires the
wrongdoer to be a state actor, § 1985(3) requires at
least one of the wrongdoers in the alleged conspiracy
to be a state actor. Indeed, the Supreme Court has held
that “an alleged conspiracy to infringe First Amendment rights is not a violation of § 1985(3) unless it is
proved that the State is involved in the conspiracy.”
United Bhd. of Carpenters & Joiners, Local 610 v. Scott,
463 U.S. 825, 830 (1983).
Here, however, the Club fails to allege that a state
actor participated in the alleged conspiracy. The Club
alleges only that Judge Chirlin “conspired with members of the staff and executive committee of [WJC] to
deprive [the Club] and its members of civil rights.” The
Club attempts to sidestep the state-action requirement
by arguing that WJC itself is a state actor, but for the
same reasons described above, this argument fails as
to WJC and its agents. Because WJC and its agents are
not state actors, and because the Club does not allege
that the City or some other state actor participated in

App. 22
the alleged conspiracy, the Club fails to state a claim
under § 1985(3).
IV. SUMMARY JUDGMENT
A municipality may be sued for constitutional violations under § 1983, but “claims cannot predicate municipal liability for constitutional violations of its
officers under the theory of respondeat superior.” Lockett v. Cty. of L.A., 977 F.3d 737, 741 (9th Cir. 2020) (citing Monell v. Dep’t of Soc. Servs., 436 U.S. 658, 691
(1978)). To establish Monell liability under § 1983, the
constitutional violation must be caused by a municipality’s “policy, practice, or custom” or be ordered by a
policy-making official. See Dougherty v. City of Covina,
654 F.3d 892, 900 (9th Cir. 2011); Gibson v. Cty. of
Washoe, 290 F.3d 1175, 1185-86 (9th Cir. 2002), overruled on other grounds by Castro v. Cty. of L.A., 833
F.3d 1060, 1076 (9th Cir. 2016).
The Club argues that the City is liable for WJC’s
alleged constitutional violation because the City delegated final policy-making authority when it leased the
Property to WJC. Through the terms in the Lease, the
Club argues, the City delegated complete discretion
over whether and to whom the Property could be
rented during nonbusiness hours. Therefore, WJC’s refusal to rent the Property to political groups and its
subsequent cancellation of the Club’s speaking event
constituted “an act of official governmental policy.” The
Club seems to suggest that we should infer delegation—and thus liability—from the mere fact that a

App. 23
private party rented out space on the property that it
had leased from the government.
Although it is true that the Lease did not prohibit
WJC from renting out event space during nonbusiness
hours, a permissive lease covenant does not convert
discretion into delegation, even when that discretion
rests with a public official. See Pembaur v. City of Cincinnati, 475 U.S. 469, 481-84 (1986) (plurality opinion)
(“The fact that a particular official—even a policymaking official—has discretion in the exercise of particular
functions does not, without more, give rise to municipal liability based on an exercise of that discretion.”).
And even more so here. When the City executed the
Lease, it was not delegating final policy-making authority on political speaking events in the City; it was
simply conveying a property interest—the right of occupancy—in the premises. WJC maintained the authority to decide who, when, for what reason, and for
how long a visitor could occupy the premises during
nonbusiness hours. Therefore, when WJC executed—
and rescinded—the rental agreement with the Club,
WJC was exercising its discretionary authority on its
own behalf as the holder of a possessory interest in the
Property. WJC was not exercising any “policymaking
authority for a particular city function” on behalf of the
City. Hammond v. Cty. of Madera, 859 F.2d 797, 802
(9th Cir. 1988), abrogated on other grounds as stated in
L. W. v. Grubbs, 92 F.3d 894, 897-98 (9th Cir. 1996).
“[T]he fact that the government licenses, contracts
with, or grants a monopoly to a private entity does not
convert the private entity into a state actor—unless

App. 24
the private entity is performing a traditional, exclusive
public function.” Manhattan Cmty. Access Corp. v. Halleck, 139 S. Ct. 1921, 1931-33 (2019) (holding that the
private operator of a public access channel was not a
state actor). And, of course, there is no claim that renting out event space during nonbusiness hours is a “traditional, exclusive public function.” The government
does not, without more, become vicariously liable for
the discretionary decisions of its lessee. Accordingly,
the undisputed facts show that the City did not delegate any final policy-making authority that caused the
Club’s alleged constitutional injury.
AFFIRMED.

App. 25
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
PASADENA REPUBLICAN )
No.
CLUB,
) 2:18 cv-09933 AWT-AFM
) ORDER RE MOTIONS:
Plaintiff,
)
v.
) (1) TO DISMISS [26];
AND
)
WESTERN JUSTICE
CENTER; CITY OF PAS- ) (2) FOR SUMMARY
ADENA, CALIFORNIA; )
JUDGMENT [27]
)
and JUDITH CHIRLIN,
)
Defendants.
)
(Filed Dec. 30, 2019)
The Pasadena Republican Club alleges that the
Western Justice Center, a private nonprofit organization, discriminates on the basis of political and religious viewpoint in the rental of event space to outside
groups, in violation of the First Amendment. The Club
has sued the Center, the Center’s former executive director, and the City of Pasadena, which owns the property and leases it to the Center, under 42 U.S.C. § 1983.
It has also asserted an additional claim against Judith
Chirlin, the former executive director of the Center, under 42 U.S.C. § 1985(3). The Center and Chirlin have
moved to dismiss the first amended complaint under
Fed. R. Civ. P. 12(b)(6). ECF 26. The City has moved for
summary judgment under Fed. R. Civ. P. 56. ECF 27.
The court will grant the Center’s and Chirlin’s
motion to dismiss because the complaint does not

App. 26
plausibly allege that the Center and Chirlin were acting under color of state law, as § 1983 requires, or that
the City was involved in the alleged conspiracy, as
§ 1985(3) requires. Although a symbiotic relationship
existed to some degree between the Center and the
City, this case is distinguishable from Burton v. Wilmington Parking Authority, 365 U.S. 715 (1961), upon
which the Club relies, because, among other things, the
property was not partly maintained by the City, the
City did not knowingly accept the benefits of the alleged discrimination and the Center’s involvement was
not indispensable to the City’s financial success. Under
the facts and circumstances alleged here, the City has
not “so far insinuated itself into a position of interdependence with [the Center] that it must be recognized
as a joint participant in the challenged activity.” Id. at
725.
The court also will grant the City’s motion for
summary judgment, because the record does not support the conclusion that the alleged constitutional violations were caused by a City policy or custom, as
required to establish municipal liability under § 1983.
See Monell v. Dept of Soc. Servs. of City of N.Y., 436 U.S.
658, 694 (1978). The policies at issue here regarding
the rental of the Center’s premises to outside groups
were those of the Center, not those of the City. Although the Club contends that the City delegated final
policymaking authority to the Center, the record shows
only that the City, by lease, conveyed a property interest to the Center, not that it delegated City policymaking authority to the Center.

App. 27
BACKGROUND
Plaintiff Pasadena Republican Club (“Club”) is a
voluntary membership organization that supports the
election of Republican candidates to local, state, and
national office. First Amended Complaint (“complaint”
or “FAC”) ¶ 4. Defendant Western Justice Center
(“Center”) is a § 501(c) (3) nonprofit corporation. FAC
¶ 6. Defendant Judith Chirlin was the executive director of the Center at the time of the events at issue
in this action. FAC ¶ 7. Defendant City of Pasadena
(“City”) is a city in the State of California. FAC ¶ 5.
In 1989, the Center agreed to lease certain real
property, commonly known as 55-85 South Grand Avenue, Pasadena, from the Pasadena Surplus Property
Authority, a public corporation formed by the City pursuant to state law. FAC ¶¶ 8-9. Among the buildings
included in the lease is the historic Maxwell House, located at 55 South Grand Avenue. FAC ¶ 8; Lease
Agreement 1 6.1.
The lease states:
Landlord is entering into this Lease as a
means of benefiting the citizens of the city of
Pasadena (the “City”) and its environs through
a center for the study of dispute resolution
and the administration of justice, to provide
additional employment and revenues to the
local economy, to provide for improvements in
both the local, regional, national, and international components of the legal system, and to
provide a forum for educational research.
Landlord is also entering into this Lease for

App. 28
the purpose of insuring the restoration and
historic preservation of the Premises. A detailed copy of Landlord’s goals is attached in
the Plan of Public Use for Surplus Property
attached hereto as Exhibit B. Tenant is entering into this Lease, rather than directly purchasing the Premises, because the Tenant
does not qualify as an organization eligible to
purchase the Premises [from the federal government]. It is the intent that neither Landlord nor the City of Pasadena shall be
required to contribute general funds to the acquisition, restoration or renovation of the
Premises. . . .
Lease Agreement ¶ 1.2; FAC ¶ 10.1
The lease is for an initial term of 55 years and
grants the Center an option to extend the lease for an
additional 44 years. FAC ¶ 8; Lease Agreement ¶¶ 2.1,
2.3. It requires the Center to cover all costs related to
the acquisition, improvement, repair and maintenance
of the premises, and it specifically states that the landlord – initially the Pasadena Surplus Property Authority, and later the City – shall “have no obligation, in
any manner whatsoever, to repair and maintain the
1

The complaint incorporates the lease agreement by reference. See United States v. Corinthian Colls., 655 F.3d 984, 999
(9th Cir. 2011) (“As a general rule, we may not consider any material beyond the pleadings in ruling on a Rule 12(b)(6) motion.
We may, however, consider . . . unattached evidence on which the
complaint necessarily relies if: (1) the complaint refers to the document; (2) the document is central to the plaintiff’s claim; and (3)
no party questions the authenticity of the document.” (citations
and internal quotation marks omitted)).

App. 29
Premises nor the buildings located thereon nor the
equipment therein, whether structural or non-structural.” Lease Agreement ¶¶ 1.2, 3.1-3.2, 5.3.1, 6, 7.1,
7.3; Duyshart decl. ¶ 8. The lease expressly prohibits
the Center from discriminating against “any employee
or applicant for employment . . . because of race, color,
religion, sex, physical handicap, or national origin,”
and it requires the Center to “establish and carry out
an Affirmative Action Plan for equal employment opportunity and affirmative action in contracting.” Lease
Agreement ¶¶ 31-32.
The provision of the lease governing the Center’s
use of the premises states that:
The Premises shall be used and occupied
by Tenant and its sublessees only for the purposes described in the Plan of Public Use for
Surplus Property, including but not limited to
the following non-profit law related functions:
(i) operation of a center for the study of the
following matters: alternative dispute resolution, administration of justice, delivery of legal services, and other legally oriented issues;
(ii) providing space to non-profit entities for
legal seminars, meetings, conferences, hearing rooms, deposition rooms, arbitration rooms,
law library, research space; (iii) residential
and office facilities for legal researchers and
scholars and ancillary services such as dining facilities; and (iv) for subleasing portions
of the Premises to tax exempt organizations
providing law related services, and for no
other purposes whatsoever. Tenant is expressly prohibited from leasing the Premises

App. 30
or any portion thereof to lawyers offering legal services for profit or allowing the Premises or any portion thereof to be used for any
for profit activities. Tenant shall continuously
during the term of this Lease following completion of all Tenant Improvements (as
herein defined) use the Premises for these
purposes during ordinary business hours.
Nothing herein precludes Tenant from using
the Premises for community meetings and
other purposes during non-business hours.
Lease Agreement ¶ 5.1 (emphasis added); FAC ¶¶ 1113.
With respect to this last subject – the rental of the
premises to outside groups during non-business hours
– the lease places no restrictions on the Center, and the
undisputed evidence in the summary judgment record
states that the City “has no input or control over the
entities to which the Western Justice Center may rent
its meeting rooms at the premises during the evening
hours.” Duyshart decl. ¶ 9. It further states that the
City “derives no income, revenue or other financial
benefit on account of the Western Justice Center’s
rental of meeting rooms.” Duyshart decl. ¶ 7.
In 1994, the City agreed to provide up to $458,000
to the Center for tenant improvements. FAC ¶ 14. The
City acquired these funds through its governmental
borrowing authority. FAC ¶ 15. The Center, in turn, repaid the funds through rental payments to the City.
FAC ¶¶ 14-15. Those loans have now been repaid, and
the Center’s current rent – through the end of the lease

App. 31
– is $1 per month. FAC ¶ 15. Also in 1994, the Pasadena Surplus Property Authority transferred title to
the property to the City, subject to the Center’s lease.
FAC ¶ 14.2
Before the events giving rise to this litigation, the
Club periodically rented the Maxwell House from the
Center for Club events. FAC ¶ 16; Gabriel decl. ¶ 2.
Consistent with that practice, in early 2017 the Club
rented the Maxwell House from the Center for a Club
event to take place on April 20, 2017. FAC ¶ 17; Gabriel
decl. ¶ 3. The rental fee was $190, and the scheduled
speaker was Dr. John Eastman, a noted professor of
constitutional law. FAC ¶ 17, 20-21; Gabriel decl. ¶ 3.
The Club also inquired about renting the Maxwell
House for a Club event to take place in May 2017. Gabriel decl. ¶ 5. In an April 23 email, however, Chirlin
informed Gabriel that the Maxwell House would be unavailable for the May event because the Center would
no longer rent the premises to political groups:
Nicole forwarded your email to me. I’m
sorry you have been left hanging, so to speak.
When the issue of your April meeting came to
my attention, I presented it to our Executive
Committee. It was decided that because of the
2

The quitclaim deed includes a rider by which the “grantee”
covenants not to “discriminate upon the basis of race, color, religion, sex, or national origin in the use, occupancy, sale, or lease of
the property, or in their employment practices conducted
thereon.” ECF 30-2 at 99. At the October 23 hearing, counsel for
the City suggested that the Center was the grantee under this
rider. It appears, however, that the City was the grantee.

App. 32
heightened political rancor these days, and
because it is the mission of the Western Justice Center to promote peaceful conflict resolution and reduce prejudice and intergroup
conflict, we should not make the Maxwell
House available for rental to political groups
– one side or the other.
Because your April meeting was already
scheduled I thought it inappropriate for us to
implement the policy with regard to that
meeting. (It also helped that you have a recognized legal scholar as your speaker.) So the
Executive Committee agreed that we could go
ahead with the rental for April, but not beyond.
I apologize that this comes to you just
days before you leave on vacation. I do hope
you are able to find a suitable venue quickly
and that you have a safe and lovely vacation.
FAC ¶ 18; Gabriel decl. ¶ 5; Gabriel decl., exh. C.3
The Club contends that the Center applied this
new policy selectively. It asserts that, even after
Chirlin announced the new policy in April 2017, the
Center continued to allow the League of Women Voters
Pasadena Area – which subleases a portion of the 5585 South Grand Avenue property and which the FAC
alleges is a “political organization” that “opposes President Trump” – to use the grounds of the Maxwell

3

The complaint incorporates Chirlin’s April 3 and April 20,
2017, emails by reference.

App. 33
House for political events. FAC ¶ 18; Gabriel decl. ¶¶ 56.4, 5
On the afternoon of April 20, 2017, Chirlin informed Gabriel by email that the Club would not be
able to use the Maxwell House for the Eastman event
scheduled to take place that evening. FAC ¶ 24; Gabriel decl. ¶ 7. Chirlin wrote:
Dear Ms. Gabriel,
It is with regret that I inform you that
The Pasadena Republican Club cannot use
our facilities for your meeting tonight. While
I knew that Prof Eastman was a professor
and author, we learned just today that he
is the President of the National Organization for Marriage (NOM). NOM’s positions
4

On its website, the League of Women Voters Pasadena Area
describes itself as “a nonpartisan political organization” that neither supports nor opposes “any political party or candidate.”
https://my.lwv.org/california/pasadena-area/about.
5
To support this allegation, the Club relies on Gabriel’s declaration, which states in relevant part: “On information and belief, the League of Women Voters continues to rent city-owned
property from the Western Justice Center on the Maxwell House
campus and the League uses the grounds of the Maxwell House
for some of its political events.” Gabriel decl. ¶ 6. The City has
filed evidentiary objections to this evidence on several grounds,
including lack of personal knowledge. ECF 40-1 at 2. See Fed. R.
Evid. 602 (“A witness may testify to a matter only if evidence is
introduced sufficient to support a finding that the witness has
personal knowledge of the matter.”). Because this testimony is not
material to the court’s analysis, however, the court need not address the City’s objections. Notably, the Center has not yet answered the complaint, and so it has not to date either admitted or
denied the Club’s allegation.

App. 34
on same-sex marriage, gay adoption, and
transgender rights are antithetical to the values of the Western Justice Center. Western
Justice Center exists to build a more civil,
peaceful society where differences among people are valued. WJC works to improve campus
climates with a special focus on LGBT bias
and bullying. We work to make sure that
people recognize and stop LGBT bullying.
Through these efforts we have built a valuable reputation in the community, and allowing
your event in our facility would hurt our reputation in the community.
We will return the fee that you have paid
immediately.
Gabriel decl., exh. D; FAC ¶ 24. Chirlin later informed
Gabriel that the decision had been made by the Center’s executive committee. FAC ¶ 26; Gabriel decl. ¶ 7.
The Club was able to relocate the evening’s event to an
another venue, but at additional cost and with diminished attendance. FAC ¶¶ 29-31.
In November 2018, the Club filed this action. ECF
1. The operative FAC names three defendants – the
Center, Chirlin and the City – and asserts four causes
of action. ECF 14.
The first cause of action, arising under 42 U.S.C.
§ 1983, alleges viewpoint discrimination in violation of
the First Amendment against all defendants and is
based on the allegation that the defendants discriminated against the Club on account of the viewpoint of
the speaker it chose for its event. FAC ¶¶ 32-39. The

App. 35
second cause of action, also arising under § 1983, alleges religious belief discrimination in violation of the
First Amendment against all defendants and is based
on the allegation that the Center adopted a policy prohibiting the rental of the Maxwell House to political
groups, but applied that policy selectively to the Club
on account of the viewpoint of the Club and its members. FAC ¶¶ 40-47. The third cause of action, again
arising under 1983, alleges religious belief discrimination against all defendants based on the allegation
that the defendants discriminated against the Club on
account of the religious viewpoint of the speaker it
chose for its event. FAC ¶¶ 48-55. The fourth cause
of action, arising under 42 U.S.C. 1985, is asserted
against Chirlin alone. FAC ¶¶ 56-60. It alleges that
Chirlin conspired with members of the Center’s staff
and executive committee to deny civil liberties guaranteed by the First Amendment to the Club and its
members, and that the conspiracy was motivated by
political and religious animus. FAC ¶¶ 56-60.6
The FAC alleges that the Center and Chirlin are
“state actors” for purposes of § 1983 – i.e., that they
acted under color of state law – because the property
is owned by the City and is leased to the Center to promote the governmental purposes of the City. FAC
¶¶ 33, 41, 49. It seeks declaratory and injunctive relief,
6

Chirlin’s motion to dismiss does not challenge this claim
under the intracorporate conspiracy doctrine. See Portman v.
County of Santa Clara, 995 F.2d 898, 910 (9th Cir. 1993) (declining to resolve whether “the ‘intra-corporate conspiracy’ doctrine
applies in section 1985 cases”); Padway v. Palches, 665 F.2d 965,
968-69 (9th Cir. 1982) (same).

App. 36
compensatory and punitive damages, and attorney’s
fees and costs. FAC at 21-24.
On May 1, 2019, Chirlin and the Center moved to
dismiss the complaint under Federal Rule of Civil Procedure 12(b)(6). ECF 26. Chirlin and the Center argue
that: (1) they cannot be liable under § 1983 because
they did not act under color of state law; (2) the Center
cannot be liable under § 1983 because the complaint
does not allege a relevant policy or practice of the Center under Monell; (3) the § 1985 claim fails because the
complaint does not allege state involvement in the alleged conspiracy; and (4) the § 1985 claim fails because
§ 1985 does not reach conspiracies motivated by political or religious animus.
The same day, the City moved for summary judgment, see Fed. R. Civ. P. 56, arguing that the City cannot be liable under § 1983 because the Club cannot
establish that any constitutional violation was caused
by an official policy or custom of the City.7 ECF 27.
LEGAL STANDARD
A motion under Rule 12(b)(6) asserts a “failure to
state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). “In evaluating a 12(b)(6) motion, we accept ‘as true all well-pleaded allegations of fact in the
complaint’ and construe them in the light most favorable to the non-moving party.” Cedar Point Nursery v.
Shiroma, 923 F.3d 524, 530 (9th Cir. 2019) (quoting
7

Both motions were orally argued on October 23, 2019.

App. 37
Corinthian Colls., 655 F.3d at 991). “To survive a motion to dismiss, the complaint ‘must contain sufficient
factual matter’ that, taken as true, states ‘a claim to
relief that is plausible on its face.’ ” Id. (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
Under Rule 56, a court “shall grant summary judgment if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Summary judgment will be denied if, “ ‘viewing the evidence in the light most favorable to the non-moving
party,’ there are genuine issues of material fact.” Nolan
v. Heald Coll., 551 F.3d 1148, 1154 (9th Cir. 2009)
(quoting Leisek v. Brightwood Corp., 278 F.3d 895, 898
(9th Cir. 2002)).
DISCUSSION
I.

Motion to Dismiss

As noted, the motion to dismiss raises four arguments. The court addresses them seriatim.
A. Whether the Complaint Plausibly Alleges that Chirlin and the Center Were
Acting Under Color of State Law
As discussed above, the complaint’s first three
causes of action arise under § 1983.8 In their motion to
8

42 U.S.C. § 1983 states:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or

App. 38
dismiss, Chirlin and the Center challenge these claims
on the ground that the complaint fails to plausibly allege that Chirlin, a private person, and the Center, a
private entity, were acting under color of state law.
ECF 26 at 6-14.
To state a claim under § 1983, a plaintiff must allege not only the violation of a right secured by the
Constitution and laws of the United States, but also
that “the alleged deprivation was committed by a person acting under color of state law.” West v. Atkins, 487
U.S. 42, 48 (1988). “Like the state-action requirement
of the Fourteenth Amendment, the under-color-ofstate-law element of § 1983 excludes from its reach
‘merely private conduct, no matter how discriminatory
or wrongful.’ ” Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 50 (1999) (quoting Blum v. Yaretsky, 457 U.S.
991, 1002 (1982)). When addressing whether a private
party acted under color of state law, therefore, we “start
with the presumption that private conduct does not
constitute governmental action.” Sutton v. Providence
St. Joseph Med. Ctr., 192 F.3d 826, 835 (9th Cir. 1999).
Courts have used four different tests to determine
whether this presumption has been overcome: (1) the
public function test; (2) the joint action or symbiotic
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress. . . .

App. 39
relationship test; (3) the governmental compulsion or
coercion test; and (4) the governmental nexus test. See
id. at 835-36 (citing Lugar v. Edmondson Oil Co., 457
U.S. 922, 939 (1982)). There is, however, “no specific formula for defining state action.” Id. at 836 (quoting
Howerton v. Gabica, 708 F.2d 380, 383 (9th Cir. 1983)).
“Only by sifting facts and weighing circumstances can
the nonobvious involvement of the State in private
conduct be attributed its true significance.” Burton,
365 U.S. at 722.
Here, the only basis relied on by the Club to support its under-color-of-state-law allegation is the joint
action test. “Under the joint action test, we consider
whether ‘the state has so far insinuated itself into a
position of interdependence with the private entity
that it must be recognized as a joint participant in the
challenged activity. This occurs when the state knowingly accepts the benefits derived from unconstitutional behavior.’ ” Id. (quoting Parks Sch. of Bus., Inc. v.
Symington, 51 F.3d 1480, 1486 (9th Cir. 1995)). The
Ninth Circuit has noted that “[a] plaintiff may demonstrate joint action by proving the existence of a conspiracy or by showing that the private party was ‘a willful
participant in joint action with the State or its
agents.’ ” Franklin v. Fox, 312 F.3d 423, 445 (9th Cir.
2002) (quoting Collins v. Womancare, 878 F.2d 1145,
1148 (9th Cir. 1989)).
The Club argues that this case is controlled by
Burton, which involved a restaurant – the Eagle Coffee
Shoppe, Inc. – that refused to serve the plaintiff on account of his race. See Burton, 365 U.S. at 716. The

App. 40
restaurant was located in a public parking building in
Wilmington, Delaware, and the question presented
was whether, given the symbiotic relationship between
the state and the restaurant, the restaurant’s actions
constituted “state action” for purposes of the Equal
Protection Clause of the Fourteenth Amendment. See
id. at 716-17.9
The Wilmington Parking Authority, in Burton, was
a state agency created by the City of Wilmington, and
this particular parking building was the parking authority’s first project. See id. at 716-18. Before construction began, the parking authority learned that it
would be necessary to lease out a portion of the parking building in order to make the project financially viable. See id. at 719. Accordingly, the parking authority
entered into several long-term commercial leases with
private entities to finance the project. See id. These
commercial tenants included a bookstore, a retail jeweler, a food store, and the Eagle Coffee Shoppe. See id.
at 719-20. The parking authority and the restaurant
entered into a 20-year lease, renewable for an additional 10 years, under which Eagle paid the parking
authority $28,700 in annual rent -about $250,000 in
today’s dollars. See id.

9

Although Burton involved the “state action” requirement
under the Fourteenth Amendment rather than the “under color
of law” requirement under § 1983, the Supreme Court has held
that “conduct satisfying the state-action requirement of the Fourteenth Amendment satisfies the statutory requirement of action
under color of state law.”

App. 41
The Supreme Court concluded that “[t]he State
has so far insinuated itself into a position of interdependence with Eagle that it must be recognized as a
joint participant in the challenged activity, which, on
that account, cannot be considered to have been so
‘purely private’ as to fall without the scope of the Fourteenth Amendment.” Id. at 725. The Court explained:
The land and building were publicly owned.
As an entity, the building was dedicated to
“public uses” in performance of the Authority’s “essential governmental functions.” The
costs of land acquisition, construction, and
maintenance are defrayed entirely from donations by the City of Wilmington, from loans
and revenue bonds and from the proceeds of
rentals and parking services out of which the
loans and bonds were payable. Assuming that
the distinction would be significant, the commercially leased areas were not surplus state
property, but constituted a physically and financially integral and, indeed, indispensable
part of the State’s plan to operate its project
as a self-sustaining unit. Upkeep and maintenance of the building, including necessary repairs, were responsibilities of the Authority
and were payable out of public funds. It cannot be doubted that the peculiar relationship
of the restaurant to the parking facility in
which it is located confers on each an incidental variety of mutual benefits. Guests of
the restaurant are afforded a convenient place
to park their automobiles, even if they cannot
enter the restaurant directly from the parking
area. Similarly, its convenience for diners may

App. 42
well provide additional demand for the Authority’s parking facilities. Should any improvements effected in the leasehold by Eagle
become part of the realty, there is no possibility of increased taxes being passed on to it
since the fee is held by a tax-exempt government agency. Neither can it be ignored, especially in view of Eagle’s affirmative allegation
that for it to serve Negroes would injure its
business, that profits earned by discrimination not only contribute to, but also are indispensable elements in, the financial success of
a governmental agency.
Id. at 723-24 (citations omitted). The Court emphasized, however, that “readily applicable formulae may
not be fashioned,” and thus that “the conclusions
drawn from the facts and circumstances of this record
are by no means declared as universal truths on the
basis of which every state leasing agreement is to be
tested.” Id. at 725.
To support its contention that Burton is controlling here, ECF 35 at 6-11, the Club argues that the
Center and Chirlin were state actors with regard to
their operation of the subject property because: (1) the
City purchased the property for the public purposes of
the City; (2) the City relied entirely on funds provided
by the Center to purchase the property; (3) the City
borrowed money to finance the repair and restoration
of the property and relied entirely on the Center for the
repayment of the City’s creditors; and, thus, (4) the
“Center was indispensable to the financial success of
the City’s project to acquire and restore this property

App. 43
and to operate it for the public purposes of the City.”
ECF 35 at 1.10
In the Club’s view, “[t]he facts in this case are very
similar to the facts in Burton with two differences,”
both of which serve only to strengthen the case for finding joint action. ECF 35 at 7. “First, rather than relying
on the Western Justice Center for only part of the cost
of the acquisition [and] construction of the property as
was the case in Burton, the City of Pasadena relied entirely on the Western Justice Center.” ECF 35 at 7.
Thus, “the Western Justice Center’s financial participation in this project was even more critical than the
restaurant’s participation in the Wilmington Parking
Authority’s construction of the parking structure at issue in Burton.” ECF 35 at 7. “Second, the City relied on
the Western Justice Center to accomplish the City’s
public purposes in acquiring this property” – namely,
“creat[ing] a center for the study of dispute resolution
and the administration of justice” and “preserv[ing]
10

In its briefing and evidentiary objections (ECF 40 at 3;
ECF 40-1 at 2-5), the City notes that many of these actions – those
occurring between 1989 and 1994 – involved the Pasadena Surplus Property Authority, not the City itself. The City faults the
Club for “conflating the Pasadena Surplus Property Authority
and the City of Pasadena, with no legal or factual grounds for doing so.” ECF 40 at 3. The allegations of the complaint, however,
plausibly allege that the Pasadena Surplus Property Authority
was an arm or instrumentality of the City, and the evidence in
the summary judgment record likewise establishes, at the least,
a triable issue on that question. Thus, although not barring the
City from pursuing its incipient objection, if necessary, on any future motion, for the purpose of the pending motions, the court assumes that the actions of the Pasadena Surplus Property
Authority are attributable to the City.

App. 44
and restor[ing] . . . historic structures in the City.” ECF
35 at 7-8.
The court agrees with the Club that there was a
degree of joint action here. The City owns the property,
purchased the property from the federal government
because the Center was ineligible to do so on its own
and used its borrowing authority to help finance improvements to the property, albeit at no cost to the City.
The Center, in turn, has paid for all aspects of the purchase, improvement and maintenance of the property,
and it has used the property in a manner that, in the
City’s view, benefits the citizens of the City. The mutual
benefits that the arrangement confers on the City and
the Center plainly establish a symbiotic relationship
between them, at least to some degree.
Not every “exchange of ‘mutual benefits,’ ” however, “creat[es] the substantial interdependence legally
required to create a symbiotic relationship.” Brunette
v. Humane Soc’y of Ventura Cty., 294 F.3d 1205, 1214
(9th Cir. 2002) (as amended); see DeBauche v. Trani,
191 F.3d 499, 507 (4th Cir. 1999) (explaining that Burton “certainly does not stand for the proposition that
all public and private joint activity subjects the private
actors to the requirements of the Fourteenth Amendment”). Here, although the allegations of the complaint
demonstrate a degree of interdependence, several
countervailing considerations lead the court to conclude that “[t]he interdependence found in Burton was
more extensive.” Scott v. Eversole Mortuary, 522 F.2d
1110, 1114 (9th Cir. 1975).

App. 45
First, the Supreme Court has noted that, “in determining whether a particular action or course of conduct is governmental in character, it is relevant to
examine . . . the extent to which the [private] actor relies on governmental assistance and benefits.” Edmonson v. Leesville Concrete Co., 500 U.S. 614, 621 (1991)
(citing Burton, 365 U.S. 715); see also Manhattan Cmty.
Access Corp. v. Halleck, 139 S. Ct. 1921, 1942 n.11
(2019) (Sotomayor, J., dissenting) (emphasizing that
in Burton the restaurant was “partly maintained” by
the parking authority). In Burton, the parking authority provided significant financial support to the restaurant, and the finances of the two were significantly
integrated. The parking authority, for example, “covenanted to complete construction expeditiously, including completion of ‘the decorative finishing of the leased
premises and utilities therefor, without cost to Lessee,’
including necessary utility connections, toilets, hung
acoustical tile and plaster ceilings; vinyl asbestos, ceramic tile and concrete floors; connecting stairs and
wrought iron railings; and wood-floored show windows.” Burton, 365 U.S. at 719. It also “agreed to furnish heat for Eagle’s premises, gas service for the
boiler room, and to make, at its own expense, all necessary structural repairs, all repairs to exterior surfaces except store fronts and any repairs caused by
lessee’s own act or neglect.” Id. at 720. In Burton, moreover, “[t]he costs of land acquisition, construction,
and maintenance [we]re defrayed entirely from” public
funds, and “[u]pkeep and maintenance of the building,
including necessary repairs, were responsibilities of

App. 46
the Authority and were payable out of public funds.”
Id. at 723-24.
Here, by contrast, the Club does not allege that the
Center relies in any significant respect on “governmental assistance and benefits.” Edmonson, 500 U.S. at
621. On the contrary, the Club acknowledges that, “[i]n
making this purchase, the City relied entirely on funds
provided by the Western Justice Center as part of a
lease agreement for the property” and that “the City
relied entirely on the Western Justice Center for
the repayment of the City’s creditors.” ECF 35 at 1.
Whereas in Burton the restaurant was partly maintained by the City, here the lease provides that the City
has “no obligation, in any manner whatsoever, to repair
and maintain the Premises nor the buildings located
thereon nor the equipment therein, whether structural
or non-structural, all of which obligations are intended
to be that of Tenant.” Lease Agreement ¶ 7.3. This case,
therefore, lacks the “significant financial integration”
present in Burton. Brunette, 294 F.3d at 1213.
Second, the Supreme Court has emphasized that
joint action exists under Burton when a public entity
“knowingly accepts the benefits derived from unconstitutional behavior.” NCAA v. Tarkanian, 488 U.S. 179,
192 (1988); see Gorenc v. Salt River Project Agr. Imp. &
Power Dist., 869 F.2d 503, 507 (9th Cir. 1989) (“[I]f the
state ‘knowingly accepts the benefits derived from unconstitutional behavior,’ as the city did in Burton, then
the conduct can be treated as state action.” (quoting
Tarkanian, 488 U.S. at 192)).

App. 47
Here, however, the Club does not allege that the
City knowingly accepted any benefits derived from the
Center’s challenged behavior. First, the complaint does
not allege that the City was involved in – or had any
knowledge of – the Center’s decisions regarding the
rental of the premises to outside groups during nonbusiness hours. The City, therefore, could not have
knowingly accepted any benefits from those decisions.
Second, the complaint does not allege that the City
benefited in any significant way from the Center’s
rental decisions. The City does not receive a portion of
the rental fees the Center collects from outside groups,
and the Center’s rental payments to the City are just
$1 per month. FAC ¶ 15.
The Club contends that the Center benefited from
the Center’s decision to cancel the April 20 contract because the cancellation preserved the Center’s reputation in the community, which in turn allowed the
Center to better perform its mission – a mission that
benefits the citizens of the City. According to the Club:
In cancelling the Pasadena Republican Club’s
contract to use the Maxwell House property,
the Western Justice Center and Judith
Chirlin stated that they were acting to preserve the reputation of the Western Justice
Center and its ability to carry out its mission
of dispute resolution. Thus, the anti-religious
bigotry evidenced by the action of the Western
Justice Center’s executive committee and Ms.
Chirlin’s email was necessary for the Center’s
dispute resolution activities. The City profits
by this anti-religious bigotry because the

App. 48
discrimination is claimed to be necessary for
dispute resolution which was the public purpose of the City in placing Western Justice
Center in control of the city-owned Maxwell
House property. This is no different than the
restaurant’s claim in Burton that racial discrimination was necessary to provide the
monetary profits that the restaurant would
share with the parking authority.
ECF 35 at 9-10. Whatever merit there may be to this
attenuated theory of “benefit,” see Benn v. Universal
Health Sys., Inc., 371 F. 3d 165, 173 (3d Cir. 2004)
(“[T]here certainly is no evidence that the government
received any tangible benefit from [the private entity],
save a possible increase in the general welfare.”), the
alleged benefit in this case cannot be compared to the
direct financial benefit the parking authority in Burton
received – $28,700 in annual rent from the segregated
restaurant – that was indispensable to the parking
authority’s financial success. Burton, 365 U.S. at 720,
724. In Burton, the parking authority both contributed
financially to the operation of the restaurant and derived a significant share of the profits. Here, by contrast, the City neither contributes to the Center’s costs,
nor profits in any significant way from Center’s activities. Nor did the City have notice of, and acquiesce in,
the Center’s allegedly discriminatory actions, as was
the case in Burton.
Third, in the Ninth Circuit, an “element of financial indispensability . . . is ‘at the core of the joint participation found in Burton.’ ” Vincent v. Trend W. Tech.

App. 49
Corp., 828 F.2d 563, 569 (9th Cir. 1987) (alteration
omitted) (quoting Frazier v. Bd. of Trustees of Nw. Miss.
Reg’l Med. Ctr., 765 F.2d 1278, 1288 (5th Cir. 1985) (as
amended)). “[I]f a private entity, like the restaurant in
Burton, confers significant financial benefits indispensable to the government’s ‘financial success,’ then a
symbiotic relationship may exist.” Brunette, 294 F.3d
at 1213 (emphasis added) (quoting Vincent, 828 F.2d at
569).
The Club suggests that this indispensability element is satisfied here because the Center was indispensable to the financial success of this project:
Without the financial participation of the
Western Justice Center, there is no showing
that the City could have purchased or repaired and refurbished the property. In short,
the Western Justice Center’s financial participation in this project was even more critical
than the restaurant’s participation in the Wilmington Parking Authority’s construction of
the parking structure at issue in Burton.
ECF 35 at 1, 7. In Burton, however, the restaurant’s
profits were indispensable not only to “the State’s plan
to operate its project as a self-sustaining unit” but also
to “the financial success of a governmental agency” –
i.e., to the financial success of the parking authority
generally. Burton, 365 U.S. at 723-24. And in applying
the indispensability element, the Ninth Circuit has
consistently looked to whether a private actor was indispensable to the financial success of the public entity as a whole, not merely to a particular project. See

App. 50
Brunette, 294 F.3d at 1214 (holding that there was no
joint action where the plaintiff did not “allege the Media rendered any service indispensable to the Humane
Society’s continued financial viability” or allege that
the private actors were “indispensable, in any way,” to
the Humane Society’s “continued . . . financial success”
(emphasis added)); Vincent, 828 F.2d at 569 (“While
Trend may have been dependent economically on its
contract with the Air Force, Trend was most certainly
not an indispensable element in the Air Force’s financial success.” (emphasis added)); Scott, 522 F.2d at 1115
(“The interdependence found in Burton was more extensive. Because the financial self-sufficiency of the
state agency depended upon the profitability of the segregated restaurant, the state agency became a joint
venturer in the latter’s affairs.” (emphasis added)).
The Club emphasizes the fact that the City purchased the property for public use – that is, to benefit
the citizens of the City and its environs. ECF 35 at 1,
7; Lease Agreement ¶ 1.2. Standing alone, however,
“public benefit is not enough to confer state action.”
Gorenc, 869 F.2d at 508 (citing Jackson, 419 U.S. at
352-53). The fact that the City believes the Center’s operations benefit the citizens of the City is relevant to
but not dispositive of the state action inquiry. Furthermore, although the Club argues that the Center performs a public purpose, it does not argue that the
public function test for state action is satisfied here.
Any such argument would fail, because the functions
at issue here – operating a center for the study of dispute resolution and the administration of justice and

App. 51
preserving historic properties -are not “traditionally
and exclusively governmental.” Lee v. Katz, 276 F.3d
550, 555 (9th Cir. 2002) (citing Rendell-Baker, 457 U.S.
at 842). Nor does the Club contend that the Center “is
an agency or instrumentality” of the City, Lebron v.
Nat’l R.R. Passenger Corp., 513 U.S. 374, 394 (1995), or
that the City “intended either overtly or covertly to encourage discrimination,” Moose Lodge No. 107 v. Irvis,
407 U.S. 163, 173 (1972). The Center’s operations are
not a City program managed by the Center on the
City’s behalf; they are the Center’s program, independently operated by the Center with the City’s limited, albeit not insubstantial, support.
In sum, the specific facts and circumstances favoring a finding of joint action in this case do not come
close to approaching those present in Burton. The facts
here, simply, are not as supportive of joint action as
those in Burton.11 The court therefore concludes that

11

The court recognizes that the City could have negotiated
for a term in the lease agreement prohibiting the Center from discriminating in the rental of the premises during non-business
hours. Cf. Burton, 365 U.S. at 715 (“[I]n its lease with Eagle the
Authority could have affirmatively required Eagle to discharge
the responsibilities under the Fourteenth Amendment imposed
upon the private enterprise as a consequence of state participation.”). This is true, however, of every contractual relationship between a governmental entity and a private party. No court has
ever held that every government contractor is a state actor merely
because its contract with the government does not prohibit it from
engaging in a particular type of discrimination. Cf. Manhattan
Cmty. Access Corp., 139 S. Ct. at 1931 (“[A]s the Court has long
held, the fact that the government licenses, contracts with, or
grants a monopoly to a private entity does not convert the private

App. 52
the allegations of the FAC do not plausibly allege joint
action, or a symbiotic relationship, between the Center
and Chirlin on the one hand, and the City on the other.
In essence, given the distance between the facts in
this case and those present in Burton, the Club is not
asking the court to apply Burton to comparable facts,
but to extend Burton to a weaker set of facts. The court
declines the invitation to extend Burton because doing
so would require reading Burton expansively, contrary
to the narrow reading courts have consistently given
the case.
As the Court itself said in 1999, the last time it
discussed Burton at any length:
Burton was one of our early cases dealing with
“state action” under the Fourteenth Amendment, and later cases have refined the vague
“joint participation” test embodied in that
case. Blum and Jackson, in particular, have
established that “privately owned enterprises
providing services that the State would not
necessarily provide, even though they are extensively regulated, do not fall within the ambit of Burton.”
Am. Mfrs. Mut. Ins. Co., 526 U.S. at 57 (quoting Blum,
457 U.S. at 1011); see also Lebron, 513 U.S. at 409
(O’Connor, J., dissenting) (“Our decision in Burton . . .
was quite narrow. We recognized ‘the limits of our inquiry’ and emphasized that our decision depended on
entity into a state actor – unless the private entity is performing
a traditional, exclusive public function.”).

App. 53
the ‘peculiar facts [and] circumstances present’ . . . and
our recent decisions in this area have led commentators to doubt its continuing vitality” (alteration in
original)); Gallagher v. Neil Young Freedom Concert, 49
F.3d 1442, 1451 (10th Cir. 1995) (“Subsequent Supreme Court decisions have read Burton narrowly.” (citation omitted)); 1 Martin A. Schwartz, Section 1983
Litigation: Claims and Defenses § 5.13[A], at 5-102, 5105 (4th ed. 2019-2 Supp.) (“Although neither Burton
nor the symbiotic relationship doctrine has been overruled, they have been severely narrowed in scope and
diminished as precedent. Supreme Court decisional
law has given Burton a very narrow interpretation. . . .”);
Laurence H. Tribe, American Constitutional Law § 183, at 1701 n.13 (2d ed. 1988) (noting “Burton’s dwindling precedential power” and suggesting that “[t]he
only surviving explanation of the result in Burton may
be that found in Justice Stewart’s concurrence”); Erwin
Chemerinsky, Constitutional Law § 6.4, at 581 (6th ed.
2019) (“Burton never has been overruled. Yet practically speaking, it may be a relic of an era, before the
Civil Rights Act of 1964, when the Supreme Court tried
to find ways to apply the Constitution to forbid private
discrimination.”).
The court concludes that the FAC does not plausibly allege that Chirlin or the Center acted under color
of state law, as § 1983 requires. Chirlin and the Center,
therefore, are entitled to dismissal of the complaint’s
first three causes of action.

App. 54
B. Whether the Complaint Plausibly Alleges the Center’s Liability Under Monell
The Center seeks dismissal of the first three
causes of action on the alternative ground that the
complaint does not plausibly allege its liability under
Monell.
Under Monell, “[i]t is only when the execution of
the government’s policy or custom inflicts the injury
that the municipality may be held liable under § 1983.”
City of Canton v. Harris, 489 U.S. 378, 385 (1989) (alterations and internal quotation marks omitted). A
§ 1983 plaintiff may establish municipal liability in
one of three ways:
First, the plaintiff may prove that a city employee committed the alleged constitutional
violation pursuant to a formal governmental
policy or a longstanding practice or custom
which constitutes the standard operating procedure of the local governmental entity. Second, the plaintiff may establish that the
individual who committed the constitutional
tort was an official with final policy-making
authority and that the challenged action itself
thus constituted an act of official governmental policy. . . . Third, the plaintiff may prove
that an official with final policy-making authority ratified a subordinate’s unconstitutional decision or action and the basis for it.
Gillette v. Delmore, 979 F.2d 1342, 1346-47 (9th Cir.
1992) (citations and internal quotation marks omitted).

App. 55
As a threshold matter, the Club contends that Monell does not apply to private entities “that are state
actors” under Burton. ECF 35 at 11-12. The Club, argues, therefore, that it need not satisfy Monell’s policy
or custom requirement. In Tsao v. Desert Palace, Inc.,
698 F.3d 1128, 1138-39 (9th Cir. 2012), however, the
Ninth Circuit squarely held that Monell “applies to
suits against private entities under § 1983.” The Club’s
briefing does not discuss Tsao, let alone distinguish it.
Thus, the court concludes that, to make out a claim
against the Center, the Club must show that any constitutional violation “was caused by an official policy or
custom” of the Center. Id. at 1139.
The Club next contends that this requirement is
satisfied because the complaint “alleges that the discriminatory actions in this case were taken by the executive director and the executive committee of the
Western Justice Center,” and “[t]hese are the individuals and committees through whom the Western Justice
Center acts.” ECF 35 at 12.
Under Monell, however, the question is not
whether the Center acts through these individuals.
The question is whether these individuals possessed
“final policy-making authority” with respect to the
rental of the premises to outside groups during nonbusiness hours. Gillette, 979 F.2d at 1346. Although it
may be that these individuals possessed final policymaking authority, it is also possible – perhaps even
probable – that they possessed only decisionmaking
authority or discretion to act; final policymaking authority may have rested with the Center’s board of

App. 56
directors. FAC ¶ 6. As the Ninth Circuit explained in
Gillette,
a municipality may be held liable for a single
decision by a municipal policymaker. Municipal liability does not attach, however, unless
the decisionmaker possesses final authority to
establish municipal policy with respect to the
action ordered. The fact that a particular official – even a policy-making official – has discretion in the exercise of particular functions
does not, without more, give rise to municipal
liability based on an exercise of that discretion.
Id. at 1349 (citations and internal quotation marks
omitted). In Pembaur v. City of Cincinnati, 475 U.S.
469 (1986), for instance, “the personnel decisions of a
County Sheriff, who ha[d] discretion to hire and fire
employees but [wa]s not the county official responsible
for establishing county employment policy, could not be
attributed to the municipality.” Gillette, 979 F.2d at
1349 (citing Pembaur, 475 U.S. at 484 n.12).
Because the court dismisses the claims against the
Center on a different ground (the under-color-of-statelaw requirement), it need not address whether the
complaint adequately alleges the Center’s liability under Monell. The Club is advised, however, that, should
it elect to file a second amended complaint, it should
more fully and clearly allege – to the extent feasible –
facts supporting the inference that any constitutional
violation was caused by an official policy or custom of
the Center, as required by Tsao.

App. 57
C. Whether the Complaint Fails to State a
Claim Under 1985, Given the Absence of
the City’s Involvement
As noted, the Club’s fourth cause of action alleges
that Chirlin conspired with others to deprive the Club
and its members of their rights under the First Amendment. FAC ¶¶ 56-60. Although the complaint alleges
only that this claim arises under § 1985, the briefing
makes clear that the claim arises under § 1985(3).12 In
the motion to dismiss, Chirlin contends that the complaint fails to state a claim under § 1985(3) because it
does not allege that the City was involved in the alleged conspiracy. ECF 26 at 19. Chirlin relies on United
Brotherhood of Carpenters & Joiners of America, Local
610, AFL-CIO v. Scott, 463 U.S. 825, 830 (1983), where
the Supreme Court held that “an alleged conspiracy to
infringe First Amendment rights is not a violation of
§ 1985(3) unless it is proved that the state is involved

12

42 U.S.C. § 1985(3) states:
If two or more persons in any State or Territory conspire . . . for the purpose of depriving, either directly or
indirectly, any person or class of persons of the equal
protection of the laws, or of equal privileges and immunities under the laws; . . . in any case of conspiracy
set forth in this section, if one or more persons engaged
therein do, or cause to be done, any act in furtherance
of the object of such conspiracy, whereby another is injured in his person or property, or deprived of having
and exercising any right or privilege of a citizen of the
United States, the party so injured or deprived may
have an action for the recovery of damages occasioned
by such injury or deprivation, against any one or more
of the conspirators.

App. 58
in the conspiracy or that the aim of the conspiracy is to
influence the activity of the state.”
The Club argues that the state involvement requirement is satisfied because, “[u]nder Burton, the
Western Justice Center and the City of Pasadena are
joint participants in the discrimination.” ECF 35 at 13.
As discussed above, however, the complaint does not
plausibly allege joint action under Burton. The complaint, moreover, does not allege that the City was involved in any way with the decisions of the Center
challenged in this action. Accordingly, the court concludes that the complaint fails to state a claim under
§ 1985(3).
D. Whether the Complaint Fails to State a
Claim Under 1985 Because § 1985(3)
Does Not Apply to Conspiracies Motivated by Political or Religious Animus
Chirlin argues in the alternative that the complaint fails to state a claim under § 1985(3) because “it
alleges, at most, a politically motivated conspiracy,
which Section 1985(3) does not reach.” ECF 26 at 1920.
Under Ninth Circuit case law, § 1985(3) – which
was adopted to address racially motivated conspiracies
– applies to other types of class-based animus where
there has been a “governmental determination that
such a class merits special protection.” Schultz v.
Sundberg, 759 F.2d 714, 718 (9th Cir. 1985). This “require[s] either that the courts have designated the

App. 59
class in question a suspect or quasi-suspect classification requiring more exacting scrutiny or that Congress
has indicated through legislation that the class required special protection.” Id.
It does not appear that the Ninth Circuit has addressed whether § 1985(3) reaches conspiracies motivated by political or religious animus, see Peloza v.
Capistrano Unified Sch. Dist., 37 F.3d 517, 524 (9th Cir.
1994) (“We do not decide whether . . . Establishment
Clause rights[ ] fall within the protection of section
1985(3).”), and other circuits are divided on these questions. Compare Colombrito v. Kelly, 764 F.2d 122, 13031 (2d Cir. 1985) (religiously motivated animus covered), Taylor v. Gilmartin, 686 F.2d 1346, 1357-58 (10th
Cir. 1982) (same), and Ward v. Connor, 657 F.2d 45, 48
(4th Cir. 1981) (same), with Word of Faith World Outreach Ctr. Church, Inc. v. Sawyer, 90 F.3d 118, 124 (5th
Cir. 1996) (religion not covered); also compare Cameron
v. Brock, 473 F.2d 608, 610 (6th Cir. 1973) (politically
motivated animus covered), with Perez-Sanchez v.
Pub. Bldg. Auth., 531 F.3d 104, 108-09 (1st Cir. 2008)
(O’Connor, J.) (political animus not covered).
Because the court dismisses the § 1985(3) claim on
the alternative ground that the complaint does not
plausibly allege state involvement, it need not reach
this question, and it declines to do so.
II.

Summary Judgment

As noted above, the complaint asserts three causes
of action against the City, each of which arises under

App. 60
§ 1983.13 The City’s summary judgment motion argues
that the City is entitled to judgment as a matter of law
on these claims because the Club has not identified any
City “policy or custom” that was the moving force behind any alleged violation of the Club’s constitutional
rights, as required under Monell. ECF 27. In response,
the Club argues, first, that Monell’s policy or custom
requirement does not apply here and, in the alternative, that Monell is satisfied because the City has delegated policymaking authority to the Center. ECF 34.
The court addresses these arguments seriatim.
A. Whether Monell’s Custom or Policy Requirement Applies
The Club contends that it need not satisfy Monell’s
policy or custom requirement; that, so long as it can
establish joint action under Burton, the City is liable
for any constitutional violation committed by the Center, irrespective of any showing that the violation was
caused by an official policy or custom of the City. In the
Club’s view, Burton “held that when a city leases property to a private entity in such a manner, for the purpose of helping to pay for the construction of the public
property, both the private entity and the city are bound
by the requirements of the Fourteenth Amendment.”
13

The City’s summary judgment motion is also directed
against the fourth cause of action, which is predicated on a violation of § 1985(3). But that cause of action is alleged only against
defendant Chirlin. Thus, the court treats that portion of the City’s
summary judgment motion as surplusage and need not address
it.

App. 61
ECF 34 at 7 (emphasis added) (citing Burton, 365 U.S.
at 726). According to the Club, to apply the policy or
custom requirement here, the court would have to hold
that “Burton was somehow impliedly overruled by Monell.” ECF 34 at 12.
This argument misapprehends Burton in several
significant respects. First, Burton was decided 17 years
before Monell. It is therefore unremarkable that Burton did not discuss Monell’s policy or custom requirement. Second, Burton was not a § 1983 case, and it did
not involve a municipal entity: the governmental actor
in Burton – the Wilmington Parking Authority – was a
state agency. See Burton, 365 U.S. at 716 (“The parking
building is owned and operated by the Wilmington
Parking Authority, an agency of the State of Delaware. . . .”); id. at 717, 724, 725, 726 (same). Thus, even
if Monell had been on the books in 1961, it would have
had no application to the case. Third, even if the parking authority had been a municipal entity, Burton did
not address the liability of the parking authority. The
only issue the Court decided was whether the restaurant could be held liable. See id. at 726 (“[W]hat we
hold today is that when a State leases public property
in the manner and for the purpose shown to have been
the case here, the proscriptions of the Fourteenth
Amendment must be complied with by the lessee as certainly as though they were binding covenants written
into the agreement itself.” (emphasis added)).
For all of these reasons, the Club errs by arguing
that Burton provides a way to establish municipal liability under § 1983 without having to demonstrate

App. 62
that the alleged constitutional violation was caused by
a municipal policy or custom. Burton did not address
municipal liability or § 1983. Accordingly, the court
does not read Burton as establishing an exception to
Monell.
Even assuming, however, that Burton’s joint action test provides an alternative path for establishing
municipal liability under § 1983, the court is not persuaded that such an exception to Monell would apply
here. In addressing Chirlin and the Center’s motion to
dismiss, the court explained why, based on the Club’s
allegations, the complaint does not establish joint action or a symbiotic relationship between the City and
the Center under Burton. The court reaches the same
conclusion upon its review of the evidence in the
summary judgment record. The material facts in the
summary judgment record – which are materially indistinguishable from the allegations in the complaint
– are undisputed. ECF 27-1; 34-1. Accordingly, the
court may determine as a matter of law whether the
Center and the City were joint actors under Burton.
See Han v. Mobil Oil Corp., 73 F.3d 872, 875 (9th Cir.
1995) (“When a mixed question of fact and law involves
undisputed underlying facts, summary judgment is appropriately granted.”). For the reasons discussed in addressing the motion to dismiss, the court concludes as
a matter of law that the Center and the City were not
joint actors under Burton. The facts and circumstances
supporting a finding of joint action here simply are not
as compelling as those in Burton, and the court is not
prepared to read Burton expansively – extending it to

App. 63
a weaker set of facts – when the Supreme Court and
the Ninth Circuit have consistently read the case narrowly.
In sum, the court concludes that Monell applies
here because, first, Burton does not establish an exception to Monell’s policy or custom requirement and, second, even if such an exception existed, it would not be
satisfied here because the summary judgment record
does not support a finding of joint action under Burton.
The Club, therefore, must show that any alleged constitutional violation was caused by an official policy or
custom of the City.
B. Whether the Policy or Custom Requirement Is Satisfied Here
As noted, a § 1983 plaintiff can satisfy Monell’s
policy or custom requirement in one of three ways, including, as relevant here, by proving “that the individual who committed the constitutional tort was an
official with ‘final policymaking authority’ and that the
challenged action itself thus constituted an act of official governmental policy.” Gillette, 979 F.2d at 1346.
Final policymaking authority, moreover, may be “delegated by an official who possesses such authority.”
Christie v. Iopa, 176 F.3d 1231, 1236 (9th Cir. 1999)
(quoting City of St. Louis v. Praprotnik, 485 U.S. 112,
124 (1988) (plurality opinion)).
The Club relies on this delegation theory here, arguing that the alleged constitutional violations were
caused by a City policy because “[t]he City delegated to

App. 64
the Western Justice Center the authority to make final
policy regarding rental of the City-owned Maxwell
House property during nonbusiness hours.” ECF 34
at 15. The Club contends that the City delegated this
authority to the Club because the lease agreement
“gave the Western Justice Center total discretion over
whether and to whom the property could be rented
during nonbusiness hours.” ECF 34 at 15.
The Court agrees with the Club that the Center,
and not the City, possesses final policymaking authority regarding whether and to whom the Maxwell
House may be rented during non-business hours. The
Center’s policies with respect to these rentals are not
constrained by City policies or subject to the City’s review. See Christie, 176 F.3d at 1236-37 (citing Praprotnik, 485 U.S. at 127). The Center, therefore, is the
final policymaker with respect to this rental policy.
That, however, is not the end of the inquiry. To satisfy Monell, the Club also must establish that the Center’s policies are those of the City – i.e., that when the
Center establishes policy governing the rental of the
premises, it is exercising policymaking authority that
the City has delegated to the Center and that it is
therefore establishing policy on behalf of the City. The
court is not persuaded that the Club has made this
showing.
There is no question that, when the City acquired this property and leased it to the Center, it
conveyed to the Center the right and authority to
rent the premises to outside groups. The record does

App. 65
not suggest, however, that this was anything other
than a conveyance of a property interest, rather than
the delegation of City policymaking authority. Compare Delegate, Black’s Law Dictionary (11th ed. 2019)
(“To send as a representative with authority to act; to
depute”; “To give part of one’s power or work to someone in a lower position within one’s organization <delegated legislative functions>.”), with Conveyance, Black’s
Law Dictionary (“The voluntary transfer of a right or
of property.”), and Lease, Black’s Law Dictionary (“A
contract by which a rightful possessor of real property
conveys the right to use and occupy the property in
exchange for consideration, usu. rent.” (emphases
added)).
Case law explains that delegation occurs when a
city delegates a city function to a private party, something that did not occur here: “for an official’s acts to
constitute municipal policy, it must be demonstrated
that policymaking authority for a particular city function was delegated to that official.” Hammond v.
County of Madera, 859 F.2d 797, 802 (9th Cir. 1988)
(emphasis added), abrogated on other grounds as
stated in L.W. v. Grubbs, 92 F.3d 894, 898 (9th Cir.
1996). In King v. Kramer, 680 F.3d 1013, 1020 (7th Cir.
2012), and Ancata v. Prison Health Services, Inc., 769
F.2d 700, 704-05 & n.9 (11th Cir. 1985), for example,
the delegation doctrine applied where counties delegated to private entities their duty to provide medical care to county jail inmates. Similarly, in Herrera
v. County of Santa Fe, 213 F. Supp. 2d 1288, 1292
(D.N.M. 2002), the delegation doctrine applied where

App. 66
the county delegated operation of the county detention
center to a private entity. Alternatively, delegation may
occur when a municipality contracts with a private
party to manage municipal property. Cf. Manhattan
Cmty. Access Corp., 139 S. Ct. at 1933 (suggesting that
state action would exist if a private entity was “simply
managing government property on behalf of ” a city).
Here, the evidence establishes only that the City
conveyed a property interest to the Center. Under the
lease, the Center acquired the right to rent the premises to outside groups during non-business hours.
Thus, when the Center rents the premises to outside
groups, it is exercising its own authority as the holder
of a possessory interest in the property, and it is renting out the premises on its own behalf. There is no evidence that policymaking authority for a particular
city function was delegated to the Center, that the Center is exercising City authority when it rents out the
premises, or that the Center is renting out the premises on the City’s behalf. As noted earlier, the Center’s
activities are not City programs managed by the Center on the City’s behalf; they are the Center’s own programs, operated by the Center on its own behalf, with
the limited, albeit not insubstantial, support of the
City.
In sum, because the undisputed facts show that
the Center was not delegated final policymaking authority by the City, the Club cannot establish that the
alleged constitutional violations were caused by an official policy or custom of the City, as required under

App. 67
Monell. The City, therefore, is entitled to summary
judgment on the Club’s § 1983 claims.
CONCLUSION
Chirlin and the Center’s motion to dismiss the
first amended complaint (ECF 26) is granted. The Club
is granted 30 days’ leave to file a second amended complaint as against these defendants. See Lopez v. Smith,
203 F.3d 1122, 1127 (9th Cir. 2000) (en banc) (“[I]n dismissing for failure to state a claim under Rule 12(b)(6),
‘a district court should grant leave to amend even if no
request to amend the pleading was made, unless it determines that the pleading could not possibly be cured
by the allegation of other facts.’ ” (quoting Doe v. United
States, 58 F.3d 494, 497 (9th Cir. 1995)).14 Alternatively,
the Club may notify the court that it does not intend to
amend, or if the Club fails to file a second amended
complaint within the time allowed, judgment shall be
entered in favor of Chirlin and the Center in accordance herewith.

14

The Ninth Circuit recently held that the plaintiff-appellant had “waived its right to amend” its complaint because “it
never asked the district court for such relief.” City of San Juan
Capistrano v. Cal. Pub. Util. Comm’n, 937 F.3d 1278, 1282 (9th
Cir. 2019). That case involved waiver of the right when it is raised
for the first time on appeal. Waiver has not been raised in this
case and it remains to be seen to what extent San Juan Capistrano affects, in district court, a party’s right to amend recognized in Smith v. Lopez.

App. 68
The City’s motion for summary judgment (ECF
27) is granted.15 Partial judgment in favor of the City
shall be entered.
Dated: December 30, 2019.
/s/ A. Wallace Tashima
A. WALLACE TASHIMA
United States Circuit Judge
Sitting by Designation

15

Although, in limited circumstances, the Court has the discretion to permit a complaint to be amended after the grant of
summary judgment, see Nguyen v. United States, 792 F.2d 1500,
1503 (9th Cir. 1986) (“Granting leave to amend after summary
judgment is . . . allowed at the discretion of the trial court”), the
Club has not sought further leave to amend. Moreover, it appears
that further amendment with respect to the City would be futile.

App. 69
ANTHONY T. CASO, No. 088561
Center for Constitutional Jurisprudence
c/o Chapman Univ. Fowler Sch. of Law
One University Drive
Orange, CA 92806
Telephone: (916) 601-1916
Fax: (916) 307-5164
E-Mail: tom@caso-law.com
Attorney for Plaintiffs
Pasadena Republican Club
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
PASADENA REPUBLICAN ) Case No. 2:18-cv-09933
CLUB, a General Purpose )
SJO (AFMx)
Political Committee,
) FIRST AMENDED
on behalf of itself and
) COMPLAINT FOR
its members
) INJUNCTIVE AND
)
Plaintiffs,
DECLARATORY
) RELIEF AND DAMAGES
v.
) (42 U.S.C. §§1983, 1985)
)
WESTERN JUSTICE
DEMAND FOR
)
CENTER, a California
JURY TRIAL
)
nonprofit corporation,
(Filed Feb. 5, 2019)
JUDITH CHIRLIN, and )
)
CITY OF PASADENA,
)
Defendants.
)
JURISDICTION
1. This Court has jurisdiction to hear this claim
pursuant to 28 U.S.C. §1331 (federal question) since

App. 70
the claims asserted herein arise out of the laws of the
United States (42 U.S.C. §§1983, 1985) and the Speech
and Religion Clauses of the First Amendment to the
United States Constitution.
VENUE
2. Venue is proper in this district pursuant to 13
U.S.C. §1391(c)(1) because all defendants are entities
that are subject to this Court’s personal jurisdiction.
The CITY OF PASADENA is a government body that
is located within this district. The WESTERN JUSTICE CENTER is a nonprofit corporation that is physically located in the CITY OF PASADENA. JUDITH
CHIRLIN served as Executive Director of the WESTERN JUSTICE CENTER at the time of the events giving rise to this litigation and, on information at belief,
continues to maintain an office address in the City of
Los Angeles, California. At the time of the events giving rise to these events, CHIRLIN maintained an office
at the WESTERN JUSTICE CENTER in Pasadena,
California.
INTRODUCTION
3. This is civil rights claim pursuant to 42 U.S.C.
§§ 1983 and 1985 for declaratory and injunctive relief
and money damages. The WESTERN JUSTICE CENTER, managing property owned by the CITY OF PASADENA, canceled an event that was to be held at that
property because JUDITH CHIRLIN, executive director of WESTERN JUSTICE CENTER, and members of

App. 71
the Center’s executive committee disagreed with the
viewpoint of a religious organization with which the
speaker was affiliated. However, as state actor, managing the public property of the CITY OF PASADENA for
public purposes of the CITY, WESTERN JUSTICE
CENTER “was obliged under the Free Exercise Clause
to proceed in a manner neutral toward and tolerant of
. . . [the] religious beliefs” of the speaker chosen by the
PASADENA REPUBLICAN CLUB. Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Commission, 135
S.Ct. 1719, 1731 (2018). Further, when it opens a public
facility for community meetings, even on a limited basis, neither the CITY OF PASADENA nor THE WESTERN JUSTICE CENTER may discriminate against
groups based on the viewpoint of the speaker or the
group. Access to even nonpublic forums cannot be limited based a public officials’ opposition to the views of
the speaker or the organization. Cornelius v. NAACP
Legal Defense and Educational Fund, 473 U.S. 788, 800
(1985); Perry Education Assn. v. Perry Local Educators’
Assn., 460 U.S. 37, 46 (1983). The cancellation of this
event based on the speaker’s viewpoint and religious
views is a clear violation of well-settled law concerning
the Freedom of Speech and Free Exercise of Religion
guaranteed by the First Amendment of the United
States Constitution. Further, the adopted policy of the
WESTERN JUSTICE CENTER to discriminate among
groups based on political viewpoint regarding rental
of the property is also a clear violation of well-settled
law concerning the Freedom of Speech guaranteed
by the First Amendment of the United States Constitution. JUDITH CHIRLIN and members of the staff

App. 72
and executive committee of the WESTERN JUSTICE
CENTER conspired to deprive the PASADENA REPUBLICAN CLUB and its members of their civil
rights to be free from religious and political viewpoint
discrimination when they cancelled the contract for
the Club to hold an event just hours before the event
was to take place, and refused to rent to the Club for
future events.
PARTIES
4. The PASADENA REPUBLICAN CLUB is the
oldest continuously active Republican Club in America. It is a voluntary membership organization that
was founded in 1884 by Colonel Jabez Banbury, one of
the early settlers of Pasadena and a veteran of the
Civil War. The club exists to allow its members to join
together to elect candidates to federal, state, and local
office and to provide a medium for the expression of
political ideals and principles of the membership. This
includes joining together to support the election of
President Trump as the republican candidate for President of the United States and to support the election
of other republican candidates to local, state, and national office. To this end, the club invites speakers to
its meetings to educate members on the issues of the
day. It is affiliated with the California Republican
Party and the Republican Party of Los Angeles and
it independently files reports with the California
Fair Political Practices Commission as a General Purpose Committee with the sub-designation or Political

App. 73
Committee/Central Committee. It brings this action on
behalf of itself and its members.
5. The CITY OF PASADENA is a city in the
State of California that exercises government powers
within the city limits. The City owns the property located at 55-85 South Grand Avenue, Pasadena, which
includes the Maxwell House where the events that are
the subject of this dispute were scheduled to take
place.
6. The WESTERN JUSTICE CENTER is a
501(c)(3) nonprofit corporation. It was formed by state
and federal judges and prominent attorneys. It continues to name as officers and members of its board
judges that sit on the Los Angeles Superior Court,
United States Bankruptcy Court, the United States
Federal District Court for the Central District of California, and the United States Court of Appeals for
the Ninth Circuit. The WESTERN JUSTICE CENTER
leases, from the CITY OF PASADENA, property located within the City located at 55-85 South Grand Avenue, Pasadena, California.
7. JUDITH CHIRLIN was the executive director
of the WESTERN JUSTICE CENTER at the time of
the events at issue in this action.

App. 74
FACTS
WESTERN JUSTICE CENTER
AND THE CITY OF PASADENA
8. On or about April 4, 1989, WESTERN JUSTICE CENTER and the Pasadena Surplus Property
Authority entered into a 55-year lease for the WESTERN JUSTICE CENTER to occupy property owned by
the Authority that includes the Maxwell House in the
City of Pasadena. The properties are identified in the
lease as 55-85 South Grand Avenue, Pasadena. WESTERN JUSTICE CENTER has an option under the
lease to extend the lease for an additional 44 years.
9. The Surplus Property Authority was a public
corporation formed by action of the CITY OF PASADENA pursuant to state law for the purpose of acquiring surplus property of the United States for the
benefit of the people of the CITY OF PASADENA. The
City Council of the CITY OF PASADENA was the governing body of this Surplus Property Authority and the
Mayor of the CITY OF PASADENA was the presiding
officer.
10. The purpose of the lease, as stated in that
document, was to benefit the citizens of Pasadena
through “a center for the study of dispute resolution
and the administration of justice, to provide additional
employment and revenues to the local economy, to provide for improvements in both local, regional, national,
and international components of the legal system, to
provide a forum for educational research, and for the
purpose of insuring the restoration and historical

App. 75
perseveration of the premises.” An additional purpose
of the lease was to insure the restoration and historic
preservation of the property.
11. The lease expressly stated that it was not for
commercial purposes and imposed limits on the types
of entities that could occupy the premises. Paragraph
5.1 of the lease specified that the property could only
be used “for the purposes described in the Plan of Public Use for Surplus Property.” The lease expressly prohibited subletting to lawyers offering services for
profit.
12. The Plan of Public Use for Surplus Property
referred to in the lease limited the subletting of the
property to “nonprofits with law-related purposes” particularly regarding judicial administration, alternative
dispute resolution, continuing education of the bar, and
justice reform. The lease required WESTERN JUSTICE CENTER to notify the CITY OF PASADENA of
any sublease and expressly prohibited any sublessee to
use the property for any use not authorized in the lease
between WESTERN JUSTICE CENTER and the CITY
OF PASADENA.
13. The lease also authorized the WESTERN
JUSTICE CENTER to use the premises for “community meetings and other purposes during non-business
hours.”
14. The lease was amended in 1990 and again
in 1993 by the Surplus Property Authority to alter the
improvement schedule for the property. On July 16,
1994, the property was transferred to the City of

App. 76
Pasadena subject to the lease. The City executed a
third amendment to the lease on July 18, 1994 to provide up to $458,000 to WESTERN JUSTICE CENTER
for tenant improvements on the property and fixing
the rent at a rate to repay the amount used for tenant
improvements. None of the restrictions on use of the
property were altered in the amendments to the lease,
nor did the amendments disclaim the public purpose of
the lease.
15. The CITY OF PASADENA used its government authority to borrow money that was provided to
WESTERN JUSTICE CENTER to complete improvements on the property. WESTERN JUSTICE CENTER’s rent payments to the CITY OF PASADENA
were calculated to repay the loans. All of these loans
have now been repaid and the current rent through the
end of the lease is $1.00 per month.
THE CONTRACT WITH THE
PASADENA REPUBLICAN CLUB
16. At the time of the events in question, the
WESTERN JUSTICE CENTER rented the property in
question for after-hours use to the PASADENA REPUBLICAN CLUB and other groups for meetings.
17. In January or February of 2017, Lynn Gabriel, president of the PASADENA REPUBLICAN
CLUB, executed a contract with the WESTERN JUSTICE CENTER to rent the Maxwell House for an event
on April 20, 2017, for a rental fee of $190. On or about

App. 77
February 17, 2017, the PASADENA REPUBLICAN
CLUB made the final payment for the rental.
18. After the contract for this rental was concluded, JUDITH CHIRLIN informed the PASADENA
REPUBLICAN CLUB that the executive committee of
the WESTERN JUSTICE CENTER would no longer
rent the Maxwell House “to political groups – one side
or the other” and thus the property would not be available for rental to the PASADENA REPUBLICAN
CLUB in May. At the time JUDITH CHIRLIN and
WESTERN JUSTICE CENTER announced this “policy,” they were subleasing a portion of the CITY OF
PASADENA property located at 55-85 South Grand
Avenue to the League of Women Voters of Pasadena
Area which describes itself as a “political organization
and which opposes President Trump, the republican
President supported by PASADENA REPUBLICAN
CLUB. Subsequent to the adoption of this new “policy,”
WESTERN JUSTICE CENTER allowed League of
Women Voters of Pasadena Area to use a portion of the
Maxwell House property for an event at which the
League discussed its opposition to President Trump.
On information and belief, the CITY OF PASADENA
was aware of the sublease of city property to the
League of Women Voters of Pasadena Area by the
WESTERN JUSTICE CENTER at the time of these
events.
19. The rental contract for the April 20, 2017
event noted that the property was owned by the CITY
OF PASADENA. The contract further required a disclaimer to be printed on any flyer or publicity for the

App. 78
event with the words: “The Western Justice Center/
Maxwell House does not endorse the views expressed
by this organization or its speakers.” The contract was
signed by Lynn Gabriel for the PASADENA REPUBLICAN CLUB and JUDITH CHIRLIN on behalf of the
WESTERN JUSTICE CENTER. CHIRLIN was the
Executive Director of the WESTERN JUSTICE CENTER at that time. The PASADENA REPUBLICAN
CLUB advertisements for the April 20 event complied
with this notice requirement.
20. At or before the time she executed this contract for the rental of Maxwell House from WESTERN
JUSTICE CENTER, Lynn Gabriel, president of the
PASADENA REPUBLICAN CLUB, notified JUDITH
CHIRLIN, the then Executive Director of the WESTERN JUSTICE CENTER, that the planned speaker for
the event was Dr. John Eastman.
21. Dr. Eastman is the former dean of the law
school at Chapman University and a nationally recognized expert on Constitutional Law. He is currently the
Henry Salvatori Professor of Law and Community Service at the Chapman University, Dale E. Fowler School
of Law. He is also the Director of the Center for Constitutional Jurisprudence, a public interest law firm affiliated with The Claremont Institute, through which he
has participated in more than 140 cases of constitutional significance before the Supreme Court of the
United States. He has a Ph.D. in Government with
fields of concentration in Political Philosophy, American Government, Constitutional Law, and International Relations from the Claremont Graduate School.

App. 79
He speaks on issues of law and politics on national radio and television programs as well as to civic groups
and law schools across the nation.
22. The PASADENA REPUBLICAN CLUB collects a fee from its members at meetings, and the
speaker for the meeting is a draw to help the PASADENA REPUBLICAN CLUB to raise money and defer
the cost of the rental of the venue for the meeting.
23. The PASADENA REPUBLICAN CLUB advertised the planned April 20, 2017 event listing Dr.
Eastman as the speaker. The publicity noted that the
cost to attend would be $10.00 for members. In accordance with the requirements of the contract, the publicity of the event contained the following disclaimer:
“The Western Justice Center/Maxwell House does not
endorse the views expressed by this organization or its
speakers.”
THE WESTERN JUSTICE CENTER CANCELS
THE CONTRACT AT THE LAST-MINUTE
24. At 3:43 pm on the day of the event, the then
Executive Director of WESTERN JUSTICE CENTER,
JUDITH CHIRLIN, sent an email to Lynn Gabriel, the
president of the PASADENA REPUBLICAN CLUB to
state that WESTERN JUSTICE CENTER was cancelling the event that was scheduled to take place less
than three hours from the time of the email. CHIRLIN
explained that “While I knew that Prof Eastman was
a professor and author, we learned just today that he
is the President of the National Organization for

App. 80
Marriage (NOM). NOM’s positions on same-sex marriage, gay adoption, and transgender rights are antithetical to the values of the Western Justice Center. . . .
WJC works to improve campus climates with a special
focus on LGBT bias and bullying. We work to make
sure that people recognize and stop LGBT bullying.
Through these efforts we have built a valuable reputation in the community, and allowing your event in our
facility would hurt our reputation in the community.”
25. The National Organization for Marriage is a
national organization that works to defend marriage
and the faith communities that sustain it at the local,
state, and national levels. The ideals of the organization are rooted in both social science and the religious
beliefs of its members. The organization advocates for
marriage as a relationship between one man and one
woman in the courts and before the legislative bodies
at the local, state, and national level. It does not advocate bias of any type and it does not engage in bullying.
26. Lynn Gabriel immediately placed a telephone
call to JUDITH CHIRLIN in an attempt to reach an
accommodation. Gabriel noted that since CHIRLIN
had told Gabriel that the PASADENA REPUBLICAN
CLUB would not be allowed to rent this space in the
future that CENTER should allow this meeting to take
place as planned. CHIRLIN responded that she and
the executive committee had discussed the matter and
the executive committee would not consent to allow the
meeting to be held at the Maxwell House.

App. 81
27. By waiting until 3:43 pm to cancel the event
scheduled for 6:30 pm that evening, CHIRLIN, acting
on behalf of WESTERN JUSTICE CENTER and the
CITY OF PASADENA, sought to ensure that the event
could not be held at all and to impose the maximum
level of inconvenience for the PASADENA REPUBLICAN CLUB.
28. By canceling this event at the last minute
solely because they disagreed with the political and religious beliefs of the speaker, CHIRLIN, the executive
committee, and WESTERN JUSTICE CENTER acted
with malice, oppression, intending to harm PASADENA
REPUBLICAN CLUB and its members for harboring
beliefs contrary to those promoted by WESTERN JUSTICE CENTER. These actions constitute willful and
wanton misconduct. As a retired California Judge,
CHIRLIN is presumably aware of the provisions of the
United States Constitution and was therefore aware
that the action she took on behalf of the WESTERN
JUSTICE CENTER was unconstitutional. Further, the
Board and, on information and belief, the executive
committee of the WESTERN JUSTICE CENTER include judges of the United States District Court for the
Central District of California and the United States
Circuit Court of Appeals for the Ninth Circuit, who
likewise are aware of the provisions of the United
States Constitution and know that discrimination on
the basis of political viewpoint and religious belief in
the rental of public property violates the United States
Constitution unless supported by a compelling governmental interest. JUDITH CHIRLIN’s, the WESTERN

App. 82
JUSTICE CENTER’s, and its executive committee’s
hatred of contrary political viewpoints and religious
beliefs is not a compelling governmental interest.
29. Because of the last-minute cancellation of
the contract to use the Maxwell House property, PASADENA REPUBLICAN CLUB had trouble finding an
alternate facility to hold its program. After a frantic
search, PASADENA REPUBLICAN CLUB was able to
book the University Club of Pasadena for the event
that night, but at a cost of $500 – more than double the
cost of the agreed rental price for the Maxwell House
30. After a substitute facility that could accommodate the meeting that evening was located and
booked, there was no time to alert all the members of
PASADENA REPUBLICAN CLUB about the change
in meeting location. This required Lynn Gabriel, president of PASADENA REPUBLICAN CLUB, to stand
outside the Maxwell House on the night of the event to
redirect PASADENA REPUBLICAN CLUB members
to the new venue, causing her to miss the event herself.
31. Not all of PASADENA REPUBLICAN CLUB
members made it to the new venue. Attendance at the
event at the University Club was one-third below average attendance. PASADENA REPUBLICAN CLUB
was planning on a higher than average attendance because of Dr. Eastman’s national reputation and frequent appearances on national television and radio
programs.

App. 83
First Cause of Action
Viewpoint Discrimination in
violation of the First Amendment
and 42 U.S.C. §1983
(All Defendants)
32. Plaintiffs restate the allegations of paragraphs 1-31, inclusive, as if fully restated in this Cause
of Action.
33. Maxwell House, the property leased by the
WESTERN JUSTICE CENTER, is owned by the CITY
OF PASADENA and is included in the property identified as 55-85 South Grand Avenue, Pasadena. The
property is leased to WESTERN JUSTICE CENTER
to promote the government purposes of the CITY OF
PASADENA. In operating and subletting the property,
WESTERN JUSTICE CENTER and JUDITH CHIRLIN,
its Executive Director at the time of the events giving
rise to this complaint, are “state actors” for purposes of
the United States Constitution and 42 U.S.C. §1983
and the CITY OF PASADENA is responsible for discrimination by the WESTERN JUSTICE CENTER in
the operation of this property
34. Public property opened for lease by community groups must be available without regard to the
viewpoint of the organization or the speaker.
35. PASADENA REPUBLICAN CLUB, and its
members, had a right under the First Amendment to
use the Maxwell House on the same basis as other
organizations without regard to its viewpoint or the
viewpoint of the speakers it chose for its event.

App. 84
36. WESTERN JUSTICE CENTER, JUDITH
CHIRLIN, and the CITY OF PASADENA discriminated against PASADENA REPUBLICAN CLUB based
on the viewpoint of the speaker it chose for its event,
thereby denying PASADENA REPUBLICAN CLUB
and its members of their rights under the First Amendment.
37. The CITY OF PASADENA permitted WESTERN JUSTICE CENTER to engage in viewpoint discrimination in the rental of city owned property that
was leased to WESTERN JUSTICE CENTER for government purposes.
38. WESTERN JUSTICE CENTER, JUDITH
CHIRLIN, and the CITY OF PASADENA violated the
rights of PASADENA REPUBLICAN CLUB and its
members under 42 U.S.C. §1983.
39. WESTERN JUSTICE CENTER and JUDITH CHIRLIN acted with malice, oppression, and
wanton and intentional disregard of the rights of PASADENA REPUBLICAN CLUB and its members when
it cancelled this contract based on the political viewpoint of the scheduled speaker.
Wherefore, plaintiff prays for judgment as follows.

App. 85
Second Cause of Action
Religious Belief Discrimination in
violation of the First Amendment
And 42 U.S.C. §1983
(All defendants)
40. Plaintiffs restate the allegations of paragraphs 1-39, inclusive, as if fully restated in this Cause
of Action.
41. Maxwell House, the property leased by the
WESTERN JUSTICE CENTER, is owned by the CITY
OF PASADENA and is included in the property identified as 55-85 South Grand Avenue, Pasadena. The
property is leased to WESTERN JUSTICE CENTER
to promote the government purposes of the CITY OF
PASADENA. In operating and subletting the property,
WESTERN JUSTICE CENTER and JUDITH CHIRLIN,
its Executive Director at the time of the events giving
rise to this complaint, are “state actors” for purposes of
the United States Constitution and 42 U.S.C. §1983
and the CITY OF PASADENA is responsible for discrimination by the WESTERN JUSTICE CENTER in
the operation of this property
42. Public property opened for rental or lease by
community groups must be available without regard to
the viewpoint of the organization.
43. PASADENA REPUBLICAN CLUB, and its
members, had a right under the First Amendment to
use the Maxwell House on the same basis as other organizations without regard to its viewpoint.

App. 86
44. In adopting a policy that was applied only to
PASADENA REPUBLICAN CLUB and not other political organizations subleasing city property from the
WESTERN JUSTICE CENTER, JUDITH CHIRLIN,
and the CITY OF PASADENA discriminated against
PASADENA REPUBLICAN CLUB based on the viewpoint of the CLUB and its members, thereby denying
PASADENA REPUBLICAN CLUB and its members of
their rights under the First Amendment.
45. The CITY OF PASADENA permitted WESTERN JUSTICE CENTER to engage in viewpoint discrimination in the rental of city owned property that
was leased to WESTERN JUSTICE CENTER for government purposes.
46. WESTERN JUSTICE CENTER, JUDITH
CHIRLIN, and the CITY OF PASADENA violated the
rights of PASADENA REPUBLICAN CLUB and its
members under 42 U.S.C. §1983.
47. WESTERN JUSTICE CENTER and JUDITH CHIRLIN acted with malice, oppression, and
wanton and intentional disregard of the rights of PASADENA REPUBLICAN CLUB and its members when
it adopted a policy prohibiting the PASADENA REPUBLICAN CLUB from renting the property while the
WESTERN JUSTICE CENTER continued to sublease
a portion of the property to a political organization
with a different viewpoint.
Wherefore, plaintiff prays for judgment as follows.

App. 87
Third Cause of Action
Religious Belief Discrimination in
violation of the First Amendment
and 42 U.S.C. §1983
(All defendants)
48. Plaintiffs restate the allegations of paragraphs 1-47, inclusive, as if fully restated in this Cause
of Action.
49. Maxwell House, the property leased by the
WESTERN JUSTICE CENTER, is owned by the CITY
OF PASADENA. The property is leased to WESTERN
JUSTICE CENTER to promote the government purposes of the CITY OF PASADENA. In operating and
subletting the property, WESTERN JUSTICE CENTER and JUDITH CHIRLIN, its Executive Director at
the time of the events giving rise to this action, are
“state actors” for purposes of the First Amendment and
42 U.S.C. §1983 and the CITY OF PASADENA is responsible for discrimination by WESTERN JUSTICE
CENTER in the operation of the property
50. Public property opened for rental or lease by
community groups must be available without regard to
the religious viewpoint of the organization or the
speaker. The CITY OF PASADENA may not discriminate against community groups based on the religious
beliefs of speakers.
51. PASADENA REPUBLICAN CLUB, and its
members, had a right under the Free Exercise Clause
of the First Amendment to use the Maxwell House on
the same basis as other organizations without regard

App. 88
to the religious viewpoint of the speakers it chose for
its event.
52. WESTERN JUSTICE CENTER, JUDITH
CHIRLIN, and the CITY OF PASADENA discriminated against PASADENA REPUBLICAN CLUB, and
its members, based on the religious viewpoint of the
speaker it chose for its event, thereby denying PASADENA REPUBLICAN CLUB and its members of their
rights under the Free Exercise Clause of the First
Amendment.
53. The CITY OF PASADENA permitted WESTERN JUSTICE CENTER to engage in religious viewpoint discrimination in the subletting of city owned
property that was leased to WESTERN JUSTICE
CENTER for government purposes and is responsible
for discrimination by WESTERN JUSTICE CENTER
in the operation of the property
54. WESTERN JUSTICE CENTER, JUDITH
CHIRLIN, and the CITY OF PASADENA violated the
rights of PASADENA REPUBLICAN CLUB and its
members under 42 U.S.C. §1983.
55. WESTERN JUSTICE CENTER and JUDITH CHIRLIN acted with malice, oppression, and
wanton and intentional disregard of the rights of PASADENA REPUBLICAN CLUB and its members when
it cancelled this contract based on the political viewpoint of the scheduled speaker.
Wherefore, plaintiff prays for judgment as follows.

App. 89

Fourth Cause of Action
Conspiracy to Deny Civil Rights to Freedom
from Political Viewpoint and Religious Belief
Discrimination pursuant to 42 U.S.C. §1985
(Judith Chirlin)
56. Plaintiffs restate the allegations of paragraphs 1-55, inclusive, as if fully restated in this Cause
of Action.
57. On information and belief, JUDITH CHIRLIN
conspired with members of the staff and executive
committee of the WESTERN JUSTICE CENTER to
deprive PASADENA REPUBLICAN CLUB and its
members of civil rights – specifically to hear from a
speaker affiliated with a religious organization that
opposed same-sex marriage and the right to be treated
equally with other political organizations seeking rent
facilities leased by the CITY OF PASADENA to the
WESTERN JUSTICE CENTER.
58. Through enactment of the Religious Freedom
Restoration Act and the Religious Land Use and Institutionalized Persons Act, Congress has recognized that
state governments infringe on religious liberties of individuals with unpopular religious views. The United
States Supreme Court has also recognized that individuals with religiously-based opposition to samesex marriages are the target of state actions seeking
to suppress that opposition. Masterpiece Cakeshop,
Ltd. v. Colorado Civil Rights Comm’n, 138 S.Ct. 1719,
1732 (2018); Obergefell v. Hodges, 135 S.Ct. 2584, 2607

App. 90
(2015). This religious discrimination is seen in numerous cases across the country including Masterpiece
Cakeshop, supra, Arlene’s Flowers, Inc. v. Washington,
138 S.Ct. 2671 (2018) (granting certiorari and remanding case for further consideration), Klein v. Oregon Bureau of Labor and Industries, Supreme Court No. 18547 (petition for writ of certiorari pending), to name
just a few.
59. The federal courts have long recognized that
individuals exercising state and local power infringe
on the rights of individuals and groups who profess political beliefs contrary to the beliefs of those in power.
E.g., Hefferman v. City of Paterson, N.J., 136 S.Ct. 1412,
1416 (2016); Rutan v. Republican Party of Illinois, 497
U.S. 62, 79 (1990); Elrod v. Burns, 427 U.S. 347, 355
(1976). Thus, the courts have recognized the need to
protect individuals and groups from discrimination
because of their political beliefs. This problem is especially acute in California where more than threefourths of the state legislative seats are held by Democrats and where the Democratic Attorney General
and the current and immediate past Democratic Governors have announced opposition to the Republican
President of the United States as a policies of their administrations.
60. By taking the actions alleged herein, JUDITH CHIRLIN, the executive committee, members of
the staff, and WESTERN JUSTICE CENTER conspired in violation of 42 U.S.C. §1985 to deny civil liberties guaranteed by the First Amendment to the

App. 91
United States Constitution to PASADENA REPUBLICAN CLUB and its members.
Wherefore, plaintiff prays for judgment as follows.
PRAYER FOR RELIEF
WHEREFORE,
PASADENA
CLUB prays for relief as follows

REPUBLICAN

1. A declaration that the CITY OF PASADENA
violated the rights of the PASADENA REPUBLICAN
CLUB and its members to Freedom of Speech under
the First Amendment and 42 U.S.C. §1983 when JUDITH CHIRLIN and WESTERN JUSTICE CENTER
cancelled a facility use contract based on the viewpoint
of the speaker chosen for the event.
2. A declaration that JUDITH CHIRLIN and
WESTERN JUSTICE CENTER violated the rights of
the PASADENA REPUBLICAN CLUB and its members to Freedom of Speech under the First Amendment
and 42 U.S.C. §1983 when it cancelled a facility use
contract based on the viewpoint of the speaker chosen
for the event.
3. A declaration that JUDITH CHIRLIN and
WESTERN JUSTICE CENTER acted with malice, oppression, and wanton and intentional disregard for the
law when it cancelled the facility use contract PASADENA REPUBLICAN CLUB based on the viewpoint
of the speaker chosen for the event.

App. 92
4. A declaration that the CITY OF PASADENA
violated the rights of the PASADENA REPUBLICAN
CLUB and its members to Free Exercise of Religion
under the First Amendment and 42 U.S.C. §1983 when
JUDITH CHIRLIN and WESTERN JUSTICE CENTER cancelled a facility use contract based on the religious viewpoint of the speaker chosen for the event.
5. A declaration that JUDITH CHIRLIN and
WESTERN JUSTICE CENTER violated the rights of
the PASADENA REPUBLICAN CLUB and its members to Free Exercise of Religion under the First
Amendment and 42 U.S.C. §1983 when it cancelled a
facility use contract based on the religious viewpoint of
the speaker chosen for the event.
6. A declaration that JUDITH CHIRLIN and
WESTERN JUSTICE CENTER acted with malice, oppression, and wanton and intentional disregard for the
law when they cancelled the facility use contract with
PASADENA REPUBLICAN CLUB based on the RELIGIOUS viewpoint and beliefs of the speaker chosen
for the event.
7. A declaration that JUDITH CHIRLIN conspired in violation of 42 U.S.C. §1985 with the staff and
executive committee and the WESTERN JUSTICE
CENTER to deprive the PASADENA REPUBLICAN
CLUB and its members of their civil rights specifically
by barring events with speakers that are affiliated
with religious groups opposing same-sex marriage.
8. An injunction prohibiting the CITY OF PASADENA from allowing WESTERN JUSTICE CENTER

App. 93
to decide which organizations may or may not hold
events at City-owned property leased to the WESTERN JUSTICE CENTER by the CITY OF PASADENA
for public purposes.
9. An injunction prohibiting the WESTERN
JUSTICE CENTER or any of its agents from discriminating against organizations in the use of city-owned
facilities based on the viewpoint of the speaker or the
religious viewpoint or affiliation of the speaker.
10. An injunction prohibiting the CITY OF PASADENA or any of its agents from discriminating
against organizations in the use of city facilities based
on the viewpoint of the speaker or the religious viewpoint or affiliation of the speaker.
11. For damages according to proof, including
damages for emotional distress suffered by members of
the PASADENA REPUBLICAN CLUB.
12. For punitive damages against JUDITH
CHIRLIN, the executive committee of the WESTERN
JUSTICE CENTER, and WESTERN JUSTICE CENTER for action with malice, oppression, and wanton
disregard for the law in engaging political viewpoint
and religious belief discrimination and conspiracy to
deprive plaintiffs of their civil rights.
13.

For costs of suit including attorneys’ fees.

14.

For such other relief as is just and proper.

App. 94
DATED: February 5, 2019
ANTHONY T. CASO
/s/ Anthony T. Caso
BY ANTHONY T. CASO
Attorney for Plaintiff

JURY TRIAL DEMAND
Plaintiff demands a trial by jury on the on all issues triable by jury in this complaint.
DATED: February 4, 2019
ANTHONY T. CASO
/s/ Anthony T. Caso
BY ANTHONY T. CASO
Attorney for Plaintiff

[Declaration Of Service Omitted]

App. 95
EXHIBIT 2
LEASE AGREEMENT NO. 13,753
THIS LEASE (“Lease”) is made as of the 4th day
of April, 1989, by and between the PASADENA SURPLUS PROPERTY AUTHORITY, a public body, corporate and politic (“Landlord”), and the WESTERN
JUSTICE CENTER, a California non-profit corporation (“Tenant”).
1.

Premises.

1.1. Demise of Premises. Landlord hereby
leases to Tenant, and Tenant leases from Landlord, for
the term, at the rental, and upon all of the conditions
set forth herein, that certain real property situated
in the County of Los Angeles, State of California, commonly known as 55-85 South Grand Avenue, Pasadena, California, which real property is more fully
described in Exhibit A attached hereto and incorporated herein by this reference. Said real property, including the land and all improvements thereon, is
herein called “the Premises.”
1.2. Relationship of the Parties. Landlord is
entering into this Lease as a means of benefiting the
citizens of the City of Pasadena (the “City”) and its environs through a center for the study of dispute resolution and the administration of justice, to provide
additional employment and revenues to the local economy, to provide for improvements in both the local, regional, national, and international components of the
legal system, and to provide a forum for educational

App. 96
research. Landlord is also entering into this Lease for
the purpose of insuring the restoration and historic
preservation of the Premises. A detailed copy of Landlord’s goals is attached in the Plan of Public Use for
Surplus Property attached hereto as Exhibit B. Tenant
is entering into this Lease, rather than directly purchasing the Premises, because the Tenant does not
qualify as an organization eligible to purchase the
Premises. It is the intent that neither Landlord nor the
City of Pasadena shall be required to contribute general funds to the acquisition, restoration or renovation
of the Premises, but nothing contained herein shall be
construed as prohibiting or restricting the City against
assisting Tenant in applying to third parties for grants
of funds to be used for restoring the Premises. This
Lease is not entered into as a commercial transaction
by either party, but Landlord wants to ensure that its
goals are met, that the operations of Tenant do not constitute a nuisance or otherwise disturb the neighborhood, and that the Premises are properly maintained
and protected.
2.

Term.

2.1. Term. The term of this Lease shall be for
fifty-five (55) years, commencing on the date Landlord
tenders possession of the Premises to Tenant pursuant
to Exhibit C, attached hereto (the “Commencement
Date”), and ending fifty-five (55) years thereafter, unless sooner terminated pursuant to any provision
hereof.

App. 97
2.2. Delay. It is acknowledged Landlord does not
presently own the Premises, but Landlord is offering
to purchase the Premises from the General Services
Administration (the “GSA”). If Landlord is unable to
deliver to Tenant possession of the Premises by December 31, 1989, Landlord shall not be liable for any
damage caused thereby. In such event, this Lease shall
not be void or voidable, provided that possession is tendered to Tenant December 31, 1989; subject to further
extensions aggregating no more than ninety (90) days
due to acts of God, war, labor strikes, and other occurrences beyond the control of Landlord, plus any period
of time due to delays caused by Tenant. In the event of
such late delivery of the Premises, the commencement
of the term of this Lease shall be postponed by the
length of such delay in delivering possession, and the
liability of Tenant for rent (other than the initial payment under Section 3.1) shall be postponed until the
newly determined Commencement Date. In the event
that Landlord has not tendered possession to Tenant
within the period in which such delay is excused as set
forth herein, this Lease shall be voidable without further obligation at the option of either party upon written notice to the other party. In the event either party
elects to void the Lease under this Section 2.2, the initial rental payment provided in Section 3 shall be returned to Tenant by the Landlord.
2.3. Option to Extend Term. Tenant shall have
one (1) option to extend the term of this Lease for a
period of forty-four (44) years. This extension option
shall be personal to Tenant and may not be exercised

App. 98
or be assigned, voluntarily or involuntarily, by or to
any person or entity other than Tenant unless Landlord specifically consents to such assignment; the option herein granted to Tenant shall not be assignable
separate and apart from this Lease. Tenant may exercise this option by delivering written notice thereof to
Landlord at least ten (10) days prior to the expiration
of the initial 55 year term of this Lease.
3.

Rent.

3.1. Rent. Tenant covenants to pay to Landlord during the term hereof, at Landlord’s address set
forth in Section 24 hereof or to such other persons or
at such other places as directed from time to time by
written notice to Tenant from Landlord, a rental sufficient to reimburse Landlord and pay all out-of-pocket
costs and expenses (including the purchase price) arising from Landlord’s acquisition of the Premises from
the GSA. The Landlord is contemporaneously herewith
entering into an agreement to purchase the Premises
from the General Services Administration for the total
purchase price of $412,000, payable by an initial down
payment of $82,400.00, and the balance due in equal
quarterly installments of principal and interest, over a
term of ten (10) years, with interest at a rate thereon
being equal to the yield rate on ten (10) year Treasury
maturities as reported by the Federal Reserve Board
in “Federal Reserve Statistical Release H.15” plus 11/2 percentage points, rounded to the nearest 1/8%, as
of the date of acceptance of the City’s offer to purchase
the Premises from the GSA. This latter sum shall be
evidenced by a promissory note (the “Note”) to the

App. 99
GSA. Accordingly, Tenant shall pay the Landlord rent
as follows:
3.1.1. Tenant shall deliver to Landlord upon
execution of this Lease an initial payment of rent in
the sum of $82,400, which is not to be attributable to
any period of time for Tenant’s use of the Premises, but
is consideration for this Lease.
3.1.2. In addition, within 30 days after receipt of an invoice therefor, Tenant shall pay to Landlord as additional rent (i) all out-of-pocket costs and
expenses (other than legal fees) incurred by Landlord
in acquiring the Premises, obtaining the extension of
credit described in Section 3.1 hereof for acquiring the
Premises, and preparing and entering into this Lease,
including but not limited to closing fees and costs, and
(ii) all costs and expenses incurred by Landlord in
holding the Premises for the period from the Landlord’s acquisition of possession of the Premises through
the Commencement Date, including but not limited to
maintenance, utility and security costs, plus any additional sums paid to the GSA.
3.1.3. Tenant shall deliver additional payments of rent to the Landlord quarterly, within thirty
(30) days prior to the due date of any installment of
principal and interest on the Note to the GSA, in the
amount of the next following payment due on the Note,
until such time as the obligation to the GSA has been
paid in full.
3.1.4. Tenant shall deliver to the Landlord
from time to time, within thirty (30) days after receipt

App. 100
of demand therefor, additional rent equal to all out-ofpocket costs and expenses incurred by Landlord in
supervising this Lease and in monitoring the Premises, and all sums advanced by Landlord on behalf of
Tenant where such sums are required hereunder to
be expended by Tenant but Tenant failed to do so. No
cost for general overhead or employee salaries of Landlord or City shall be included in such additional rent.
All rent shall be payable in lawful money of the United
States to Landlord at the address stated herein or to
such other persons or at such other places as Landlord
may designate in writing.
3.2. Special Net Lease. This Lease is what is
commonly called a “Net, Net, Net Lease,” it being understood that Landlord shall receive the rent set forth
in Section 3.1 free and clear of any and all other impositions, taxes, liens, charges or expenses of any nature
whatsoever in connection with the ownership and operation of the Premises. In addition to the rent set
forth in Section 3.1, Tenant shall pay to the respective entities entitled thereto all taxes, impositions,
insurance premiums, operating charges, maintenance
charges, construction costs, and any other charges,
costs and expenses which arise in connection with the
use or occupancy of the Premises or which may be contemplated under any provisions of this Lease during
the term hereof. If any such charges, costs and expenses shall constitute a lien or charge against the
Premises, or if any such fees, charges, costs or expenses
are customary fees imposed from time to time on the
general public by the City, then such fees, charges,

App. 101
costs or expenses shall constitute additional rent, and
upon the failure of Tenant to pay any of such fees, costs,
charges or expenses, Landlord shall have the same
rights and remedies as otherwise provided in this
Lease for the failure of Tenant to pay rent. It is the intention of the parties hereto that Tenant shall not be
entitled to any offset, abatement of, or reduction in any
rent payable under this Lease, except as herein expressly provided. Any present or future law to the contrary shall not alter this agreement of the parties.
4. Quiet Possession. Upon Tenant paying the rent
and observing and performing all of the covenants, conditions and provisions on Tenant’s part to be observed
and performed hereunder, Tenant shall have quiet possession of the Premises for the term hereof subject to
all of the provisions of this Lease.
5.

Use.

5.1. Use. The Premises shall be used and occupied by Tenant and its sublessees only for the purposes
described in the Plan of Public Use for Surplus Property, including but not limited to the following nonprofit law related functions: (i) operation of a center
for the study of the following matters: alternative dispute resolution, administration of justice, delivery of
legal services, and other legally oriented issues; (ii)
providing space to non-profit entities for legal seminars, meetings, conferences, hearing rooms, deposition
rooms, arbitration rooms, law library, research space;
(iii) residential and office facilities for legal researchers
and scholars and ancillary services such as dining

App. 102
facilities; and (iv) for subleasing portions of the Premises to tax exempt organizations providing law related
services, and for no other purposes whatsoever. Tenant
is expressly prohibited from leasing the Premises or
any portion thereof to lawyers offering legal services
for profit or allowing the Premises or any portion
thereof to be used for any for profit activities. Tenant
shall continuously during the term of this Lease
following completion of all Tenant Improvements (as
herein defined) use the Premises for these purposes
during ordinary business hours. Nothing herein precludes Tenant from using the Premises for community
meetings and other purposes during non-business
hours.
5.2. Compliance with Law. Tenant shall, at
Tenant’s expense, comply promptly with all applicable
statutes, ordinances, rules, regulations, orders, covenants and restrictions of record, and requirements of
any governmental authority in effect during the term
hereof, regulating the use by Tenant of the Premises. If
any bureau, department or official of the state, county
or city government or any governmental authority
having jurisdiction, requires in the exercise of its
valid authority that any changes, modifications, replacements, alterations, or additional equipment be
made or supplied in or to any portion of the Premises
by reason of Tenant’s use thereof, or the location of partitions, trade fixtures, or other contents of the Premises, Tenant shall, at Tenant’s cost and expense, make
and supply such changes, modifications, replacements,
alterations or additional equipment. Tenant shall not

App. 103
use nor permit the use of the Premises in any manner
that will tend to create waste or a nuisance.
5.3. Condition of Premises.
5.3.1. Tenant hereby accepts the Premises
in their condition existing as of the Commencement
Date or the date that Tenant takes possession of the
Premises, whichever is earlier, subject to all applicable
municipal, county and state laws, ordinances and regulations governing and regulating the use of the Premises, and any covenants, conditions, or restrictions of
record, and accepts this Lease subject thereto and to
all matters disclosed thereby and by any exhibits attached hereto. Tenant acknowledges that Landlord has
not made any representation or warranty, express or
implied, as to the condition of the Premises, their fitness for any purpose, the presence or absence of any
hazardous substances at the Premises, or the present
or future suitability of the Premises for Tenant’s use
thereof. Tenant has had a full, reasonable opportunity
to study and investigate the Premises and Tenant accepts the Premises in their “as-is” condition. Tenant
acknowledges that Landlord shall not be receiving any
net cash flow from this Lease and Tenant understands
and agrees that the rent is set at this level because
Tenant shall be responsible for improving the Premises to a usable condition. Landlord shall have no obligation to correct any condition or alleged defects.
5.3.2. Landlord hereby notifies Tenant of
the presence of certain toxic or hazardous substances
or materials in, on or about the Premises. With the

App. 104
exception of asbestos-containing materials, Landlord
has no actual knowledge of the presence of any other
hazardous substances located in, on, or under the
Premises, but, because the definition of hazardous substance is vague and broad, Landlord also notifies Tenant of the possibility of the presence of other hazardous
substances in, on or about the Premises. Tenant shall
perform all actions required by law (including obligations of an owner of real property), to describe to any
persons of the presences of hazardous or toxic substances materials at the Premises, including disclosures required to be made to subtenants, workers, and
the general public. As set forth above, Landlord makes
no warranty as to the absence of any type of toxic or
hazardous substances or materials, and transfers any
duty to clean-up, remove, or store any such substance
directly to the Tenant. Further, Landlord shall have no
obligation to compensate Tenant for such acts.
5.3.3. Tenant agrees to take all action required by any federal, state, or local law to clean-up,
remove, abate, and/or store any toxic or hazardous substances or materials located in, on or about the Premises and to indemnify Landlord against and hold
Landlord free and harmless from any liability arising
out of Tenant’s failure to do so.
5.3.4. Tenant shall remove from the Premises of all asbestos and asbestos-containing materials
prior to opening the Premises for business. Tenant
shall obtain the services of a licensed contractor registered with the State of California Division of Industrial
Safety, to perform such abatement and any necessary

App. 105
monitoring activities in accordance with all federal,
state, and local health and safety regulations. Tenant
shall insure that the contractor make proper notification to all appropriate regulatory agencies, including the Environmental Protection Agency (“EPA”),
Air Quality Management Division (“AQMD”), California Department of Health Services (“DOHS”), CalOSHA, and State of California Division of Industrial
Safety, to the extent required by law. Tenant shall also
engage the services of a qualified firm to sample air
quality and monitor work site activities during the period of asbestos abatement. Landlord will obtain an
EPA Site Identification Number, and will provide performance standard criteria for selection of the contractor. Landlord retains the right of review and approval
of Tenant’s choice of its asbestos abatement contractor
and environmental testing firms, prior to Landlord’s
awarding contracts.
6. Rehabilitation of the Premises. Tenant acknowledges and agrees that the Premises require extensive
reconstruction and rehabilitation. Attached hereto as
Exhibit C is a schedule (the “Improvement Schedule”)
under which Tenant shall submit plans and proceed
with constructing improvements (“Tenant Improvements”) for the reconstruction and rehabilitation of the
Premises. To this end, Tenant agrees that it shall construct or cause to be constructed at its sole cost and
expense all Tenant Improvements on the Premises in
accordance with all plans and specifications submitted
by Tenant to Landlord pursuant to this Lease. Tenant
may reconstruct and rehabilitate the Premises in
phases, provided the various elements are completed

App. 106
within the times set forth in the Improvement Schedule. Notwithstanding the foregoing, Landlord’s designated staff members may approve extensions of time
in the Improvement Schedule, so long as the rehabilitation of the Premises is fully completed within thirtysix (36) months after the Commencement Date of this
Lease. All plans submitted hereunder shall be submitted to Landlord’s and City’s review bodies as required
by City ordinance. Landlord shall exercise the best efforts to cause City to expedite all governmental approvals relating to the renovation of the Premises.
6.1.

Historic Preservation Requirements.

Tenant acknowledges that the Premises are listed
in the National Register of Historic Places, and therefore, Tenant agrees that all Tenant Improvements and
other modifications, alterations and additions to the
Premises shall be performed in accordance with the
regulations of the Advisory Council on Historic Preservation (the “Council”), “Protection of Historic and
Cultural Properties” (36 C.F.R. Part 800), the California State Historic Preservation Officer (“SHPO”),
and the National Historic Preservation Act of 1966,
as amended (16 U.S.C. Sec. 470f ). Tenant further
agrees to the following covenants, and agrees to be
bound to these covenants, restrictions and limitations.
(a) The structures on the Premises will be
preserved and maintained in accordance with plans
approved in writing by the California SHPO.
(b) No physical or structural changes or
changes of color or surfacing will be made to the
exterior of the structures on the Premises, or to

App. 107
architecturally or historically significant interior features, as determined by the California SHPO, without
the written approval of the California SHPO.
(c) in the event of a violation of the above restrictions, GSA or the California SHPO, as well as
Landlord, may institute a suit against Tenant to enjoin
such violation or for damages by reason of any breach
thereof.
(d) The above restrictions shall be binding
on the parties hereto, their heirs, successors, and assigns in perpetuity; however, the California SHPO
may, for good cause, modify or cancel any or all of the
foregoing restrictions upon written application of Tenant and Landlord.
6.2. Plans, Permits and Entitlements for
Use. Tenant shall apply for and pursue in a timely and
diligent manner all permits and other entitlements for
use which may be required by the City, the California
SHPO, the Council, or any other public entity or regulatory body, in connection with the construction of
the Tenant Improvements in accordance with the Improvement Schedule.
6.3. Basic Concept Drawings. Tenant shall
prepare and submit to the Landlord, the California
SHPO, and the Council, for review and approval Basic
Concept Drawings and related documents in accordance with the Improvement Schedule. The Basic Concept Drawings shall be subject to the review and
approval of the Landlord, the California SHPO and the
Council, and, to the extent required by local law, the

App. 108
City, which review and approval shall include aesthetic
considerations of the Landlord and the City. The construction of the Tenant Improvements shall be as
generally established in the Basic Concept Drawings
except for such changes as may be mutually agreed
upon by Tenant, Landlord, the California SHPO, and
the Council. Approved Basic Concept Drawings will be
the basis for preparation of Preliminary Drawings to
initiate further detail and design features on a larger
scale.
6.4. Preliminary Drawings. Tenant shall prepare for Landlord’s, the Council’s and the California
SHPO’s review and approval Preliminary Drawings
based upon the approved Basic Concept Drawings
within the time period set forth in the Improvement
Schedule.
6.5. Landscaping. Tenant shall prepare and
submit to Landlord, for Landlord’s review and approval, preliminary and final Landscaping Plans for
the Premises at the times established in the Improvement Schedule.
6.6. Final Construction Drawings and Related Documents. At the time established in the Improvement Schedule, Tenant shall prepare and submit
five sets of Final Construction Drawings, including
complete construction documents, site elevations, final
outline specifications, and final construction cost estimate summaries, together with one set of appropriate
structural computations identical to those required by
the Landlord’s Building and Development Services

App. 109
Division incident to issuance of building permits, to
Landlord, for review by Landlord, the Council, the California SHPO, and other review bodies having legal authority over the Premises, for architectural review and
written approval. Final Construction Drawings are
hereby defined as those in sufficient detail to obtain
necessary building permits. Tenant shall concurrently
file duplicate copies thereof with the Landlord’s Building and Development Services Division together with
required applications for building permits.
6.7. Approval of Plans. Any items submitted to
and approved by Landlord shall not be subject to subsequent disapproval. Landlord may designate any staff
member of Landlord as having authority to approve or
disapprove concepts, drawings and plans on behalf of
Landlord. Following approval of the Basic Concept
Drawings, approval of progressively more detailed
drawings and specifications will granted by Landlord
if developed as a logical evolution of the documents
previously approved. Any disapproval by Landlord
shall include in reasonable detail written reasons for
disapproval. Tenant, upon receipt of a disapproval,
shall revise such portions as are rejected and resubmit
them to Landlord within thirty (30) days thereafter,
and the time periods set out in the Improvement
Schedule shall be tolled accordingly. Approvals shall
not unreasonably be withheld.
6.8.

Changes in Construction Drawings.

6.8.1. All construction of the Tenant Improvements shall in all respects be performed in

App. 110
compliance with the approved Final Construction
Drawings. If Tenant desires to make any changes in
the Final Construction Drawings and related documents after their approval by the Landlord, Tenant
shall submit the proposed change to the Landlord for
its approval. If approved, Landlord shall notify Tenant
of such approval in writing within thirty (30) days after submission to the Landlord. Tenant, upon receipt of
a disapproval shall revise such portions as are rejected
and resubmit revised plans to Landlord within thirty
(30) after receipt of the disapproval notice within the
time period set out in the Improvement Schedule.
Nothing contained herein shall be construed as permitting Tenant to deviate from approved construction
drawings.
6.9. Statement of Final Construction Costs
and “As-Built Plans. Within sixty (60) days following
completion of the Tenant Improvements on the Premises, Tenant shall furnish to Landlord a complete set of
“As-Built” plans and an itemized statement of the actual construction costs of the Tenant Improvements.
6.10. Construction Security. Tenant shall furnish to Landlord either (i) a contractor’s performance
bond in an amount not less than 100% of the cost of
the Tenant Improvements, and a payment bond guaranteeing the contractor’s completion of the Tenant
Improvements free from liens of materialmen, contractors, subcontractors, mechanics, laborers, and other
similar liens; or (ii) other security acceptable to Landlord. Said bonds shall be issued by a responsible surety
company, licensed to do business in California, with a

App. 111
financial strength and credit rating acceptable to
Landlord, and shall remain in effect until the entire
costs for constructing the Tenant Improvements shall
have been paid in full. Any such bonds shall be in a
form satisfactory to Landlord’s City Attorney.
7.

Maintenance, Repairs and Alterations.

7.1. Tenant’s Obligations. Tenant shall keep in
good order, condition and repair, (with replacement, if
necessary) the Premises and every part thereof, structural and nonstructural (whether or not such portion
of the Premises requiring repair, or the means of repairing the same, are reasonably or readily accessible to Tenant and whether or not the need for such
repairs occurs as a result of Tenant’s use, any prior
use, the elements, or the age of such portion of the
Premises), including, without limiting the generality of
the foregoing, all plumbing, heating, air conditioning,
ventilating, ducting, electrical, lighting facilities and
equipment within the Premises, fixtures, walls (interior and exterior), foundations, ceilings, roofs (interior
and exterior), floors, windows, doors, plate glass and
skylights located within the Premises, and all landscaping, driveways, fences and signs located on the
Premises and sidewalks and parkways adjacent to the
Premises.
7.2. Surrender. On the last day of the term
hereof, or any sooner termination, Tenant shall surrender the Premises to Landlord in the same condition as
when the Tenant Improvements were completed, clean
and free of debris, ordinary wear and tear and damage
by casualty excepted. Tenant shall repair any damage

App. 112
to the Premises occasioned by the installation or
removal of Tenant’s trade fixtures, furnishings and
equipment. Notwithstanding anything to the contrary
otherwise stated in this Lease, Tenant shall leave the
ducting, power panels, electrical distribution systems,
lighting fixtures, space heaters, heating and air conditioning systems, plumbing and fencing on the Premises in good operating condition.
7.3. Landlord’s Obligations. Except for the obligations of Landlord set forth in Section 9 (relating to
destruction) and Section 14 (relating to condemnation
of the Premises) it is intended by the parties hereto
that Landlord have no obligation, in any manner whatsoever, to repair and maintain the Premises nor the
buildings located thereon nor the equipment therein,
whether structural or non-structural, all of which obligations are intended to be that of Tenant under Section
7.1 hereof. Tenant expressly waives the benefit of any
statute now or hereinafter in effect which would otherwise afford Tenant the right to make repairs at Landlord’s expense or to terminate this Lease because of
Landlord’s failure to keep the premises in good order,
condition and repair.
7.4.

Alterations and Additions.

7.4.1. After the initial construction of the
Tenant Improvements, Tenant shall not, without Landlord’s prior written consent make any alterations, improvements, additions, or Utility Installations in, on or
about the Premises, except for repair or replacement of
interior items which are not a part of the Premises’
structure or systems and which cumulatively do not

App. 113
cost in excess of $50,000.00 in any calendar year, which
Tenant may make without Landlord’s prior written
consent provided Tenant furnishes Landlord with
written notice of such repairs, replacements, alterations, additions or improvements. Tenant shall make
no change or alteration to the exterior of any buildings
on the Premises without Landlord’s prior written consent. Notwithstanding anything provided herein to the
contrary, Tenant shall not make any alterations, improvements, additions or Utility Installations whatsoever that may affect architecturally or historically
significant interior features, as determined by the California SHPO, without Landlord’s prior written approval. As used in this Section 7.4.1, the term “Utility
Installation” shall mean carpeting, window coverings,
HVAC ducting, power panels, electrical distribution
systems, lighting fixtures, space heaters, air conditioning, plumbing, and fencing. Landlord may require Tenant to provide Landlord, at Tenant’s sole cost
and expense, a lien and completion bond in an amount
equal to 100% of the estimated cost of such improvements, to insure Landlord and the Premises against
any liability for mechanic’s and materialmen’s liens
and to insure completion of the work. Should Tenant
make any alterations, improvements, additions or Utility Installations without the prior approval of Landlord, Landlord may require that Tenant immediately
remove any or all of the same.
7.4.2. Any alterations, improvements, additions or Utility Installations in, on, or about the
Premises that Tenant shall desire to make shall be

App. 114
presented to Landlord in written form, with proposed
detailed plans. If Landlord shall give its consent, the
consent shall be deemed conditioned upon Tenant acquiring a permit to do so from appropriate governmental agencies, the furnishing of a copy thereof to
Landlord prior to the commencement of the work, and
the compliance by Tenant of all conditions of said permit in a prompt and expeditious manner.
7.4.3. All alterations, improvements, additions and Utility Installations (whether or not such
Utility Installations constitute trade fixtures of Tenant), which may be made on the Premises, shall be
the property of Tenant until the expiration or sooner
termination of this Lease, at which time all such alterations, improvements, additions, and Utility Installations shall then become the property of Landlord,
and they shall remain upon and be surrendered with
the Premises at the expiration of the term. Notwithstanding the provisions of this Section 7.4, Tenant’s
furniture, fixture and equipment, other than that
which is affixed to the Premises so that it cannot be
removed without material damage to the Premises,
shall remain the property of Tenant and may be removed by Tenant (subject to the provisions of Section
7.2.)
7.4.4. Notwithstanding anything provided
herein to the contrary, Tenant shall not make any alterations or additions that may violate the terms,
covenants, and restrictions of Section 6.1 of this Agreement.

App. 115
7.4.5. The amount of interior, non-structural,
non-systemic changes that Tenant may make in each
calendar year without obtaining Landlord’s prior written consent shall be increased annually in accordance
with the percentage increase in the Consumer Price
Index for All Urban Consumers, Los Angeles-AnaheimRiverside Area, 1982-84=100, as prepared by the Bureau
of Labor Statistics of the United States Department of
Labor (the “CPI”); or if such agency shall cease to prepare such index, then any comparable index covering
the Los Angeles County area prepared by any other
federal or state agency which is approved by Landlord.
The new amount of each calendar year shall be determined by multiplying the sum of $50,000.00 times a
fraction, the numerator of which is the CPI for the
month of January of the current calendar year, and the
denominator of which is the CPI for the month of January, 1989.
7.5.

Mechanic’s Liens

7.5.1. Tenant shall pay, when due, all claims
for labor or materials furnished to or for Tenant at or
for use in the Premises, which claims are or may be
secured by any mechanics’ or materialmen’s lien
against the Premises or any interest therein. Tenant
further covenants and agrees that should any mechanic’s lien be filed against the Premises for work
claimed to have been done for, or materials claimed to
have been furnished to Tenant, said lien will be discharged by Tenant, by bond or otherwise, within ten
(10) days after the filing thereof, at the cost and expense of Tenant. Tenant shall give Landlord not less

App. 116
than ten (10) days’ notice prior to the commencement
of any work in the Premises, and Landlord shall have
the right to post notices of non-responsibility in or on
the Premises as provided by law. If Tenant shall, in
good faith, contest the validity of any such lien, claim
or demand, then Tenant shall, at its sole expense defend itself and Landlord against the same and shall
pay and satisfy any such adverse judgment that may
be rendered thereon before the enforcement thereof
against Landlord or the Premises, upon the condition
that if Landlord shall require, Tenant shall furnish to
Landlord a surety bond satisfactory to Landlord in an
amount equal to such contested lien claim or demand
indemnifying Landlord against liability for the same
and holding the Premises free from the effect of such
lien or claim. In addition, Landlord may require Tenant to pay Landlord’s attorneys fees and costs in participating in such action if Landlord shall decide it is
to its best interest to do so.
8.

Insurance and Indemnity.
8.1.

Liability Insurance.

8.1.1. Tenant shall procure at its sole cost
and expense, and keep in effect from the date of this
Lease and at all times until the end of the term Comprehensive Public Liability Insurance applying to the
use and occupancy of the Premises, or any part thereof,
and the business operated by Tenant, its sublessees, licensees, employees, agents, or any other occupant, on
the Premises. Such insurance shall include Blanket
Contractual Liability coverage. Such coverage shall

App. 117
have a minimum combined single limit of liability of at
least One Million Dollars ($1,000,000). All such policies shall be written to apply to all bodily injury, property damage, personal injury and other covered loss,
however occasioned, occurring during the policy term,
shall be endorsed to add Landlord and the City, their
members, officers, directors, employees and agents as
additional insureds, and to provide that such coverage
shall be primary and that any insurance maintained
by Landlord shall be excess insurance only. Such coverage shall be endorsed to waive the insurer’s rights of
subrogation against Landlord.
8.1.2. The Comprehensive Public Liability
insurance shall be in force the first day of the term of
this Lease.
8.1.3. Tenant shall also maintain Workers’
Compensation insurance in accordance with California
law, and an employer’s liability insurance endorsement
with customary limits. Any policy shall be endorsed
with a waiver of subrogation clause for Landlord and
the City and their directors, officers, employees, and
agents.
8.1.4. All insurance described in this Section
shall be endorsed to provide Landlord with 15 days’ advance notice of cancellation or change in its terms.
8.1.5. If at any time during the term the
amount or coverage of insurance which Tenant is required to carry under this Section is, in Landlord’s reasonable judgment, materially less than the amount or
type of insurance coverage typically carried by owners

App. 118
or lessees of properties located in Pasadena, California,
which are similar to and operated for similar purposes
as the Premises, Landlord shall have the right to require Tenant to increase the amount or change the
types of insurance coverage required under this Section. Such requirements shall be reasonable and economically feasible and shall be designed to assure
protection from and against the kind and extent of risk
which exist at the time a change in insurance is required, provided that in no event shall Tenant be required to provide insurance which exceeds the product
of $1,000,000 times a fraction, the numerator of which
is the CPI for the month of January for the then current calendar year, and the denominator of which is the
CPI for the month of January, 1989.
8.1.6. Landlord shall notify Tenant in writing of changes in insurance requirements and, if Tenant does not deposit certificates evidencing acceptable
insurance policies with Landlord incorporating such
changes within sixty (60) calendar days of receipt of
such notice, this Tenant shall be in default under this
Lease without the requirement of further notice to
Tenant, and landlord shall be entitled to exercise all
legal remedies.
8.1.7. If Tenant fails or refuses to maintain
insurance as required hereunder, or fails to provide the
proof of insurance, Landlord shall have the right to declare this Lease in default without further notice to
Tenant, and Landlord shall be entitled to exercise all
legal remedies for breach of this Lease.

App. 119
8.1.8. The procuring of such required policies of insurance shall not be construed to limit
Tenant’s liability hereunder, nor to fulfill the indemnification provisions and requirements of this Lease.
Notwithstanding said insurance policies, Tenant shall
be obligated for the full and total amount of any damage, injury, or loss caused by negligence or neglect connected with this Lease or with the use or occupance of
the Premises.
8.2.

Property Insurance.

8.2.1. Tenant shall obtain and keep in force
during the term of this Lease a policy of insurance covering loss or damage to the Premises, including the
Tenant Improvements and all subsequent and additional improvements thereon, and all personal property of Tenant, in the amount of the full replacement
value thereof, as the same may exist from time to time,
but in no event less than the total amount required by
lenders having liens on the Premises, against all perils
included within the classification of fire, extended coverage, builder’s risk, vandalism, malicious mischief. In
addition, during the period from the Commencement
Date until Landlord’s final payment on its obligation
to the GSA arising from Landlord’s acquisition of the
Premises, and the release of any lien in favor of the
GSA, Tenant shall obtain an endorsement for earthquake and special extended perils (“all risk” as the
term is used in the insurance industry), if such endorsement is available at commercially reasonable
rates. Tenant shall, in addition, obtain and keep in
force during the term of this Lease a policy of rental

App. 120
value insurance covering a period of one year, with loss
payable to Landlord, which insurance shall also cover
all real estate taxes and insurance costs for said period. If such insurance coverage has a deductible
clause, the deductible amount shall not exceed $10,000
per occurrence, and Tenant shall be liable for such deductible amount. The maximum deductible amount
may be increased annually to an amount determined
by multiplying the original deductible (viz., $10,000)
by a fraction, the numerator of which is the CPI for the
month of January for the then current calendar year,
and the denominator of which is the CPI for the month
of January, 1989.
8.2.2. In addition to the foregoing, Tenant
shall insure its furniture, fixtures, and equipment in
their full replacement value.
8.2.3. Not less often than every two and onehalf (2-1/2) years during the term of this Lase, Tenant
and Landlord shall agree in writing on the full replacement cost of the Premises and all improvements
thereon. If, in the opinion of Landlord, the amount or
type of property damage insurance coverage, or another amount or type of insurance at that time is not
adequate or not provided for herein, Tenant shall either acquire or increase the insurance coverage as required by Landlord so long as the increased or new
coverage is available at commercially reasonable rates.
8.2.4. If Tenant is unable to obtain any
fire and extended coverage insurance at commercially reasonable rates between the period from the

App. 121
Commencement Date through the date which is one (1)
year thereafter, Landlord shall arrange to insure the
Premises through Landlord’s umbrella fire and extended coverage insurance policy during such period
until the time Tenant is able to acquire its own insurance for the Premises. During the period that Landlord
is making available for such insurance, Tenant shall
pay to Landlord upon demand the amount of any increase in Landlord’s insurance premium attributable
solely to Landlord’s insuring the Premises, and Tenant
shall be responsible for any deductible at Tenant’s sole
cost and expense.
8.3.

Insurance Policies.

8.3.1. If Tenant shall fail to obtain any insurance required hereunder, Landlord may, at its election,
obtain such insurance and Tenant shall, as additional
rent, reimburse Landlord for the cost thereof plus a ten
percent (10%) handling charge, within five (5) days
following demand therefor. Insurance required hereunder shall be issued by companies reasonably satisfactory to Landlord. Tenant shall deliver to Landlord
copies of policies of such insurance or certificates evidencing the existence and amounts of such insurance
with loss payable clauses as required by this Section 8.
No such policy shall be cancellable or subject to reduction of coverage or other modification except after fifteen (15) days’ prior written notice to Landlord. Tenant
shall, at least thirty (30) days prior to the expiration of
such policies, furnish Landlord with renewals or “binders” thereof. Tenant shall not do or permit to be done
anything which shall invalidate the insurance policies

App. 122
referred to in this Section 8. If Tenant does or permits
to be done anything which shall increase the cost of the
insurance policies referred to in Section 8, then Tenant
shall forthwith upon Landlord’s demand reimburse
Landlord for any additional premiums attributable to
any act or omission or operation of Tenant causing
such increase in the cost of insurance. All policies of
insurance shall name Landlord, City, and, at Landlord’s option, any additional parties designated by
Landlord, as an additional insured, except that during
the period from the Commencement Date until the
date Landlord has paid in full its obligation to the
GSA, the fire and extended coverage insurance shall
name Landlord as loss payee. After issuance of the final certificate of occupancy, Tenant may be named as
loss payee. All insurance required to be provided hereunder is in addition to, and not in lieu of, the indemnity
provisions of Section 8.5 and 8.6 hereof.
8.3.2. Tenant shall not use the Premises in
any manner, even if the use if for purposes permitted
herein, that will result in the cancellation of any insurance which within five (5) calendar days cannot be renewed or replaced. Tenant further agrees not to keep
on the Premises or permit to be kept, used, or sold
thereon, anything prohibited by any fire or other insurance policy covering the Premises. Tenant shall, at
Tenant’s sole cost and expense, comply with any and
all requirements, in regard to the Premises, of any insurance organization necessary for maintaining fire
and extended coverage insurance.

App. 123
8.4. Waiver of Subrogation. Tenant and Landlord each hereby release and relieve the other, and
waive their entire right of recovery against the other
for loss or damage arising out of or incident to the perils insured against under Section 8.2, which perils occur in, on, or about the Premises, whether due to the
negligence of Landlord or Tenant or their agents, employees, contractors and/or invitees. Tenant and Landlord shall, upon obtaining the policies of insurance
required hereunder, give notice to the insurance carrier or carriers that the foregoing mutual waiver of
subrogation is contained in this Lease.
8.5. Indemnity. Tenant shall indemnify, defend,
protect, and hold harmless Landlord from and against
any and all claims, losses, proceedings, damages,
causes of action, liability, costs and expenses, (including attorneys’ fees) arising from or in connection
with, or caused by (i) any act, omission or negligence
of Tenant or any sublessee of Tenant, or their respective contractors, licensees, invitees, agents, servants or
employees, wheresoever the same may occur; (ii) any
use of the Premises, or any accident, injury, death or
damage to any person or property occurring in, on or
about the Premises, or any part thereof, or from the
conduct of Tenant’s business or from any activity, work
or thing done, permitted or suffered by Tenant or its
sublessees, contractors, employees, or invitees, in or
about the Premises or elsewhere (other than arising as
a result of Landlord’s gross negligence or intentional
misconduct); and (iii) any breach or default in the performance of any obligations on Tenant’s part to be

App. 124
performed under the terms of this Lease, or arising
from any negligence of Tenant, or any such claim or
any action or proceeding brought thereon; and in case
any action or proceeding be brought against Landlord
by reason of any such claim, Tenant upon notice from
Landlord shall defend the same at Tenant’s expense by
counsel satisfactory to Landlord. Tenant, as a material
part of the consideration to Landlord, hereby assumes
all risk of damage to property or injury to persons in,
upon or about the Premises arising from any cause
other than Landlord’s gross negligence or intentional
acts, and Tenant hereby waives all claims in respect
thereof against Landlord. These provisions are in addition to, and not in lieu of, the insurance required to
be provided by Sections 8.1, 8.2 and 8.3 hereof.
8.6. Exemption of Landlord from Liability.
Tenant hereby assumes all risks and liabilities of a
landowner in the possession, use or operation of the
Premises. Tenant hereby agrees that Landlord shall
not be liable for injury to Tenant’s business or any loss
of income therefrom or for damage to the goods, wares,
merchandise or other property of Tenant, Tenant’s employees, invitees, customers, contractors, workers, or
any other person in or about the Premises, including
any liability arising from the physical condition of the
Premises or the presence of any hazardous or toxic
materials or substances on the Premises, nor shall
Landlord be liable for injury to the person of Tenant,
Tenant’s employees, agents or contractors, whether
such damage or injury is caused by or results from hazardous or toxic materials or substances, fire, steam,

App. 125
electricity, gas, water, or rain, or from the breakage,
leakage, obstruction or other defects of pipes, sprinklers, wires, appliances, plumbing, air conditioning or
lighting fixtures, or from any other cause, whether the
said damage or injury results from conditions arising
upon the Premises or from other sources or places and
regardless of whether the cause of such damage or injury or the means of repairing the same is inaccessible
to Tenant. These provisions are in addition to, and not
in lieu of, the insurance required to be provided by Sections 8.1, 8.2 and 8.3 hereof. Nothing contained herein
shall be construed as excusing Landlord from liability
for its gross negligence or intentional misconduct.
9.

Damage or Destruction.

9.1. Obligation to Rebuild. If some or all of the
improvements constituting a part of the Premises or
the Premises itself are damaged or destroyed, partially
or totally, from any cause whatsoever, then Tenant
shall repair, restore and rebuild the Premises, to the
extent of available insurance proceeds plus the sum of
the applicable deductible under any policy of insurance
hereunder, to its condition and to the design standards
existing immediately prior to such damage or destruction, and this Lease shall remain in full force and effect. Such repair, restoration and rebuilding (all of
which are herein called “repair”) shall be commenced
within a reasonable time after such damage or destruction has occurred and shall be diligently pursued to
completion.

App. 126
9.2. Total Destruction of the Premises. Notwithstanding anything provided herein to the contrary,
in the event the improvements constituting the Premises are damaged or destroyed by any casualty and the
cost of repairing and restoring the Premises exceeds
50% of the replacement cost of the improvements constituting the Premises, or if the Premises cannot be repaired, restored or rebuilt to a usable condition with
the available insurance proceeds plus the sum of the
applicable deductible, then Tenant shall have the option of terminating this Lease as of the date of such
damage. Any election to terminate this Lease under
such circumstances must be made in writing, and delivered to Landlord within sixty (60) days after the
date of occurrence of such damage or destruction. In
the event of any such termination, all insurance proceeds shall be paid to Landlord and may be retained by
Landlord, and Tenant shall have no further claim on
such insurance proceeds, nor shall Landlord have any
claim against Tenant for the repair, restoration or rebuilding of the Premises.
9.3. Insurance Proceeds. If Landlord has received the insurance proceeds, the proceeds of any insurance maintained under Section 8.2 hereof shall be
made available to Tenant for payment of costs and expense of repair, provided however, that such proceeds
may be made available to Tenant subject to reasonable
conditions, including, but not limited to architect’s certification of cost, retention of percentage of such proceeds pending recordation of a notice of completion,
and a lien and completion bond to insure against

App. 127
mechanic’s or materialmen’s liens arising out of the repair, and to insure completion of the repair, all at the
expense of Tenant. Regardless of whether Landlord or
Tenant is the loss payee, if the insurance proceeds are
not made available to Tenant within 120 days after
such damage or destruction, unless the amount of insurance coverage is in dispute with the insurance
carrier, Tenant shall have the option for 30 days commencing on the expiration of such 120 day period, of
cancelling this Lease. If Tenant shall exercise such option, Tenant shall have no further obligation hereunder and shall have no claim against Landlord. Tenant,
in order to exercise said option, shall exercise said option by giving written notice to Landlord within said
30 day period, time being of the essence.
9.4. Damage Near End of Term. If at any time
during the last twelve (12) months of the term of this
Lease there is damage to the Premises of any amount,
either party may cancel and terminate this Lease as of
the date of occurrence of such damage by giving written notice to the other party of such party’s election to
do so within thirty (30) days after the date of occurrence of such damage; provided, however, this Lease
shall not be terminated if the casualty occurs during
the initial 55 year term hereof and if Tenant exercises
its option to extend the term hereof prior to the expiration of such thirty (30) day period, provided Tenant
is entitled to exercise such option pursuant to the provisions of Section 2.3 hereof.
9.5. Abatement of Rent; Tenant’s Remedies.
Notwithstanding the partial or total destruction of the

App. 128
Premises and any part thereof, and notwithstanding
whether the casualty is insured or not, there shall be
no abatement of rent or of any other obligation of Tenant hereunder by reason of such damage or destruction
unless the Lease is terminated by virtue of any other
provision of this Lease.
9.6. Waiver. Landlord and Tenant waive the provisions of any statutes which relate to termination of
leases when leased property is destroyed and agree
that such event shall be governed by the terms of this
Lease.
10.

Real Property Taxes.

10.1. Payment of Taxes. Tenant shall pay the
real property tax, if any, as defined in Section 10.2, applicable to the Premises during the term of this Lease.
All such payments shall be made at least thirty (30)
days prior to the delinquency date of such payment.
Tenant shall promptly furnish Landlord with satisfactory evidence that such taxes have been paid. If any
such taxes paid by Tenant shall cover any period of
time prior to or after the expiration of the term hereof,
Tenant’s share of such taxes shall be equitably prorated to cover only the period of time within the tax
fiscal year during which this Lease shall be in effect,
and Landlord shall reimburse Tenant to the extent required. If Tenant shall fail to pay any such taxes, Landlord shall have the right to pay the same, in which case
Tenant shall repay such amount to Landlord within
ten (10) days after receipt of an invoice therefor.

App. 129
10.2. Definition of “Real Property Tax.” As
used herein, the term “real property tax” shall include
any form of real estate tax or assessment, general,
special, ordinary or extraordinary, and any possessory interest tax, license fee, commercial rental tax,
improvement bond or bonds, levy or tax (other than inheritance, personal income or estate taxes) imposed on
the Premises by an authority having the direct or indirect power to tax, including any city, state or federal
government, or any school, agricultural, sanitary, fire,
street, drainage or other improvement district thereof,
as against any legal or equitable interest of Landlord
in the Premises or in the real property of which the
Premises are a part, or as against Landlord’s right to
rent or other income therefrom. The term “real property tax” shall also include any tax, fee, levy, assessment or charge (i) in substitution of, partially or totally,
any tax, fee, levy, assessment or charge hereinabove included within the definition of “real property tax,” or
(ii) the nature of which was hereinbefore included
within the definition of “real property tax,” or (iii)
which is imposed for a service or right not charged
prior to June 1, 1978, or, if previously charged, has been
increased since June 1, 1978, or (iv) which is imposed
as a result of a tax or charge hereinbefore included
within the definition of real property tax by reason of
such transfer, or (v) which is imposed by reason of this
transaction, any modifications or changes hereto, or
any transfers hereof.
10.3. Joint Assessment. If the Premises are
not separately assessed, Tenant’s liability shall be an

App. 130
equitable proportion of the real property taxes for all
of the land and improvements included within the tax
parcel assessed, such proportion to be determined by
Landlord from the respective valuations assigned in
the assessor’s work sheets or such other information as
may be reasonably available. Landlord’s reasonable
determination thereof, in good faith, shall be conclusive.
10.4.

Personal Property Taxes.

10.4.1. Tenant shall pay prior to delinquency all taxes assessed against and levied upon
trade fixtures, furnishings, equipment and all other
personal property of Tenant contained in the Premises
or elsewhere. When possible, Tenant shall cause said
trade fixtures, furnishings, equipment and all other
personal property to be assessed and billed separately
from the real property of Landlord.
10.4.2. If any of Tenant’s said personal property shall be assessed with Landlord’s real property,
Tenant shall pay Landlord the taxes attributable to
Tenant within ten (10) days after receipt of a written
statement setting forth the taxes applicable to Tenant’s property.
11. Utilities. Tenant shall pay for all electricity, water, gas, heat, light, power, telephone, cable television,
and other utilities and services supplied to the Premises, together with any taxes thereon.

App. 131
12.

Assignment and Subletting.

12.1. Assignment. Tenant shall not either voluntarily, or by operation of law, assign, transfer, mortgage, pledge, hypothecate or encumber this Leese or
any interest therein, or any right or privilege appurtenant thereto, without first obtaining the Written
Consent of Landlord. A consent to one assignment, occupation or use by any other person shall not be
deemed to be a consent to any subsequent assignment.
Consent to any such assignment shall in no way relieve
Tenant of any liability under this Lease. The acceptance of rent by Landlord from any other person
shall not be deemed to be a waiver by Landlord of any
provision hereof. In the event of default by any assignee of Tenant in the performance of any of the terms
hereof, Landlord may proceed directly against Tenant
without the necessity of exhausting remedies against
said assignee or sublessee. Landlord may consent to
subsequent assignments of this Lease or amendments
or modifications of this Lease with assignees of Tenant,
without notifying Tenant, or any successor of Tenant,
and without obtaining Tenant’s or its successor’s consent thereto and such action shall not relieve Tenant
of liability under this Lease. Any dissolution, merger,
consolidation, or other reorganization of Tenant, other
than a transfer of the controlling interest to the Members of the immediate family of such controlling persons, or a transfer of the controlling interest to an inter
vivos trust in which such controlling person is the
trustee of the trust, or the sale or other transfer of substantially all of the assets of Tenant, shall be deemed

App. 132
an assignment of this Lease. If any successor of Tenant
is a partnership, a transfer of any interest of a general
partner or a withdrawal of any general partner from
the partnership which changes the controlling ownership of the partnership, or the dissolution of the partnership, shall be deemed to be an assignment of this
Lease. Any such assignment without such consent
shall be void, and shall, at the option of the Landlord,
constitute a default under the terms of this Lease.
12.2. Subletting. Tenant may sublease portions
of the Premises without obtaining Landlord’s consent
provided the sublease complies with the following
terms:
12.2.1. The sublease executed by the sublessee shall be in a form of sublease agreement previously
approved by Landlord; provided, however, after Landlord approves the sublease form, Landlord’s designated staff and employees may approve modifications
to the form;
12.2.2. No sublease of the Premises or portion thereof shall be for a period of less than one (1)
year nor shall any sublease extend beyond the expiration date of the term hereof, except for subleases to visiting scholars or subleases for research project uses, in
which event the sublease term may be for any reasonable period;
12.2.3. All subleases shall provide for the
sublessee to purchase the same liability insurance inthe same amounts as required in this Lease;

App. 133
12.2.4. All subleases shall provide for the
sublessees to release Landlord herein from all liability
concerning the condition and use of the Premises, and
to look solely to Tenant herein in the event of any claim
or cause of action concerning the Premises;
12.2.5. All subleases shall include indemnification provisions by the sublessee in favor of Landlord hereunder, to the same extent as set forth in this
Lease;
12.2.6. Each sublease shall contain a provision, satisfactory to Landlord, requiring the sublessee
to attorn to Landlord and acknowledging that such attornment may be terminated by Landlord without
cause upon 30 days’ written notice given at any time
after the date of termination of this Lease;
12.2.7. Each sublease shall contain an express acknowledgment and agreement by the sublessee that in the event the sublessee is required to attorn
as provided above, or otherwise permitted to attorn,
not more than two (2) months’ rent (including security
deposits) theretofore actually prepaid by the sublessee
to Tenant will be recognized or allowed as a credit
against any rent or other sums which the person to
whom the sublessee attorns is entitled to receive or recover;
12.2.8. No Sublessee shall use the subleased
premises for a purpose other than a use permitted by
this Lease; and

App. 134
12.2.9. Tenant shall, promptly after execution of each sublease or amendment thereto, notify
Landlord of such execution and of the name and mailing address of the sublessee and shall provide Landlord with a copy of the sublease or amendment.
12.3. Additional Terms. The foregoing is not
intended to imply any waiver or Landlord’s reservation
of the absolute right to disapprove assignments or subleases for uses that differ in any respect from the use
expressly permitted in Section 5 of Lease. Landlord
also agrees not to unreasonably withhold consent to a
sublease of the entire Premises to a non-profit corporation that will issue tax-exempt Certificates of Participation that will be used to finance the payment of rent
and construction of the Tenant Improvements. No assignment or subletting by Tenant shall relieve Tenant
of any obligation to be performed by Tenant under this
Lease, whether occurring before or after such consent,
assignment or subletting. No assignment shall be binding on Landlord unless such assignee shall deliver to
Landlord a counterpart of such assignment (and any
related collateral agreement) and an instrument in recordable form which contains a covenant of assumption by the assignee satisfactory in substance and form
to Landlord. The failure or refusal of the assignee to
execute such an instrument of assumption shall not
waive, release or discharge the assignee from its liability.
12.4. Assignment as a Result of Tenant’s
Bankruptcy.

App. 135
12.4.1. In the event this Lease is assigned
to any person or entity pursuant to provisions of the
Bankruptcy Code, 11 USC Section 101, et seq., (the
“Bankruptcy Code”), any and all monies or other consideration payable or otherwise to be delivered in connection with such assignment shall be paid or
delivered to Landlord, shall remain the exclusive property of Landlord, and shall not constitute property of
Tenant or of the estate of Tenant within the meaning
of the Bankruptcy Code. Any and all monies or other
consideration constituting Landlord’s property under
the preceding sentence not paid or delivered to Landlord shall be held in trust for the benefit of Landlord
and promptly be paid to or turned over to Landlord.
12.4.2. If Tenant, pursuant to this Lease,
proposes to assign the same pursuant to the provisions
of the Bankruptcy Code, to any person or entity who
shall have made a bona fide offer to accept an assignment of this Lease on terms acceptable to Landlord,
then notice of the proposed assignment setting forth
(i) the name and address of such person (ii) all of the
terms and conditions of such offer, and (iii) the assurances referred to in Section 365(b) and 365(f ) of the
Bankruptcy Code, shall be given to the Landlord by
Tenant no later than twenty (20) days after receipt of
such offer by Tenant, but in any event no later than ten
(10) days prior to the date that Tenant shall make application to a court of competent jurisdiction for authority and approval to enter into such assignment and
assumption, and Landlord shall thereupon have the
prior right and option, to be exercised by notice to

App. 136
Tenant given at any time prior to the effective date of
such proposed assignment, to accept an assignment of
this Lease upon the same terms and conditions and for
same consideration, if any, as the bona fide offer made
by such person, less any brokerage commissions which
may be payable out of the consideration to be paid such
person for the assignment of this Lease.
12.4.3. Any person or entity to which this
Lease is assigned pursuant to the provisions of the
Bankruptcy Code shall be deemed without further act
or deed to have assumed all of the obligations arising
under this Lease on or after the date of such assignment. Any such assignee shall, upon demand, execute
and deliver to Landlord an instrument confirming such
assumption.
12.4.4. The following factors may be considered by the Landlord as necessary in order to determine whether or not the proposed assignee has
furnished Landlord with adequate assurance of its
ability to perform the obligations of this Lease:
12.4.4.1. The adequacy of a security deposit.
12.4.4.2. Net worth and other financial
elements of the proposed assignee.
12.4.5. In the event Landlord rejects the proposed assignee, the rights and obligations of the parties hereto shall continue to be governed by the terms
of this Lease, and Tenant shall have all the rights of a
tenant under applicable state law.

App. 137
12.5. Assignment by Landlord. During the
term of this Lease, Landlord agrees not to encumber
the Premises except as herein provided to the GSA, nor
to assign its interest herein to any entity that is not
affiliated with the City of Pasadena, without Tenant’s
prior written consent.
13.

Defaults and Remedies.

13.1. Default by Tenant. The occurrence of any
one or more the following events shall constitute a material default and breach of this Lease by Tenant:
13.1.1. The vacating or abandonment of the
Premises by Tenant.
13.1.2. The failure by Tenant to make any
payment of rent or any payment required to be made
by Tenant hereunder, as and when due, where such
failure shall continue for a period of five (5) days after
written notice thereof from Landlord to Tenant. In the
event that Landlord serves Tenant with a three-day
notice to pay rent or quit pursuant to California Code
of Civil Procedure 1161, or any successor unlawful detainer statute, such notice to pay rent or quit shall also
constitute the notice required by this subparagraph.
13.1.3. The failure by Tenant to observe or
perform any of the covenants, conditions or provisions
of this Lease to be observed or performed by Tenant,
other than described in paragraph 3.1.2 above, where
such failure shall continue for a period of thirty (30)
days after written notice thereof from Landlord to Tenant; provided, however that if the nature of Tenant’s

App. 138
default is such that more than thirty (30) days are reasonably required for its cure, then Tenant shall not be
deemed to be in default if Tenant commenced such
cure within said 30-day period and thereafter diligently prosecutes such cure to completion.
13.1.4. (i) The making by Tenant of any general arrangement or assignment for the benefit of creditor; (ii) Tenant becomes a “debtor” as defined in 11
U.S.C. §101 or any successor statute thereto (unless, in
the case of a petition filed against Tenant, the same is
dismissed within sixty (60) days); (iii) the appointment
of a trustee or receiver to take possession of substantially all of Tenant’s assets located at the Premises or
of Tenant’s interest in this Lease, where possession is
not restored to Tenant within 30 days; or (iv) the attachment, execution or other judicial seizure of substantially all of Tenant’s assets located at the Premises
or of Tenant’s interest in this Lease, where such seizure is not discharged within thirty (30) days. Provided, however, in the event that any provision of this
Section 13.1.4. is contrary to any applicable law, such
provision shall be of no force or effect.
13.1.5. The discovery by Landlord that any
financial statement given to Landlord by Tenant, any
assignee of Tenant, any successor in interest of Tenant
or any guarantor of Tenant’s obligations hereunder, or
any of them, was materially false.
13.2. Remedies of Landlord. In the event of
any such material default or breach by Tenant, Landlord may at any time thereafter, with or without notice

App. 139
or demand and without limiting Landlord in the exercise of any right or remedy which Landlord may have
by reason of such default or breach:
13.2.1. Terminate Tenant’s right to possession of the Premises by any lawful means, in which
case this Lease shall terminate and Tenant shall immediately surrender possession of the Premises to
Landlord. In such event Landlord shall be entitled to
recover from Tenant all damages incurred by Landlord
by reason of Tenant’s default including, but not limited
to, the cost of recovering possession of the Premises;
expenses of reletting, including reasonable attorney’s
fees, and any real estate commission actually paid in
connection with such reletting; the worth at the time
of award by the court having jurisdiction thereof of the
amount by which the unpaid rent for the balance of the
term after the time of such award exceeds the amount
of such rental loss for the same period that Tenant
proves could reasonably be avoided.
13.2.2. Maintain Tenant’s right to possession in which case this Lease shall continue in effect
whether or not Tenant shall have abandoned the
Premises. In such event Landlord shall be entitled to
enforce all of Landlord’s rights and remedies under
this Lease, including the right to recover the rent as it
becomes due hereunder. For the purposes of this Section 13.2.2, Landlord shall not unreasonably withhold
consent to a subletting of the Premises, under the
terms set forth in Section 12.3 hereof. For purposes of
this Section 13.2.2, the following acts by Landlord
shall not constitute a termination of Tenant’s right to

App. 140
possession: (i) acts of maintenance or preservation or
efforts to relet the Premises; or (ii) the appointment of
a receiver under the initiative of Landlord to protect
Landlord’s interest under this Lease.
13.2.3. Pursue any other remedy now or
hereafter available to Landlord under the laws of judicial decisions of the State of California. Unpaid installments of rent and other unpaid monetary obligations
of Tenant under the terms of this Lease shall bear interest from the date due at the maximum rate then allowable by law.
13.3. Landlord’s Right to Cure Tenant’s Defaults. All covenants and agreements to be performed
by Tenant under any of the terms of the Lease shall be
at Tenant’s sole cost and expense and, except as otherwise specifically provided herein, without any abatement of rent. If Tenant shall fail to pay any sum of
money, other than rent, required to be paid by it hereunder or shall fail to perform any other act on its part
to be performed hereunder, and such failure shall continue for ten (10) days after notice thereof by Landlord,
Landlord may, but shall not be obligated so to do, and
without waiving any rights of Landlord or releasing
Tenant from any obligations of Tenant hereunder,
make such payment or enter onto the Premises and
perform such other act on Tenant’s behalf and at Tenant’s cost as Landlord deems necessary. All sums so
paid by Landlord and all such necessary incidental
costs together with interest thereon from the date of
such payment by Landlord in connection with the
performance of any such act by Landlord shall be

App. 141
considered additional rent hereunder. Except as otherwise in this Lease expressly provided, such rent shall
be payable to Landlord on demand, or at the option of
Landlord, in such installments as Landlord may elect
and may be added to any other rent then due or thereafter becoming due under this Lease, and Landlord
shall have (in addition to any other right or remedy of
Landlord) the same rights and remedies in the event
of the nonpayment thereof by Tenant as in the case of
default by Tenant in the payment of any other rent due
hereunder.
13.4. Default by Landlord. Landlord shall not
be in default unless Landlord fails to perform obligations required of Landlord within a reasonable time,
but in no event later than thirty (30) days after written notice by Tenant to Landlord, specifying wherein
Landlord has failed to perform such obligation; provided, however, that if the nature of Landlord’s obligation is such that more than thirty (30) days are
required for performance then Landlord shall not be
in default if Landlord commences performance within
such 30-day period and thereafter diligently prosecutes the same to completion. However, until the date
that Landlord’s obligation to the GSA under the Note
for the purchase price of the Premises has been paid in
full, Tenant shall not be entitled to terminate this
Lease by reason of Landlord’s default and Tenant’s
remedies shall be limited to an action for monetary
damages at law.
13.5. Late Charges. Tenant hereby acknowledges that late payment by Tenant to Landlord of rent

App. 142
and other sums due hereunder will cause Landlord to
incur costs not contemplated by this Lease, the exact
amount of which will be extremely difficult to ascertain. Such costs include, but are not limited to,
processing and accounting charges, and late charges
which may be imposed on Landlord by the terms of any
note secured by a trust deed covering the Premises. Accordingly, if any installment of rent or any other sum
due from Tenant shall not be received by Landlord or
Landlord’s designee within ten (10) days after such
amount shall be due, then without any requirement
for notice to Tenant, Tenant shall pay to Landlord a
late charge equal to six percent (6%) of such overdue amount. The parties hereby agree that such late
charge represents a fair and reasonable estimate of the
costs Landlord will incur by reason of late payment by
Tenant. Acceptance of such late charge by Landlord
shall in no event constitute a waiver of Tenant’s default with respect to such overdue amount, nor prevent
Landlord from exercising any of the other rights and
remedies granted hereunder.
13.6. Impounds. In the event that a late charge
is payable hereunder, whether or not collected, for
three (3) installments of Rent or any other monetary
obligation of Tenant under the terms of this Lease,
Tenant shall pay to Landlord, if Landlord shall so request, in addition to any other payments required
under this Lease, an advance installment, payable
monthly, as estimated by Landlord, for real property
tax and insurance expenses on the Premises which are
payable by Tenant under the terms of this Lease. Such

App. 143
fund shall be established to insure payment when due,
before delinquency, of any or all such real property
taxes and insurance premiums. If the amounts paid to
Landlord by Tenant under the provisions of this Section are insufficient to discharge the obligations of Tenant to pay such real property taxes and insurance
premiums as the same become due, Tenant shall pay
to Landlord, upon Landlord’s demand, such additional
sums necessary to pay such obligations. All moneys
paid to Landlord under this Section may be intermingled with other moneys of Landlord and shall not bear
interest. In the event of a default in the obligations of
Tenant to perform under this Lease, then any balance
remaining from funds paid to Landlord under the provisions of this Section may, at the option of Landlord,
be applied to the payment of any monetary default of
Tenant in lieu of being applied to the payment of real
property tax and insurance premiums.
14. Condemnation. If the Premises or any portion
are taken under the power of eminent domain, or sold
under the threat of the exercise of said power (all of
which are herein called “condemnation”), this Lease
shall terminate as to the part so taken as of the date
the condemning authority takes title or taken as of
the date the condemning authority takes title or possession, whichever first occurs. If more than twentyfive percent (25%) of the rentable area of any building
on the Premises, or such portion of the land area of the
Premises which is not occupied by any building as
would make use of the building unusable or undesirable for the uses described in Section 5, above, is taken

App. 144
by condemnation, Landlord or Tenant may, at either
party’s option, to be exercised in writing only within
ten (10) days after Landlord shall have given Tenant
written notice of such taking or in the absence or such
notice, within ten (10) days after the condemning authority shall have taken such possession) terminate
this Lease as to the portion of the Premises so affected
by such condemnation as of the date the condemning
authority takes such possession. If neither party terminates this Lease in accordance with the foregoing,
this Lease shall remain in full force and effect as to the
portion of the Premises remaining, and there shall be
no reduction in rent payable hereunder. Any award for,
or payment attributable to, the bonus value of Tenant’s
leasehold interest shall be the property of Tenant; provided, however, one-half (1/2) of any award attributable to the bonus value of Tenant’s leasehold interest in
the Premises shall be payable to Landlord if (i) the condemning authority is an entity other than Landlord,
the City, or an entity affiliated with the City, and (ii)
Tenant relocates at a location other than within the
City of Pasadena. Moreover, Tenant shall receive any
award for the value of any improvements to the Premises constructed by Tenant. Any remaining award for
the underlying fee interest shall be paid to Landlord.
Notwithstanding anything provided herein to the contrary, if the award to Landlord is insufficient to pay the
unpaid balance of Landlord’s obligation to the GSA,
Landlord shall receive at least such amount as is required for Landlord the pay the balance of any obligation to the GSA. In any event, Tenant shall be entitled
to any award for loss of or damage to Tenant’s trade

App. 145
fixtures and removable personal property. If this Lease
is not terminated by reason of such condemnation,
then Tenant shall, to the extent of severance damages
received by Tenant in connection with such condemnation, repair any damage to the Premises caused by
such taking. Nothing contained herein shall be construed as waiving Landlord’s right to acquire Tenant’s
interest in this lease by eminent domain.
15. Brokers. Landlord represents and warrants to
Tenant that Landlord has used no broker, agent, finder
or other person in connection with this Lease to whom
a brokerage or other commission or fee may be payable.
Tenant represents and warrants to Landlord that Tenant has used no broker, agent, finder or other person in
connection with this Lease to whom a brokerage or
other commission or fee may be payable. Each party
indemnifies and agrees to defend and hold the other
harmless from any claims resulting from any breach
by the indemnifying party of the warranties, representations and covenants in this Section.
16. Easements. This Lease and all rights given
hereunder are subject to all easements and rights-ofway of record prior to the date of Landlord’s receipt of
fee title to the Premises, and shall be subject to future
easements and rights-of-way for access, gas, electricity,
water, sewer, drainage, telephone, telegraph, television, transmission, or other public facilities, as may be
reasonably determined from time-to-time by Landlord.
Landlord agrees that an effort shall be made or cause
to be made so that such future easements and right-ofway shall be located and facilities installed as to

App. 146
produce a minimum amount of interference to Tenant’s
use of the Premises. Tenant shall not be entitled to any
monetary payment or other remuneration for any such
future easements from Landlord, except for damage directly resulting from actions on the Premises solely by
Landlord which deny access to the Premises by Tenant’s customers, and only those damages occurring
during such denial of access.
17. Estoppel Certificate and Financial Statements.
17.1. Tenant or Landlord, as the case may be,
shall from time to time upon not less than thirty (30)
days’ prior written notice from the other party, execute,
acknowledge and deliver to the requesting party a
statement in writing (i) certifying that this Lease is
unmodified and in full force and effect (or, if modified,
stating the nature of such modification and certifying
that this Lease, as so modified, is in full force and effect) and the date to which the rent and other charges
are paid in advance, if any, (ii) acknowledging that
there are not, to the knowledge of the party issuing the
certificate, any uncured defaults on the part of the
other party hereunder, or specifying such defaults if
any are claimed, and (iii) certifying any other matters
relating to the Lease, the Premises, or Tenant’s business or financial condition which the requesting party
may request. Any such statement may be conclusively
relied upon by any prospective purchaser of the Premises.

App. 147
17.2. At the option of the requesting party, failure to deliver such statement within such time shall
be a material breach of this Lease, or shall be conclusive upon the party obligated to issue such certificate
(i) that this Lease is in full force and effect, without
modification except as may be represented by the requesting party, (ii) that there are no uncured defaults
in the requesting party’s performance, and (iii) that not
more than one installment of rent has been paid in advance.
17.3. From time to time, upon thirty (30) days
notice from Landlord, Tenant shall deliver to Landlord
the most recently compiled financial statement of Tenant, and, if requested by Landlord, the past three
years’ financial statements of Tenant. All such financial statements shall be received by Landlord in confidence and shall be used only for the purposes herein
set forth.
18. Landlord’s Liability. The term “Landlord” as
used herein shall mean only the owner or owners at
the time in question of the fee title or a lessee’s interest
in a ground lease of the Premises, and in the event of
any transfer of such title or interest, Landlord herein
named (and in case of any subsequent transfers, then
the grantor) shall be relieved from and after the date
of such transfer of all liability with respect to Landlord’s obligations thereafter to be performed, provided
that any funds in the hands of Landlord, or the then
grantor at the time of such transfer, in which Tenant
has an interest, shall be delivered to the grantee. The
obligations contained in this Lease to be performed by

App. 148
Landlord shall, subject as aforesaid, be binding on
Landlord’s successors and assigns only during their respective periods of ownership.
19. Severability. The invalidity of any provision of
this Lease as determined by a court of competent jurisdiction shall in no way affect the validity of any
other provision hereof.
20. Interest on Past-due obligations. Except as
expressly herein provided, any amount due to Landlord not paid when due shall bear interest at the maximum rate then allowable to be charged by non-exempt
lenders under the usury laws of the State of California
from the date due. Payment of such interest shall not
excuse or cure any default by Tenant under this Lease.
21.

Time of Essence. Time is of the essence.

22. Additional Rent. Any monetary obligations of
Tenant to Landlord under the terms of this Lease shall
be deemed to be rent.
23. Force Majeure. Whenever a day is appointed
herein on which, or a period of time is appointed within
which, either party or a period of time is appointed
within which, either party hereto is required to do or
complete any act, matter or thing, the time for the doing or completion thereof shall be extended by a period
of time equal to the number of days on or during which
such party is prevented from, or is unreasonably interfered with, the doing or completion of such act, matter
or thing because of strikes, lock-outs, embargoes, unavailability of labor or materials, wars, insurrections,

App. 149
rebellions, civil disorder, declaration of national emergencies, acts of God, or other causes beyond such
party’s reasonable control (financial inability excepted); provided, however, and nothing contained in
this Section shall excuse Tenant from the prompt payment of any rental or other charge required of Tenant
hereunder.
24. Incorporation of Prior Agreements; Amendments. This Lease contains all agreements of the parties with respect to any matter mentioned herein. No
prior agreement or understanding pertaining to any
such matter shall be effective. This Lease may be modified in writing only, signed by the parties in interest
at the time of the modification. Except as otherwise
stated in this Lease, Tenant hereby acknowledges that
neither Landlord nor any employees or agents of any
of said persons has made any oral or written warranties or representations to Tenant relative to the condition or use by Tenant of said Premises and Tenant
acknowledges that Tenant assumes all responsibility
regarding the Occupational Safety Health Act, the legal use and adaptability of the Premises and the
compliance thereof with all applicable laws and regulations in effect during the term of this Lease except as
otherwise specifically stated in this Lease. Landlord
agrees to review and consider in good faith modifications to this Lease as may be required by prospective
lenders or donors as a condition to a loan or gift, but
nothing shall be construed as obligating Landlord to
accept any such request for modification.

App. 150
25. Notices. Any notice required or permitted to be
given hereunder shall be in writing and may be given
by personal delivery or by certified mail, return receipt
requested, postage prepaid and if given personally or
by mail, shall be deemed sufficiently given if addressed
to Tenant or to Landlord at the following address:
If to Landlord:

City of Pasadena
100 North Garfield Avenue
Pasadena, CA 91109
Attn: City Manager

If to Tenant:

Western Justice Center
Federal Building, Suite 112
125 South Grand Avenue
Pasadena, California 91105
Attention: Judge Dorothy Nelson

With a copy to:

Latham & Watkins
555 S. Flower St.
45th Floor
Los Angeles, CA 90071
Attention: Don Baker, Esq.

Either party may by notice to the other specify a different address for notice purposes except that upon
Tenant’s taking possession of the Premises, the Premises shall constitute Tenant’s address for notice purposes. Any such notice shall be deemed delivered three
(3) days after the deposit of same with the U.S. Postal
Service. A copy of all notices required or permitted to
be given to Landlord hereunder shall be concurrently
transmitted to such party or parties at such addresses
as Landlord may from time to time hereafter designate
by notice to Tenant.

App. 151
26. Parking. The Premises lack sufficient on-site
parking. Prior to applying for a building permit for construction of the Tenant Improvements, Tenant shall
make arrangements to satisfy off-street parking requirements of the City of Pasadena Municipal Code. It
is acknowledged and agreed that the City of Pasadena
shall not be required to issue a building permit for construction of the Tenant Improvements until Tenant
has satisfied the off-street parking requirements of the
City.
27.

Waivers.

27.1. No waiver by Landlord or any provision
hereof shall be deemed a waiver of any other provision
hereof or of any subsequent breach by Tenant of the
same or any other provision. No delay or omission in
the exercise of any right or remedy by either party to
this Lease on the occurrence of any default by the other
party to this Lease shall impair such a right or remedy
or be construed as a waiver. Landlord’s consent to, or
approval of, any act shall not be deemed to render
unnecessary the obtaining of Landlord’s consent to
or approval of any subsequent act by Tenant. The acceptance of rent hereunder by Landlord shall not be a
waiver of any preceding breach by Tenant of any provision hereof, other than the failure of Tenant to pay
the particular rent so accepted, regardless of Landlord’s knowledge of such preceding breach at the time
of acceptance of such rent.
No act or conduct of Landlord, including, without limitation, the acceptance of the keys to the Premises,

App. 152
shall constitute an acceptance of the surrender of the
Premises by Tenant before the expiration of the term.
Only written notice from Landlord to Tenant shall constitute acceptance of the surrender of the Premises and
accomplish a termination of the Lease. Any waiver by
either party of any default must be in writing and shall
not be a waiver of any other default concerning the
same or any other provision of the Lease.
27.2. No acceptance by Landlord of a lesser sum
than the rent and any additional rent then due shall
be deemed to be other than on account of the earliest
installment of such rent due, nor shall any endorsement or statement on any check or any letter accompanying any check or payment as rent be deemed an
accord and satisfaction, and Landlord may accept such
check or payment without prejudice to Landlord’s right
to recover the balance of such installment or pursue
any other remedy in this Lease provided.
28. Recording. Tenant shall not record this Lease or
any memorandum thereof without Landlord’s prior
written consent.
29. Holding Over. If Tenant, with Landlord’s consent, remains in possession of the Premises or any part
thereof after the expiration of the term hereof, such occupancy shall be a tenancy from month to month upon
all the provisions of this Lease pertaining to the obligations of Tenant.
30. Inspection Of Books and Records. Landlord
shall have the right at all reasonable times to inspect

App. 153
the books and records of Tenant relevant to the purposes of this Lease.
31. Equal Employment Opportunity. Tenant herein covenants by and for itself, its successors and assigns, and all persons claiming under or through them,
that there shall be no discrimination against any employee or applicant for employment with Tenant because of race, color, religion, sex, physical handicap, or
national origin and that there shall be affirmative action undertaken to assure applicants are employed
and that employees are treated during employment
without regard to race, color, religion, sex, physical
handicap or national origin. Tenant, its successors and
assigns, and all persons claiming under or though
them, shall submit to Landlord for review and approval a written affirmative action program to attain
improved employment for racial and ethnic minorities
and women and during the term of this Lease shall further make available employment records to Landlord
upon request. Tenant, its successors and assigns, and
all persons claiming under or through them, shall
certify in writing to Landlord that Tenant, its successors and assigns, and all persons claiming under or
through them, are in compliance and throughout the
term of this Lease will comply with Title VII of the
Civil Rights Act of 1964, as amended, the California
Fair Employment Practices Act, and any other applicable Federal, State, and local law, regulation and policy
(including without limitation those adopted by Landlord) relating to equal opportunity and affirmative action programs, including any such law, regulation, and

App. 154
policy hereinafter enacted. Compliance and performance by Tenant, its successors and assigns, and all
persons claiming under or through them, of the equal
employment opportunity and affirmative action program provision of this Lease is an express condition
hereof and any failure by Tenant to so comply and perform shall be a default as provided in said Lease and
Landlord may exercise any right as provided therein
and as otherwise provided by law.
32. Affirmative Action in Contracting. In carrying out this Lease, the Tenant shall establish and carry
out an Affirmative Action Plan for equal employment
opportunity and affirmative action in contracting satisfactory to Landlord consistent with the requirements
of Chapter 4.09 of the Pasadena Municipal Code and
the rules and regulations promulgated thereunder.
Tenant shall also comply with the Equal Opportunity
Employment Practices provisions attached hereto as
Exhibit D. Prior to entering into construction contracts
and subcontracts for the Tenant Improvements, Tenant shall prepare and submit to Landlord a plan for
affirmative action in contracting which complies with
said ordinance as determined by the City’s Equal Employment Administrator. Tenant also shall require its
contractors and subcontractors to comply with Chapter 4.09 of the Pasadena Municipal Code and the
Affirmative Action Plan as approved by the Equal Employment Administrator.
33. Cumulative Remedies. No remedy or election
hereunder shall be deemed exclusive but shall,

App. 155
wherever possible, be cumulative with all other remedies at law or in equity.
34. Covenants and Conditions. Each provision of
this Lease performable by Tenant shall be deemed both
a covenant and a condition.
35. Binding Effect; Choice of Law. Subject to the
provisions of Section 18, this Lease shall bind the parties, their personal representatives, heirs, successors
and assigns. This Lease shall be governed by the laws
of the State of California.
36.

Subordination.

36.1. This Lease, at Landlord’s option, shall be
subordinate to the deed of trust securing the loan from
the GSA to the Landlord the proceeds of which were
used to acquire the real property of which the Premises
are a part, and to any and all advances made on the
security thereof and to all renewals, modifications consolidations, replacements and extensions thereof. Notwithstanding such subordination, Tenant’s right to
quiet possession of the Premises shall not be disturbed
if Tenant is not in default and so long as Tenant shall
pay the rent and observe and perform all of the provisions of this Lease, unless this Lease is otherwise terminated pursuant to its terms. If the GSA shall elect
to have this Lease prior to the lien of its deed of trust,
and shall give written notice thereof to Tenant, this
Lease shall be deemed prior to such deed of trust,
whether this Lease is dated prior or subsequent to the
date of said deed of trust or the date of recording
thereof.

App. 156
36.2. Tenant agrees to execute any document required to effectuate an attornment, a subordination or
to make this Lease inferior to the lien of GSA’s deed
of trust. Tenant’s failure to execute such documents
within five (5) days after written demand shall constitute a material default by Tenant hereunder, or, at
Landlord’s option, Landlord shall execute such documents on behalf of Tenant as Tenant’s attorney-in-fact.
Tenant does hereby make, constitute and irrevocably
appoint Landlord as Tenant’s attorney-in-fact and in
Tenant’s name, place and stead, to execute such documents in accordance with this Section 35.
37. Attorney’s Fees. If either party brings an action
to enforce the terms hereof or declare rights hereunder,
the prevailing party in any such arbitration or action,
on trial or appeal, shall be entitled to his reasonable
attorney’s fees to be paid by the losing party as fixed
by the court or arbitrators
38. Landlord’s Access. Landlord and Landlord’s
agents shall have the right to enter the Premises at
reasonable times for the purpose of inspecting the
same, showing the same to prospective purchasers,
lenders, or lessees, and making such alterations, repairs, improvements or additions to the Premises or to
the building improved thereon as Landlord may deem
necessary or desirable.
39. Auctions. Tenant shall not conduct, nor permit
to be conducted, either voluntarily or involuntarily,
any auction upon the Premises without first having obtained Landlord’s prior written consent.

App. 157
40. Signs. Tenant shall not place any sign upon the
Premises without Landlord’s prior written consent.
41. Merger. The voluntary or other surrender of this
Lease by Tenant, or a mutual cancellation thereof, or a
termination by Landlord, shall not work a merger, and
shall, at the option of Landlord, terminate all or any
existing subtenancies or may, at the option of Landlord, operate as an assignment to Landlord of any or
all of such subtenancies.
42. Security Measures. Tenant hereby acknowledges that the rental payable to Landlord hereunder
does not include the cost of guard service or other security measures, and that Landlord shall have no obligation whatsoever to provide same. Tenant assumes all
responsibility for the protection of Tenant, its agents
and invitees from acts of third parties.
43. Authority. Each individual executing this Lease
on behalf of such entity represents and warrants that
he or she is duly authorized to execute and deliver this
Lease on behalf of said entity.
44. Conflict. Any conflict between the provisions of
this Lease and any addendum hereto shall be controlled by the addendum hereto.
45. Consents and Approvals. Consents and approvals of Landlord and Tenant under this Lease shall
not unreasonably be withheld.
46. Limitation of Liability. Landlord acknowledges that Tenant is a California non-profit corporation and that no officer, director, agent, employee or

App. 158
member of Tenant shall be or be deemed to be a guarantor of the obligations of Tenant under this Lease or
to be personally liable to Landlord under this Lease or
for the performance or non-performance of Tenant
hereunder.
IN WITNESS WHEREOF, the parties hereto have
executed this Lease as of the day and year first above
written.
Pasadena Surplus Property
Authority
By: /s/ William E. Thomson, Jr.
William E. Thomson, Jr., President
Attest:
/s/ Pamela Swift
Pamela S. Smith, Clerk
4/5/89
Western Justice Center, a
California non-profit corporation
By: /s/ Richard Keatinge
Richard Keatinge, Pres.
By: /s/ Lucinda Stavett
Lucinda Stavett, Sec.
By: /s/ Donald F. McIntyre
Donald F. McIntyre
Executive Director

App. 159
Exhibit A – Legal Description
Exhibit B – Plan of Public Use for Surplus Property
Exhibit C – Improvement Schedule
Exhibit D – Equal Opportunity Employment Practices

EXHIBIT A
LEGAL DESCRIPTION
THAT PORTION OF LOTS 2 AND 3 OF BERRY AND
ELLIOTT’S SUBDIVISION, DIVISION “D”, OF SAN
GABRIEL ORANGE GROVE ASSOCIATION LANDS,
IN THE CITY OF PASADENA, COUNTY OF LOS ANGELES, STATE OF CALIFORNIA AS PER MAP RECORDED IN BOOK 32 PAGE 55, AND IN BOOK 2
PAGE 600, ALL OF MISCELLANEOUS RECORDS,
IN THE OFFICE OF THE COUNTY RECORDER OF
SAID COUNTY, DESCRIBED AS FOLLOWS:
BEGINNING AT THE NORTHEAST CORNER OF
LOT 1 OF VISTA CREST, AS PER MAP RECORDED
IN BOOK 5, PAGE 34 OF MAPS, RECORDS OF SAID
COUNTY, SAID CORNER BEING ON THE WESTERLY LINE OF GRAND AVENUE (70 FEET WIDE);
THENCE NORTH 3 DEGREES 13 MINUTES 59
SECONDS EAST, 142.77 FEET ALONG THE WEST
LINE OF GRAND AVENUE TO THE BEGINNING
OF A TANGENT CURVE, CONCAVE WESTERLY,
HAVING A RADIUS OF 250.00 FEET; THENCE
NORTHERLY ALONG SAID CURVE, AN ARC DISTANCE OF 86.18 FEET; THENCE LEAVING THE

App. 160
WESTERLY LINE OF SAID GRAND AVENUE
SOUTH 86 DEGREES 25 MINUTES 41 SECONDS
WEST, 111.41 FEET; THENCE SOUTH 0 DEGREES
46 MINUTES 02 SECONDS WEST, 8.97 FEET;
THENCE SOUTH 89 DEGREES 10 MINUTES 09
SECONDS WEST, 19.79 FEET; THENCE SOUTH 0
DEGREES 34 MINUTES 26 SECONDS EAST, 90.38
FEET; THENCE SOUTH 89 DEGREES 47 MINUTES
20 SECONDS EAST, 152.45 FEET TO THE WESTERLY LINE OF SAID GRAND AVENUE; THENCE
NORTH 8 DEGREES 27 MINUTES 30 SECONDS
EAST, 16.32 FEET TO THE POINT OF BEGINNING.
AREA COMPRISES 35,768.83 SQ. FT: 0.82 ACRES

EXHIBIT B
PLAN OF PUBLIC USE FOR SURPLUS PROPERTY;
GRAND AVENUE, PASADENA, CALIFORNIA
The City of Pasadena’s purchase of the site of four
historic buildings in the Vista del Arroyo complex will
make possible restoration of the buildings as offices for
nonprofit groups dedicated to law reform. The complex,
called the Western Justice Center, is intended to improve America’s legal system.
Western Justice Center Concept: The historic
buildings are listed in the National Register. They are
adjacent to the Federal Building at 125 South Grand
Avenue, which houses facilities of the Ninth Circuit
Court of Appeals (the “Court”). After the successful

App. 161
renovation of the Federal Building, Judges of the Court
initiated the Western Justice Center as an appropriate
use for these adjacent buildings. Tenant organizations,
which must be nonprofits with law-related purposes,
will occupy the buildings and thus interact in a campus
setting.
The creation of a Western Justice Center campus
will encourage collaborative work and research among
these organizations which are presently dispersed all
across the United States, primarily in the East. Organizations which stimulate research and development
in judicial administration and education, alternative
forms of dispute resolution, continuing education of
the Bar, international legal issues and other area of
justice reform will be eligible to lease space in the
Center. Visiting scholars from the United States and
abroad will engage in research, run pilot projects and
test methods of dispute resolution. Seminars and conferences aimed at producing concrete proposals for
improving the justice system will be based at the Center.
Center organizations will have access to the excellent library facilities of the Ninth Circuit Court of
Appeals ae well as proximity to judges and court personnel. The Center site is close to more courts (state
and federal) and law schools than any other location in
the United States. The Center will bring great prestige
not only to the Ninth Circuit and Pasadena but also to
the United States.

App. 162
Benefits to the City of Pasadena. The proposed site
of the Western Justice Center is a site of important historic and architectural significance within a stable residential neighborhood of low and medium density. The
neighborhood is a compatible mix of large homes on
spacious lots, condominiums and institutional uses including the Court of Appeals building. The Center will
be a welcome addition to this neighborhood and would
be associated with the City’s long tradition of harmoniously joining fine institutions with neighborhoods of
architectural and environmental sensitivity. The Western Justice Center’s stated commitment to high design
quality and sensitive re-use of the historic buildings
will maintain the historic integrity of the Vista del Arroyo complex within its neighborhood context.
The present condition of the site is extremely poor.
The buildings have not been used or maintained for a
period exceeding twenty years. The use of the site by
the Western Justice Center will resolve the many problems associated with this neglect including its attraction to vagrants and other trespassers. Use by the
Center will ensure that the property is upgraded in a
manner consistent with precedent of high quality set
by the General Services Administration in its rehabilitation of the Court of Appeals building. Because of
their poor condition, it is important that improvements
to these buildings take place as soon as possible while
preservation is still feasible.
The Western Justice Center will provide important local services in addition to serving as a national and regional resource. It will serve as the home

App. 163
of the Community Dispute Resolution Center. This institution has played an important role by providing alternatives to the use of our over-burdened court.
system in solving many disputes. The Community Dispute Resolution Center is used to resolve over 450 conflicts per year. The City specifically contracts with the
Center to mediate disputes between landlords and tenants. In addition to this City contract the Center handles all types of disputes for Pasadena residents for a
very nominal fee. The current fee schedule for the
Community Dispute Resolution Center is $10 for the
filing fee and the actual hearing fee is based ‘upon income with a sliding scale of $18 to $50 an hour to be
shared by the disputants. Low income residents and
retired persons on a fixed income do not pay any hearing fee. Mr. Frank Zupan, the Executive Director of the
Center, projects that with the move to the Western Justice Center, the caseload can be nearly doubled to approximately 800 cases per year.
Pasadena is a City of great institutions including
the California Institute of Technology, Art Center College of Design and Ambassador College. Each of these
have found a hospitable home in Pasadena which has
provided a full range of housing for employees, excellent accommodations for visitors and outstanding cultural resources for all. The City anticipates that the
Western Justice Center will bring visiting scholars to
its campus and that ancillary activities such as legal
conferences will also result.
The City’s Conference Center will probably be utilized to a greater degree and the direct and indirect

App. 164
economic benefits of these activities will improve the
City’s revenue base. It is estimated that the average
visitor to Pasadena generates $478 in direct and indirect activity in the City of Pasadena during an average
stay of [illegible] days. The Western Justice Center anticipates an average of 1000 visitors per year in its initial start-up, generating approximately $478,000 a
year to the Pasadena economy. This number will increase as such ancillary activities such as seminars,
conferences and conventions are produced in association with the Center. In addition, the Western Justice
Center projects a labor force of approximately 40-50
people, thus adding jobs and spending to the local
economy.
Organizations Seeking to Locate at the Western
Justice Center. The Department of Justice has expressed interest in this site as one of four sites for research and development into alternative forms of
dispute resolution. The American Bar Association is
also reviewing the site as its Western location. Others
expected to locate at the Center include:
American Arbitration Association
Institute of Judical Administration (New York)
Institute of Judical Administration (Sydney,
Australia)
ABA Committee on Alternative Dispute
Resolution
Private Adjudication (Durham, North Carolina
Community Dispute Resolution Center (S.G. Valley)

App. 165
The Los Angeles Center for International
Commerical Arbitration
American Law Institute-American Bar
Association Committee on continuing
Professional Education (ALI-ABA)
California Commission on Lawyer Competence
and Legal Education
The Foundation. The City will master lease the
site to the Western Justice Center Foundation, a California nonprofit corporation formed by Ninth Circuit
Court of Appeals judges and prominent Southern California lawyers. The Foundation will then sublease to
the eligible organizations described above.
Summary. Purchase of the property by the City of
Pasadena will provide increased and improved legal
services to the citizens of Pasadena and its environs
through an improved Dispute Resolution Center operation, provide additional employment and revenues to
the local economy, provide for improvements in both
the local, regional, national, and international components of the legal system, provide a forum for educational research, and bring prestige to the City of
Pasadena.

App. 166
EXHIBIT C
IMPROVEMENT SCHEDULE
Action

Date

1.

Execution of Lease

April 4, 1989

2.

Landlord receives
Approximately 20
possession of the Premises days after GSA’s
(“Commencement Date”) delivery to Landlord
of possession of the
Premises

3.

Submission by Tenant to
Landlord for Approval of:
a. Basic Concept Drawings

days after Commencement Date

b. Preliminary Drawings

days after receipt
of approval of Basic
Concept Drawings

c. Landscaping and
Grading Plans

days after receipt
of approval of Preliminary Drawings

4.

Submit Working Drawings/
days after receipt
Application for Building
of approval of PrelimiPermits to City
nary Drawings

5.

Issuance of Building
Permits

20 days after receipt
of application (assuming drawings comply
with code requirements)

6.

Commencement of
Construction

30 days after receipt
of Building permits

App. 167
7.

Improvements
Completed and
Open for Business

36 months after the
Commencement Date

EXHIBIT F
RESOLUTION
A RESOLUTION OF THE PASADENA SURPLUS PROPERTY AUTHORITY COMMISSION
AUTHORIZING THE PRESIDENT TO SUBMIT
AN OFFER TO PURCHASE SURPLUS FEDERAL PROPERTY AT 55-85 GRAND AVE., PASADENA, CALIFORNIA
WHEREAS, the Pasadena Surplus Property Authority was formed pursuant to the authority of
California Government Code §§40500 et seq. for the
purpose of acquiring, owning, maintaining, operating,
improving and disposing of surplus real properties of
the United States which are located within, or contiguous to, the boundaries of the City of Pasadena; and
WHEREAS, the Pasadena Surplus Property Authority (“Authority”) desires to purchase the Maxwell
House and other associated federal surplus property
generally located at 55-85 Grand Ave., and described
in Exhibit A of the Offer to Purchase (the “property”);
and
WHEREAS, the Authority has allocated and will
allocate funds to acquire said property; and

App. 168
WHEREAS, the Authority is required by the General Services Administration (“GSA”) pursuant to 40
U.S.C. 484(e)(3)(H) to adopt this resolution.
NOW THEREFORE, the Commission of the Pasadena Surplus Property Authority does hereby resolve
as follows:
Section 1. The Commission hereby empowers
and authorized the President to sign and submit to
GSA on behalf of the Authority an offer to purchase the
property for $412,000.00. The President is also authorized to sign and submit such other documents as may
be necessary to complete the transaction.
Section 2. The amount of $82,400.00 is hereby
authorized to be paid to GSA as an earnest money deposit with the offer to purchase.
Section 3. The Authority will set aside the
amount of $32,960.00 each year for ten years to fund
the remaining purchase price of $329,600.00.
PASSED, APPROVED AND ADOPTED this 4th
day of April, 1989.

[SEAL]

Agenda Report

TO: Surplus Property Authority Date: March 31, 1989
FROM:

City Manager

SUBJECT: Approval of a lease between the Western
Justice Center and the Pasadena Surplus

App. 169
Property Authority and submission of an
Offer to Purchase Property to G.S.A. for
real estate located at 55-85 South Grand
Avenue on behalf of the Western Justice
Center.
RECOMMENDATION: It is recommended that the
Pasadena Surplus Property Authority approve the attached lease with the Western Justice Center for the
use of property located at 55-85 South Grand Avenue.
It is further recommended that the Surplus Property
Authority submit the attached Offer to Purchase Real
Estate to the United States of America, General Services Administration (G.S.A.), for real estate located at
55-85 South Grand Avenue.
BACKGROUND: On November 29, 1988 the Board
of Directors authorized the City Manager to prepare
and submit an Offer to Purchase Real Estate to G.S.A.
for the acquisition of four bungalows located at 55-85
South Grand Avenue for a purchase price of $412,000.
This authorization was made contingent upon the approval of a lease between the City and the Western
Justice Center for the rehabilitation and use of the
property. This report will provide the Surplus Property
Authority with a summary of the proposed lease and
explain the terms of purchase of the property from the
G.S.A.
In giving its authorization to proceed, the Board of Directors established two important policy guidelines:

App. 170
(1) That all monies are to be advanced by the Western
Justice Center to the City before payments are
made to G.S.A.
(2) That the Western Justice Center prepare and follow an expeditious schedule for the rehabilitation
of the four bungalows.
I.

The Proposed Lease
Negotiations between the City staff and representatives of the Western Justice Center began in
December, 1988 and were successfully concluded
on March 28, 1989. The proposed lease was approved by the Western Justice Center Board at a
meeting on March 30. The lease was prepared by
attorneys Steve Dorsey and Jeff Rabin of Richards,
Watson and Gershon, on contract with the City.
Donald Baker, an attorney with Latham & Watkins, represented the Western Justice Center.
The salient points of the lease are as follows:
•

Parties – The lease is between the Pasadena Surplus Property Authority, as
Landlord, and the Western Justice Center, as Tenant. The Surplus Property Authority was specifically established to
facilitate the acquisition of the property.
The Surplus Property Authority Ordinance was given second reading on March
28, 1989 and became effective upon publication (April 2, 1989).

•

Term – The term shall be for fifty-five
years commencing on the date on which
the Surplus Property Authority has possession. The Western Justice Center shall

App. 171
have one option to extend for a period of
44 years. (A Surplus Property Authority,
under State law, is allowed to lease property for up to 99 years.)
•

Schedule of Payments (Rent) – The Western Justice Center shall deliver the sum
of $82,400 as an initial payment upon execution of the lease. Quarterly payments
shall be due at least 30 days prior to the
due date of the Surplus Property Authority’s installment payment to G.S.A. (The
terms with G.S.A. provide for standard
credit terms of 10 years, with a down payment of $82,400, and the balance payable
in equal quarterly installments of principal and interest, with the interest fixed
at the Ten Year Treasury Security rate
of interest at time of award, plus 1 1/2%
rounded to the nearest 1/8%.)

•

Reimbursement Of All City Carrying
Costs – The Western Justice Center will
pay to the Surplus Property Authority all
out-of-pocket costs and expenses incurred
by the Surplus Property Authority in
holding the premises prior to possession,
including, but not limited to, maintenance, utility and security costs.

•

Covenants – The property has been zoned
Public Space with a Historic District
Overlay. The lease requires the Tenant
to comply with historic preservation
covenants on the property and that the
structures will be preserved and

App. 172
maintained in accordance with plans approved in writing by the California State
Historic Preservation Officer.
•

Schedule for Restoration – The lease requires that the design and restoration be
completed within 36 months after possession of the premises is delivered to the
Tenant. The Improvement Schedule is
shown as Exhibit C to the lease and will
be completed as soon G.S.A. accepts the
Pasadena Surplus Property Authority’s
Offer to Purchase.

•

Construction Security – The Western
Justice Center will furnish the Surplus
Property Authority with either (i) a contractor’s performance bond equal to 100%
of the cost of the rehabilitation and a payment bond guaranteeing all subcontractors will be paid and guaranteeing the
contractor’s completion or (ii) other security acceptable to the Surplus Property
Authority. Any bonds posted must be in a
form satisfactory to the City Attorney.

•

Asbestos – The Western Justice Center is
put on notice that the buildings contain
asbestos and asbestos-containing materials. Copies of the asbestos report prepared by the G.S.A. were provided to
representatives of the Western Justice
Center along with cost estimates for removal provided by two contractors. The
lease requires the removal of all asbestos

App. 173
and asbestos containing materials prior
to occupying the premises.
•

Parking – The lease specifically notes
that the property lacks sufficient on-site
parking. Prior to applying for a building
permit the Western Justice Center shall
make arrangements to satisfy the requirements of the Zoning Code. (This requires a 10 year lease for the required
number of spaces within 700 feet of the
property for employee parking.)

•

Use – The use is restricted to the purposes described in the Plan of Public Purpose for Surplus Property filed with the
Federal Government. This requires operation of the Center for non-profit lawrelated functions. There is an express
prohibition against leasing the premises
for legal services for profit, or for any forprofit activities.

•

Insurance – The liability and property insurance provisions have been reviewed
and approved by the City’s Risk Manager.
The required liability coverage, to be carried by the Western Justice Center, is a
combined single limit of $1 million.

•

Affirmative Action – The Western Justice
Center shall establish and carry out an
Affirmative Action Plan for equal employment opportunity and contracting satisfactory to the City and in compliance with
Chapter 4.09 of the P.M.C.

App. 174
II.

The Offer to Purchase Real Estate and Acceptance (Offer)
The attached Offer identifies the property as consisting of .82 fee acres located 55-85 South Grand
Avenue in Pasadena. The purchase price is established at $412,000 with $82,400 payable as an
“earnest money” deposit, and the balance payable
in equal quarterly installments over a period of 10
years, plus at interest calculated at the yield rate
of a 10 year Treasury note, plus 1 1/2% rounded to
the nearest 1/8%.
The Surplus Property Authority will assume possession of the property within 15 calendar days after a written request given by the G.S.A. after
acceptance of the Offer to Purchase. The G.S.A. is
required to accept the Offer within 90 days from
the date of receipt. (If the Offer is not accepted
within 90 days it is considered rejected unless the
G.S.A. specifically receives consent from the Pasadena Surplus Property Authority to extend the
time.) G.S.A. must submit this Offer to Congress,
through the House Government Operations Committee, in order to complete this transaction. Once
the Offer is accepted, the $82,400 is applied to the
purchase of the property. In the event the Offer
were to be rejected the deposit will be returned
without interest.
Conveyance of the property is accomplished by a
quitclaim deed. Therefore, the City has had a title
search done to confirm G.S.A. ownership. (In a previous G.S.A. transaction on the conveyance of
Vista del Arroyo property to a private party, G.S.A.

App. 175
quitclaimed property the Federal Government did
not own.)
The Surplus Property Authority’s Offer to Purchase must be accompanied by the earnest money
deposit. To that end, the Western Justice Center
has deposited $82,400 with the Pasadena Surplus
Property Authority.
In the event of revocation of the Offer, or any default by the Pasadena Surplus Property Authority,
the deposit and any subsequent payments may be
forfeited.
The Surplus Property Authority may not resell
this property and make a profit for a period of
three years. If the Western Justice Center defaults
on its lease or fails to complete the restoration
work within the prescribed 36 months, the Surplus Property Authority could sell the property,
provided the obligation to G.S.A. is not in default.
If a sale takes place within the first three years
any “excess profits” must be returned to the G.S.A.
after the Surplus Property Authority’s acquisition
of the property. This “Excess Profits Covenant” will
run with the land for a period of 3 years from the
date of conveyance.
FISCAL IMPACT: All carrying costs associated with
this project are to be reimbursed by the Western Justice Center and all monies due and payable to G.S.A.
will be advanced by the Western Justice Center at least
30 days in advance.
In the event of a default by the Western Justice Center
on the terms of the lease, the General Fund would be

App. 176
responsible for maintenance and preservation of the
site. The City has the option to resell the property in
the event of default. However, should default occur
within the first three years of the lease, the City can
recoup only the purchase price of the property – plus
direct costs actually incurred for improvements serving the property. Any excess over this amount would
have to be returned to the Federal Government.
Staff time of the Assistant City Manager and the
billings of the attorneys representing the City will be
absorbed in the budget. Funds are available in the City
Manager’s budget Account #260012 and the City Attorney’s budget, outside legal services, Account #2610160110.
Respectfully submitted,
/s/ Donald F. McIntyre
DONALD F. MCINTYRE
City Manager
Prepared by:
/s/ Judith A. Weiss
JUDITH A. WIESS
Assistant City Manager
Concurrence:
/s/ Victor J. Kaleta
VICTOR J. KALETA
City Attorney

App. 177
/s/ Mary J. Bradley
MARY J. BRADLEY
Finance Director
Attachments:
Executed Lease
Offer to Purchase
Exhibit A
Exhibit B
Exhibit C
Exhibit D
Exhibit E
Exhibit F

A RESOLUTION OF THE PASADENA SURPLUS PROPERTY AUTHORITY AUTHORIZING
THE PRESIDENT TO SUBMIT AN OFFER TO
PURCHASE SURPLUS FEDERAL PROPERTY
AT 55-85 GRAND AVE., PASADENA, CALIFORNIA
WHEREAS, the Pasadena Surplus Property Authority was formed pursuant to the authority of California Government Code §§40500 et seq. for the
purpose of acquiring, owning, maintaining operating
improving and disposing of surplus real properties of
the United States which are located within, or contiguous to, the boundaries of the City of Pasadena; and
WHEREAS, the Pasadena Surplus Property Authority (“Authority”) desires to purchase the Maxwell
House and other associated federal surplus property
generally located at 55-85 Grand Ave., and described

App. 178
in Exhibit A of the Offer to Purchase (the “property”);
and
WHEREAS, the Authority has allocated and will
allocate funds to acquire said property; and
WHEREAS, the Authority is required by the General Services Administration (“GSA”) pursuant to 40
U.S.C. 484(a)(3)(H) to adopt this resolution.
NOW THEREFORE, the Commission of the Pasadena Surplus Property Authority does hereby resolve
as follows:
Section 1. The Commission hereby empowers
and authorize the President to sign and submit to GSA
on behalf of the Authority an offer to purchase the
property for $412,000.00. The President is also authorized to sign and submit such other documents as may
be necessary to complete the transaction.
Section 2. The amount of $82,400.00 is hereby
authorized to be paid to GSA as an earnest money deposit with the offer to purchase.
Section 3. The Authority will set aside the
amount of $32,960.00 each year for ten years to fund
the remaining purchase price of $329,600.00.
PASSED, APPROVED AND ADOPTED this 4th
day of April, 1989 by the following vote:
Ayes: Commissioners Cole, Crowley, Hughston, Nack,
Paparian, Thomson

App. 179
Noes:
Absent:

None
Commissioner Glickman
APPROVED AS TO FORM:
/s/ Ted J. Reynolds
[Illegible] Attorney
DATE: APRIL 5, 1989

FIRST AMENDMENT TO LEASE AGREEMENT
NO. 14,048
This First Amendment to Lease Agreement (hereinafter the “First Amendment”) is entered into this
13th day of February, 1990, by and between the Pasadena Surplus Property Authority, a public body, corporate and politic (“Landlord”), and the Western Justice
Center, a California non-profit corporation (“Tenant”),
with reference to the following:
A. On April 4, 1989, the Landlord and Tenant entered into that certain Lease Agreement (Agreement
No. 13,753) (hereinafter the “Agreement”) for the lease
to the Tenant of that certain real property situated in
the City of Pasadena and commonly known as 55-85
South Grand Avenue (hereinafter the “Premises”), under which Agreement the Tenant agreed to rehabilitate
and/or construct certain “Tenant Improvements” in accordance with certain plans and specifications and an
“Improvement Schedule.”

App. 180
B. On September 17, 1989, Landlord acquired title to the Premises from the United States General
Services Administration and the Agreement became
fully effective.
B. The purpose of this First Amendment is to
modify the terms and provisions of the Agreement in
certain particulars as agreed upon between the parties
and to set forth the terms and provisions of such modifications and amendments in order to reflect the commencement date and improvement schedule in light of
the date on which title to the Premises was obtained
by the Landlord.
NOW, THEREFORE, the Landlord and the Tenant
hereby agree as follows:
1. The Purpose of this First Amendment. The
purpose of this First Amendment is to implement the
Agreement. Defined terms in this First Amendment
shall have the same meaning as those terms have in
the Agreement.
2. Revised Improvement Schedule. The Improvement Schedule, Exhibit “C” to the Agreement is hereby
deleted in its entirety and the revised Improvement
Schedule, attached hereto and incorporated herein by
this reference, is hereby substituted in its place. All references to the Improvement Schedule or the revised
Improvement Schedule herein and in the Agreement
shall be to the revised Improvement Schedule.
3. Progress Reports. Paragraph “6. Rehabilitation of the Premises” of the Agreement is hereby

App. 181
amended by the addition of the following new sentence,
to read in full as follows:
“Commencing on March 16, 1990 and continuing thereafter on a semi-annual basis during
the period of rehabilitation and/or construction, the Tenant shall submit to the Executive
Director of the Landlord a written report of
the progress of the construction and/or rehabilitation of the Tenant Improvements.”
4. Effect of this First Amendment. Except as specifically set forth in this First Amendment, all other
provisions of the Agreement not inconsistent herewith
shall remain in full force and effect.
WHEREFORE, the parties hereto have caused
this First Amendment to be executed by their respective representatives thereunto duly authorized as of
the date first written above.
ATTEST:
/s/ Marvell L. Herren
Marvell L. Herren
Authority Clerk
“LANDLORD”
PASADENA SURPLUS
PROPERTY AUTHORITY
By: /s/ Donald F. McIntyre
Donald F. McIntyre
Executive Director

App. 182
APPROVED AS TO FORM:
VICTOR J. KALETA
Authority General Counsel
By: /s/ Ted J. Reynolds
Theodore J. Reynolds
Assistant General Counsel
“TENANT”
WESTERN JUSTICE CENTER
By: /s/ [Illegible]
Its: President
By: /s/ David K. Robinson
Its: Vice President
TJR:js
LEASWE:AGR

[SEAL]

Agenda Report

TO: Surplus Property Commission Date: December 5, 1989
BOARD OF DIRECTORS
Executive Director
FROM:
SUBJECT: Approval of First Amendment to Lease
Agreement between the Pasadena Surplus
Property Authority and the Western Justice Center
RECOMMENDATION: It is recommended that the
Surplus Property Commission of the Pasadena

App. 183
Surplus Property Authority adopt a resolution approving the attached First Amendment to Lease Agreement
and authorize the Executive Director of the Authority
to execute, and the Authority Clerk to attest, the First
Amendment to Lease Agreement on behalf of the Authority.
BACKGROUND: On April 4, 1989, the Surplus Property Commission of the Pasadena Surplus Property
Authority (“Authority”) authorized the City Manager
in his capacity as Executive Director of the Authority
to purchase real property or South Grand Avenue on
the grounds of the Vista del Arroyo. The property was
acquired through a negotiated acquisition from the
U.S. General Services Administration (“GSA”) for the
expressed purpose of leasing it to the Western Justice
Center (“WJC”). The Authority received possession of
the property from the Federal Government in June,
1989; however, escrow did not close until September,
1989. The quit-claim deed conveying the Federal Government’s interest in the property to the Authority was
recorded on October 10, 1989.
On April 4, 1989, the Authority executed a 55 year
lease with the WJC effective upon the date on which
the Authority tendered possession to WJC, The lease
with the WJC provided that the WJC would make its
rental payments to the Authority 30 days before the
Authority’s quarterly installment loan payments were
due and payable to the GSA on the ten-year purchase
money promissory note on the property. To date, the
WJC has paid to the Authority its initial rental

App. 184
payment in the amount of $82,400 and is current on its
lease payments to the Authority.
When the Authority approved the purchase of the site
and the lease with the WJC, it was with the understanding that a timetable for the rehabilitation of the
structure would be negotiated and a schedule therefore’ would be established not to exceed 36 months.
This Improvement Schedule was to be incorporated
into the lease itself as Exhibit C. It was agreed that
Exhibit C would be brought back to the Authority for
approval at a later date.
Representatives of the WJC requested documentation
from the GSA on the structural assessment of the bungalows so that this information could be evaluated
prior to agreeing to the rehabilitation schedule. G.S.A.
refused to disclose these reports until escrow was
closed and the quit-claim deed was recorded. Therefore, the staff and representatives of the WJC postponed discussions on the rehabilitation schedule until
the project architect had an opportunity to review
this information. On November 15, 1989 the attached
schedule was agreed upon between the WJC and the
Assistant City Manager and is now before the Authority for approval.
As you will note, the time-table is a conservative one
and presumes that the entire 36 months will be required. The “clock” starts September 17, 1989, the date
on which the Deed of Trust was executed between the
City and GSA. This seemed to be the best start date.
Although the Authority had technical possession in

App. 185
June, 1989, until escrow closed, entry and access to the
property was cumbersome. It could only be accomplished at the behest of GSA.
Mr. Rudy Freeman, of Neptune and Thomas, is the project architect and has reviewed the attached schedule
with his client. Mr. Freeman was also the architect for
rehabilitation of the Vista del Arroyo Tower which is
now home to the Federal District Court of Appeals.
Given the fact this is a major rehabilitation program
and there is always an “unanticipated” component to
such projects, the schedule is purposely conservative.
Secondly, by using the outside deadlines rather than
more optimistic dates, if the project should slip, it is
less likely that any amendments to the lease will be
required. Since Exhibit C will be part of the lease, if
the specified dates are not kept, the WJC will not be in
compliance with its lease and could be in default unless the Authority opts to amend the lease.
To properly track this project, the WJC has been requested to provide semi-annual progress reports, commencing March 16, 1990. They have readily agreed to
this request and anticipate no problems in meeting the
time-table in the attached Improvement Schedule.
FISCAL IMPACT: There is no fiscal impact to the
General Fund as a consequence of this action.
Respectfully submitted,
DONALD F. MCINTYRE
Executive Director

App. 186
Prepared by:
/s/ Judith A. Weiss
JUDITH A. WIESS
Assistant City Manager
Concurrence:
/s/ Ted J. Reynolds
for VICTOR J. KALETA
General Counsel

MARY J. BRADLEY
Auditor–Controller
/s/ Donald Nollar
DONALD NOLLAR, Director,
Planning, Building &
Neighborhood Services
JAW:pgp
Attachments

App. 187
EXHIBIT C
IMPROVEMENT SCHEDULE
Action

Date

1.

Execution of Lease

April 4, 1989

2.

Landlord receives possession of the Premises
(“Commencement Date”)

SEPT 17, 1989
Approximately 20 days
after GSA’s delivery to
Landlord of possession
of the Premises

3.

Submission by Tenant to
Landlord for Approval of:
a. Basic Concept Drawings March 16, 1990
b. Preliminary Drawings September 14, 1990
c. Landscaping and
Grading plans

March 15, 1991

4.

Submit Working Drawings/ November 1, 1991
Application for Building
Permits to City

5.

Issuance of Building
Permits

December 15, 1991

6.

Commencement of
Construction

January 15, 1992

7.

Improvements Completed September 30, 1992
and Open for Business

App. 188
[SEAL]

Agenda Report

TO: Surplus Property Commission Date: January 30, 1990
FROM:

Executive Director

SUBJECT: Approval of First Amendment to Lease
Agreement between the Pasadena Surplus
Property Authority and the Western Justice Center
RECOMMENDATION: It is recommended that the
Surplus Property Commission of the Pasadena Surplus Property Authority adopt a resolution approving
the attached First Amendment to Lease Agreement
and authorize the Executive Director of the Authority
to execute, and the Authority Clerk to attest, the First
Amendment to Lease Agreement on behalf of the Authority.
BACKGROUND: On April 4, 1989, the Surplus Property Commission of the Pasadena Surplus Property
Authority (“Authority”) authorized the City Manager
in his capacity as Executive Director of the Authority
to purchase real property on South Grand Avenue on
the grounds of the Vista del Arroyo. The property was
acquired through a negotiated acquisition from the
U.S. General Services Administration (“GSA”) for the
expressed purpose of leasing it to the Western Justice
Center (“WJC”). The Authority received possession of
the property from the Federal Government in June,
1989; however, escrow did not close until September,
1989. The quit-claim deed conveying the Federal Government’s interest in the property to the Authority was
recorded on October 10, 1989.

App. 189
On April 4, 1989, the Authority executed a 55 year
lease with the WJC effective upon the date on which
the Authority tendered possession to WJC. The lease
with the WJC provided that the WJC would make its
rental payments to the Authority 30 days before the
Authority’s quarterly installment loan payments were
due and payable to the GSA on the ten-year purchase
money promissory note on the property. To date, the
WJC has paid to the Authority its initial rental payment in the amount of $82,400 and is current on its
lease payments to the Authority.
When the Authority approved the purchase of the site
and the lease with the WJC, it was with the understanding that a timetable for the rehabilitation of the
structure would be negotiated and a schedule therefore
would be established not to exceed 36 months. This Improvement Schedule was to be incorporated into the
lease itself as Exhibit C. It was agreed that Exhibit C
would be brought back to the Authority for approval at
a later date.
Representatives of the WJC requested documentation
from the GSA on the structural assessment of the
bungalows so that this information could be evaluated
prior to agreeing to the rehabilitation schedule. G.S.A.
refused to disclose these reports until escrow was
closed and the quit-claim deed was recorded. Therefore, the staff and representatives of the WJC postponed discussions on the rehabilitation schedule until
the project architect had an opportunity to review this
information. On November 15, 1989 the attached
schedule was agreed upon between the WJC and the

App. 190
Assistant City Manager and is now before the Authority for approval.
As you will note, the time-table is a conservative one
and presumes that the entire 36 months will be required. The “clock” starts September 17, 1989, the date
on which the Deed of Trust was executed between the
City and GSA. This seemed to be the best start date.
Although the Authority had technical possession in
June, 1989, until escrow closed, entry and access to the
property was cumbersome. It could only be accomplished at the behest of GSA.
Mr. Rudy Freeman, of Neptune and Thomas, is the
project architect and has reviewed the attached
schedule with his client. Mr. Freeman was also the architect for rehabilitation of the Vista del Arroyo Tower
which is now home to the Federal District Court of
Appeals. Given the fact this is a major rehabilitation
program and there is always an “unanticipated” component to such projects, the schedule is purposely conservative. Secondly, by using the outside deadlines
rather than more optimistic dates, if the project
should slip, it is less likely that any amendments to
the lease will be required. Since Exhibit C will be part
of the lease, if the specified dates are not kept, the
WJC will not be in compliance with its lease and could
be in default unless the Authority opts to amend the
lease.

App. 191
To properly track this project, the WJC has been requested to provide semi-annual progress reports, commencing March 16, 1990. They have readily agreed to
this request and anticipate no problems in meeting the
time-table in the attached Improvement Schedule.
FISCAL IMPACT: There is no fiscal impact to the
General Fund as a consequence of this action. WJC is
the responsible party for raising the funds for the rehabilitation work and managing this project.
Respectfully submitted,
/s/ [Illegible]
for DONALD F. MCINTYRE
Executive Director
Prepared by:
/s/ Judith A. Weiss
JUDITH A. WIESS
Assistant City Manager
Concurrence:
/s/ Ted J. Reynolds
for VICTOR J. KALETA
General Counsel
/s/ Mary J. Bradley
MARY J. BRADLEY
Auditor–Controller

App. 192
/s/ Donald Nollar
DONALD NOLLAR, Director,
Planning, Building &
Neighborhood Services
JAW:pgp
Attachments

SECOND AMENDMENT TO LEASE AGREEMENT
NO. 13753-2
This Second Amendment to Lease Agreement is
made and entered into as of this 20th day of July, 1993
by and between the Pasadena Surplus Property Authority (“Landlord”) and corporation (“Tenant”) Agreement.
1. The “Improvement Schedule” referred to in
paragraph 6 of the Lease Agreement dated April 4,
1989, as amended by the First Amendment to Lease
Agreement dated December 5, 1989 by and between
the Pasadena Surplus Property Authority and the
Western Justice Center (the “Lease”), is hereby
amended by substituting for the “Improvement Schedule” attached to the Lease as Exhibit C the “Revised
Improvement Schedule” attached to this Second
Amendment to Lease Agreement as Exhibit A.
2. Except as expressly set forth herein, the Lease
shall be in full force and effect.

App. 193
IN WITNESS WHEREOF, the parties hereto have
executed this Second Amendment to Lease as of the
day and year first above written.
Pasadena Surplus
Property Authority
BY: /s/ Rick Cole
Rick Cole
President
Western Justice Center, a
California non-profit organization
BY: /s/ Donald F. McIntyre
President
BY: /s/ David K. Robinson
Secretary
Attest:
BY: /s/ Maria M. Stewart
Maria Stewart 8/16/94
City Clerk
APPROVED AS TO FORM:
BY: /s/ Ted J. Reynolds
for
Victor J. Kaleta
Authority General Counsel

App. 194
EXHIBIT “A”
IMPROVEMENT SCHEDULE
Action

Date

1.

Execution of Lease

April 4, 1989

2.

Obtain Conditional Use
October 22, 1991
Permit and variances for
office use, collective parking, 10 year lease requirement and reduced parking

3.

Obtain building permit for December 10, 1992
85 South Grand Avenue

4.

Commence construction January 1, 1993
on 85 South Grand Avenue

5.

Complete construction on December 31, 1993
85 South Grand Avenue

6.

Obtain building permit for
75 South Grand Avenue

7.

Commence construction June 1, 1994
on 75 South Grand Avenue

8.

Complete construction on December 31, 1994
75 South Grand Avenue

9.

Obtain building permit for January 15, 1995
85 South Grand Avenue

April 1, 1994

10. Commence construction April 1, 1995
on 65 South Grand Avenue
11. Complete construction on December 31, 1995
65 South Grand Avenue
12. Obtain building permit for April 1, 199.5
55 South Grand Avenue

App. 195
13. Commence construction on June 1, 1995
55 South-Grand Avenue
14. Complete construction on July 1, 1996
c:western:ss

SECOND AMENDMENT TO LEASE AGREEMENT
NO. 13753-2
This Second Amendment to Lease Agreement is
made and entered into as of this 20th day of July, 1993
by and between the Pasadena Surplus Property Authority (“Landlord”) and corporation (“Tenant”) Agreement.
1. The “Improvement Schedule” referred to in
paragraph 6 of the Lease Agreement dated April 4,
1989, as amended by the First Amendment to Lease
Agreement dated December 5, 1989 by and between
the Pasadena Surplus Property Authority and the
Western Justice Center (the “Lease”), is hereby
amended by substituting for the “Improvement Schedule” attached to the Lease as Exhibit C the “Revised Improvement Schedule” attached to this Second
Amendment to Lease Agreement as Exhibit A.
2. Except as expressly set forth herein, the Lease
shall be in full force and effect.

App. 196
IN WITNESS WHEREOF, the parties hereto have
executed this Second Amendment to Lease as of the
day and year first above written.
Pasadena Surplus
Property Authority
BY: /s/ Rick Cole
Rick Cole
President
Western Justice Center, a
California non-profit organization
BY: /s/ [Illegible]
President
BY: /s/ David K. Robinson
Secretary
Attest:
BY: /s/ Maria M. Stewart
Maria Stewart 8/16/94
City Clerk
APPROVED AS TO FORM:
BY: /s/ Ted J. Reynolds
for
Victor J. Kaleta
Authority General Counsel

App. 197
EXHIBIT “A”
IMPROVEMENT SCHEDULE
Action

Date

1.

Execution of Lease

April 4, 1989

2.

Obtain Conditional Use
October 22, 1991
Permit and variances for
office use, collective parking, 10 year lease requirement and reduced parking

3.

Obtain building permit for December 10, 1992
85 South Grand Avenue

4.

Commence construction on January 1, 1993
85 South Grand Avenue

5.

Complete construction on December 31, 1993
85 South Grand Avenue

6.

Obtain building permit for April 1, 1994
75 South Grand Avenue

7.

Commence construction on June 1, 1994
75 South Grand Avenue

8.

Complete construction on December 31, 1994
75 South Grand Avenue

9.

Obtain building permit for January 15, 1995
65 South Grand Avenue

App. 198
10. Commence construction on April 1, 1995
65 South Grand Avenue
11. Complete construction on December 31, 1995
65 South Grand Avenue
12. Obtain building permit for April 1, 1995
55 South Grand Avenue
13. Commence construction on June 1, 1995
55 South Grand Avenue
14. Complete construction on July 1, 1996
55 South Grand Avenue
c:western:ss

[SEAL]

Agenda Report

TO: Pasadena Surplus Property July 20, 1993
Authority
FROM:

Executive Director

SUBJECT: Second Amendment to Lease Agreement
between the Pasadena Surplus Property
Authority and the Western Justice Center
– Revised Improvement Schedule
RECOMMENDATION:
It is recommended that the Pasadena Surplus Property Authority approve the attached revised Improvement Schedule, known as “Exhibit C” to the Lease
between the Surplus Property Authority and the Western Justice Center, and authorize the President of the

App. 199
Surplus Property Authority to execute the Second
Amendment to the Lease Agreement incorporating the
revised Improvement Schedule into the Lease.
BACKGROUND:
In April, 1989 the Pasadena Surplus Property Authority authorized the Executive Director to purchase real
property on South Grand Avenue on the grounds of the
former Vista del Arroyo. The property was acquired
through a negotiated acquisition from the U.S. General
Services Administration for the expressed purpose of
leasing it to the Western Justice Center. On September
17, 1989, the City acquired title to the site and then
received possession of the property from the Federal
Government,
Also in April, 1989 the Authority executed a 55 year
lease with the Western Justice Center which was effective upon the date on which the City took possession of
the property.
When the Pasadena Surplus Property Authority approved the purchase of the siter and the lease with the
Western Justice Center, it was with the understanding
that a time-table for the rehabilitation of the structure
would be negotiated and a schedule would be established not to exceed 36 months. This Improvement
Schedule was incorporated into the lease itself as Exhibit “C.” On February 13, 1990 the First Amendment
to the Lease Agreement was executed adopting the Improvement Schedule in detail.

App. 200
Attached to this report is a letter from Mr. Donald P.
Baker, counsel for the Western Justice Center, requesting
consideration of the Second Amendment to Lease
Agreement adopting the “Revised Improvement Schedule.” Drafts of the proposed amendment and schedule
are also attached to Mr. Baker’s letter.
As stated in Mr. Baker’s letter, rehabilitation of the
first building is underway. Although substantial private contributions have been pledged to this project,
general economic conditions have caused fund raising
efforts to fall short of anticipated goals. At this point in
the project it is clear that successful fund raising will
be dependent upon the completion and occupancy of
buildings in phases. In this way potential contributors
and occupants will be able to see the full potential of
the Center.
It is the staff ’s view that the proposed Revised Improvement Schedule is realistic and reasonable.
The staff continues to be strongly supportive of this
project which will provide an institutional center of national repute for study and research in the areas of law
reform, improvements to judicial administration and
lawyer competency, law-related education and service
to the community with respect to improvement in legal
processes and the use of alternative processes to litigation.

App. 201
FISCAL IMPACT:
There is no fiscal impact. The Western Justice Center
Foundation is the responsible party for raising the
funds for the rehabilitation work and managing this
project.
Respectfully submitted,
/s/ Philip A. Hawkey
Philip A. Hawkey
Executive Director
Prepared by:
/s/ Donald H. Nollar
Donald H. Nollar, Director
Planning, Building &
Neighborhood Services
Concurrence:
/s/ Victor J. Kaleta
Victor J. Kaleta, City Attorney

App. 202
LATHAM & WATKINS
ATTORNEYS AT LAW

633

WEST FIFTH STREET, SUITE

4000
90071-2007
TELEPHONE (213) 488-1234
FAX (213) 891-8763
TLX 590773
EIN 62736268

LOS ANGELES, CALIFORNIA

CABLE ADDRESS LATHWAT

----------------------------------------------------------------------PAUL R. WATKINS
DANA LATHAM

(1899-1973)
(1898-1974)

June 9, 1993
Mr. Don Nollar
City of Pasadena
100 North Garfield Avenue
Pasadena, California 91109-7215
Re: Western Justice Center
Dear Mr. Nollar:
As you know, the Western Justice Center Foundation has been moving forward with the restoration of
the four bungalows on Grand Avenue which the City of
Pasadena acquired from the General Services Administration and leased to the Western Justice Center.
The process of fundraising in the current economic
climate combined with the time necessary to obtain
governmental approvals and arrange for a cost effective rehabilitation of the buildings, has delayed the
project beyond the Improvement Schedule set forth in

App. 203
the First Amendment to Lease Agreement between the
Pasadena Surplus Property Authority and the Western
Justice Center.
In October, 1991, Western Justice Center obtained
the Conditional Use Permit and Variances relating to
office use, collective parking, ten year lease requirement and reduced parking for the buildings located at
55-85 South Grand Avenue. On April 2, 1992, a letter
of determination was issued by the State Office of Historic Preservation approving the plans for rehabilitation of 85 South Grand Avenue as consistent with
historic preservation requirements.
On December 10, 1992, a building permit was issued for the rehabilitation of 85 South Grand Avenue
and construction commenced with the installation of a
new roof on that bungalow in December, 1992. In May,
1993, the Western Justice Center Board of Directors
authorized our contractor, Cantwell Anderson, to proceed with the renovation of 85 South Grand Avenue beginning with asbestos removal and utility site work.
We anticipate completion of the building in October,
1993.
We appreciate the City’s assistance and cooperation in all matters regarding the Western Justice Center’s work with this property and now request that the
Improvement Schedule be formally amended to reflect
the realities of fund raising and construction of this
project. Therefore, I have attached a draft Second
Amendment to Lease Agreement for consideration by
you and the Surplus Property Authority. If you need

App. 204
any further information or if any changes to this document are required, please do not hesitate to contact
me.
Sincerely yours,
/s/ Donald P. Baker
Donald P. Baker
of LATHAM & WATKINS
cc: Judge Dorothy Nelson
Robert S. Warren, Esq.
Jim Minges

DRAFT
SECOND AMENDMENT TO LEASE AGREEMENT
This Second Amendment to Lease Agreement is
made and entered into as of this ___ day of ___, 1993
by and between the Pasadena Surplus Property Authority (“Landlord”) and the Western Justice Center
Foundation, a California non-profit corporation (“Tenant”) Agreement.
1. The “Improvement Schedule” referred to in
paragraph 6 of the Lease Agreement dated April 4,
1989, as amended by the First Amendment to Lease
Agreement dated December 5, 1989 by and between
the Pasadena Surplus Property Authority and the
Western Justice Center (the “Lease), is hereby
amended by substituting for the “Improvement Schedule” attached to the Lease as Exhibit C the “Revised

App. 205
Improvement Schedule” attached to this Second
Amendment to Lease Agreement as Exhibit A.
2. Except as expressly set forth herein, the Lease
shall be in full force and effect.
IN WITNESS WHEREOF, the parties hereto have
executed this Second Amendment to Lease as of the
day and year first above written.
Pasadena Surplus
Property Authority
BY:
President
Western Justice Center, a California non-profit organization
By:
President
By:
Secretary
Attest:
By:
Clerk

App. 206
DRAFT
IMPROVEMENT SCHEDULE
Action

Date

1.

Execution of Lease

April 4, 1989

2.

Obtain Conditional Use October 22, 1991
Permit and variances for
office use, collective parking,
10 year lease requirement
and reduced parking

3.

Obtain building permit for December 10, 1992
85 South Grand Avenue

4.

Commence construction on January 1, 1993
85 South Grand Avenue

5.

Complete construction on December 31, 1993
85 South Grand Avenue

6.

Obtain building permit for April 1, 1994
75 South Grand Avenue

7.

Commence construction June 1, 1994
on 75 South Grand Avenue

8.

Complete construction on December 31, 1994
75 South Grand Avenue

9.

Obtain building permit for January 15, 1994
65 South Grand Avenue

10. Commence construction April 1, 1995
on 65 mouth Grand Avenue
11. Complete construction on December 31, 1995
65 South Grand Avenue
12. Obtain building permit for April 1, 1995
55 South Grand Avenue

App. 207
13. Commence construction June 1, 1995
on 55 South Grand Avenue
14. Complete construction on July 1, 1996
55 South Grand Avenue

From: Kitasato, Kelly
Sent: Wednesday, February 03, 2010 10:57 AM
To: Iraheta, Alba
Cc: Valenzuela, Maria
Subject: RE: Western Justice Center Lease, Contract 13,753
Alba,
Attached is the First Amendment to the Lease with
Western Justice Center and related agenda report. For
some reason, it was assigned a different contract number than the 13,753 series.
Maria,
As information, I added this contract number to the
Real Property database.
Kelly

App. 208
THIRD AMENDMENT TO LEASE AGREEMENT
NO. 13,753-3
THIS THIRD AMENDMENT TO LEASE AGREEMENT (“Third Amendment”) is made and entered
into as of the 18th day of July, 1994, by and between
the CITY OF PASADENA, a municipal corporation
(“Landlord”), and the WESTERN JUSTICE CENTER,
a California non-profit corporation (“Tenant”).
Recitals
A. Landlord’s predecessor in interest, the Pasadena Surplus Property Authority, and Tenant are parties to that certain Lease Agreement (No. 13,753) (the
“Lease”) dated as of April 4, 1989, concerning that certain real property commonly known as 55-85 south
Grand Avenue, Pasadena, California.
B. The Lease was amended by that certain First
Amendment to Lease Agreement (No. 14,048) dated
February 13, 1990, and by that certain Second Amendment to Lease Agreement (No. 13753-2) dated July 20,
1993.
C. The parties wish to further amend the Lease
as herein provided.
NOW, THEREFORE, the parties hereto agree as
follows:
1. Purpose of this Third Amendment. The
purpose of this Third Amendment is to implement
the Lease. Capitalized terms used in this Third

App. 209
Amendment shall have the meanings ascribed to such
terms in the Lease.
2. Rent. From and after April 1, 1994, the
provisions of Section 3.1 (“Rent”) of the Lease are
hereby restated to read in full as follows; provided,
however, there shall be no change or modification to
rent that was due through March 31, 1994, it being intended that the original provisions of Section 3.1 shall
remain in effect through March 31, 1994, and that this
new provision concerning Section 3.1 shall be effective
only from and after April 1, 1994:
3.1 Rent.
3.1.1. Tenant covenants to pay to Landlord
during the term hereof, at Landlord’s address set
forth in Section 24 hereof, or to such other persons
or at such other places as directed from time to
time by written notice to Tenant from Landlord, a
base rent as follows: (a) During the period from the
date hereof through March 31, 1996, there shall
not be any payments of base rent due; (b) During
the period from April 1, 1996 though March 31,
2014 (the “Payment Period”), Tenant shall pay
monthly, in advance, on the first day of each calendar month, rent in the sum of (i) $1,552.96 per
month (“Base Rent”), plus (ii) the amount (the “TI
Rent”) required to amortize the sum of all advances made by Landlord on account of the Tenant
Improvement Allowance (described below) plus interest thereon at the rate of 5.33% per annum
from the date of the advance, in equal monthly
payments of principal and interest, wherein interest accrues from the date of the advance at the

App. 210
rate of 5.33% per annum. (By way of example, if
Landlord advances the sum of $350,000 to Tenant
on account of the Tenant Improvement Allowance
in one installment on April 1, 1995, then as of April
1, 1996, accrued interest thereon shall be the shall
be the sum of $18,655.00; thus, the TI Rent shall
be the sum of $2,657.92 per month during the Payment Period.)
3.1.2 In addition, Tenant shall deliver to the
Landlord from time to time, within thirty (30) days
after receipt of demand therefor, additional rent
equal to all out-of-pocket costs and expenses incurred by Landlord in supervising this Lease and
in monitoring the Premises, and all sums advanced by Landlord on behalf of Tenant where
such sums are required hereunder to be expended
by Tenant but Tenant failed to do so. No cost for
general overhead or employee salaries of Landlord
or City shall be included in such additional rent.
All rent shall be payable in lawful money of the
United States to Landlord at the address stated
herein or to such other persons or at such other
places as Landlord may designate in writing.
3. Tenant Improvement Allowance. A new Section 6.11 is hereby added to Section 6 (“Rehabilitation
of the Premises”) of the Lease, to read as follows:
6.11.

Tenant Improvement Allowance.

6.11.1 Landlord hereby agrees to provide to
Tenant an allowance (the “Tenant Improvement
Allowance”) in an amount not to exceed the sum
of $458,000, the proceeds of which shall be utilized only for the reconstruction and rehabilitation

App. 211
of the Premises described in this Section 6, in accordance with plans and specifications which have
been approved by Landlord pursuant to Sections
6.3, 6.4, 6.5, 6.6, and 6.8 hereof.
6.11.2 On or before September 1, 1994, Tenant shall deliver to Landlord, for Landlord’s review and approval, (i) plans and specifications
required for Tenant to obtain all necessary building permits required to construct the Tenant Improvements (“Final Construction Drawings”) for
each building within the Premises for which the
Tenant Improvement Allowance will be utilized,
and (ii) a cost breakdown of the work described in
the Final Construction Drawings for which the
Tenant Improvement Allowance will be utilized.
Tenant shall not change or consent to any material
change of the plans and specifications without the
prior written consent of Landlord. As used herein,
a “material change” is one which increases the
overall costs of an individual item of the Tenant
Improvements by more than $5,000.00, or which,
when taken with all prior non-material changes,
will result in an increase in the cost of the Tenant
Improvements by $20,000.00 or more. The cost
breakdown shall describe the projected development costs theretofore and thereafter to he incurred for which the cost thereof shall be paid from
the Tenant Improvement Allowance. Landlord
shall also have the right to review and approve
all contracts and subcontracts, to confirm that
they are consistent with the cost breakdown.
6.11.3 Landlord shall distribute the proceeds of the Tenant Improvement Allowance only
for the actual costs incurred pursuant to the cost

App. 212
breakdown and construction contracts and subcontracts to be furnished to Landlord. Landlord
shall have no obligation to disburse any funds (including reimbursement for amounts expended for
buildings for which rehabilitation has been completed) until Landlord has approved the cost
breakdown and construction contracts and subcontracts. The amount to be disbursed from the
Tenant Improvement Allowance for each item
shall not exceed the amount specified therefor in
the cost breakdown; provided, however, Tenant
may deviate from the amount of a particular line
item if, and only to the extent that, Tenant can
demonstrate to Landlord’s satisfaction that any
increase in such item will be offset by an equivalent decrease in one or more other line item
amounts or that Tenant shall obtain funds from a
different source to pay for the additional amounts.
Disbursements will be made from time to time as
necessary to pay for work and material actually
performed. Disbursements from the Tenant Improvement Allowance shall also be permitted in
reimbursement of costs expended for work performed prior to the Landlord’s approval of the
Third Amendment to Lease. Landlord shall also
have the right to audit all contracts and subcontracts and, with respect to “cost plus” items, to
withhold disbursement on account of any costs
charged that Landlord reasonably believes to be
unreasonable, and to perform inspections to verify
the construction, and Landlord shall charge to,
and deduct from, the Tenant Improvement Allowance any costs incurred by Landlord in performing
such audit and verifying the amounts to be reimbursed to Tenant. Tenant shall designate one or

App. 213
more Designated Representatives, and only the
Designated Representatives of Tenant are authorized to sign Loan Draw Requests. Prior to
disbursement, Landlord may require signed mechanics or materialmen lien waivers as a condition
to delivering funds, and shall provide Landlord
with copies of same, and Landlord reserves the
right to condition any future disbursements at any
time upon receipt of such waivers for all amounts
previously advanced by Landlord. At Landlord’s
request, Tenant shall provide Landlord with copies of contracts, bills, invoices or other documentation supporting the amount requested. Landlord
shall at all times have the right to enter upon the
Premises during construction to confirm that the
work is in conformance with the approved plans
and specifications. Tenant agrees to comply with
all applicable laws concerning the utilization of
public funds in construction of the Tenant Improvements, including prevailing wage and public
bidding requirements, to the extent applicable to
Tenant.
6.11.4 Tenant may, at Landlord’s option, receive reimbursement from the Tenant Improvement Allowance for site and infrastructure
improvements (including, without limitation, installation of electrical, water, telephone, sewer and
fire-life safety systems, including City fees therefor) installed in the Premises prior to the date of
the Third Amendment to Lease upon presentation
to Landlord of evidence of payment for installation
of such items.
6.11.5 Tenant agrees from time to time
upon the request of Landlord to deliver to

App. 214
Landlord a report detailing the status of the Tenant Improvements, including percentage of completion by phase and budget category, percentage
of funds expended to date (including sums for
which reimbursement is being sought), description of third party defaults, and any deviations
in budget or time schedules. Tenant shall also
deliver reports to Landlord without Landlord’s
prior request any time following third party defaults and other material matters which might
or could either delay construction of the Tenant
Improvements or increase the cost thereof.
4. Effect of this Third Amendment. Except as
specifically set forth in this Third Amendment, all
other provisions of the Lease and the Third Amendment not inconsistent with this Third Amendment
shall remain in full force and effect.
IN WITNESS WHEREOF, the parties hereto have
executed this First Amendment to Lease Agreement as
of the day and year first above written.
CITY OF PASADENA,
a public body, corporate
and politic

WESTERN JUSTICE
CENTER, a California
non-profit corporation

By: /s/ Kathryn Nack
By: /s/ [Illegible]
Kathryn Nack, Mayor
Attest:
/s/ Maria M. Stewart
Maria Stewart,
City Clerk 8/16/94

, Pres.

By: /s/ David K. Robinson
, Sec.

App. 215
APPROVED AS TO FORM:
/s/ Ted J. Reynolds
Deputy City Attorney
DATE

7/11/94

[SEAL]
TO:

Agenda Report

CITY COUNCIL/PASADENA SURPLUS AUTHORITY

FROM: CITY MANAGER/EXECUTIVE OFFICER
DATE: JULY 1, 1994
RE:

JOINT ACTION:
TRANSFER OF TITLE TO 55-85 SOUTH
GRAND AVENUE FROM PASADENA SURPLUS PROPERTY AUTHORITY TO THE
CITY OF PASADENA; THIRD AMENDMENT TO LEASE AGREEMENT WITH
WESTERN JUSTICE CENTER FOR THE
REAL PROPERTY LOCATED AT 55-85
SOUTH GRAND AVENUE.

RECOMMENDATION:
1.

It is recommended that the Pasadena Surplus
Property authority adopt a resolution:
A.

Transferring title of real property located in
the City of Pasadena from Pasadena Surplus

App. 216
Property Authority (“Authority”) to the City of
Pasadena (“City”); and
B.
2.

Assigning its interest in Lease Agreement
(Agreement #13,753) to the City.

It is recommended that the City Council adopt a
resolution:
A.

Accepting title to the real property and improvements located at 55-85 South Grand Avenue from the Authority and authorizing the
City Manager to sign the Certificate of Acceptance of the Deed from the Authority; and

B.

Approving the terms and conditions of the
Third Amendment to Lease Agreement
(Agreement #13,753-1) and authorizing the
City Manager to execute the Third Amendment and all necessary documents related
thereto;

BACKGROUND:
On April 4, 1989, the Pasadena Surplus Property Authority (“Authority”) entered into Lease Agreement
(Agreement No. 13,753) (the “Original Lease”) with
Western Justice Center (“tenant”) for the real property
situated in the City of Pasadena and commonly known
as 55-85 South Grand Avenue. Under the Original
Lease, the tenant agreed to rehabilitate and/or construct certain “Tenant Improvements” in accordance
with certain plans and specifications.
On September 17, 1989, the Authority acquired title
to the premises from the United States General

App. 217
Services Administration (“GSA”) with a downpayment
of $82,400 provided by the Western Justice Center and
the balance of the purchase price was financed by a
loan from GSA in the amount of $329,600. The GSA
loan has a term of 10 years which expires in 1999 and
bears an interest rate of 9.625% with payments due on
a quarterly basis. The rental amount from the Original
Lease between the Authority and the tenant was based
on the financing terms of the loan between GSA and
the Authority, such that rental payments received from
the tenant were sufficient to service the debt owed by
the Authority to GSA.
The Authority entered into the Original Lease as a
means of benefiting the citizens of the City of Pasadena
in the following ways: through a center for the study of
dispute resolution and the administration of justice, to
provide additional employment and revenues to the local economy, to provide for improvements in both the
local, regional, national and international components
of the legal system, to provide a forum for educational
research, and for the purpose of insuring the restoration and historical preservation of the premises. The
Western Justice Center provided the down payment
for the purchase of the premises in the form of an advance rental obligation and entered into the Original
Lease in order to repay the Authority the loan due to
GSA because it did not qualify as an organization eligible to purchase the premises from GSA.
On November 16, 1993, the City Council adopted a resolution which provided the refunding and reissuing of
the 1989 and 1990 Certificates of Participation (COPS)

App. 218
and adopted a Reimbursement Resolution which declared the City’s intent to reimburse certain expenditures pertaining to the Western Justice Center from
proceeds of the indebtedness and approved the use of
$700,000 to repay the GSA Loan and assist on the rehabilitation of some of the historic structures located
on the premises to be used by the tenant during the
lease term.
As the City of Pasadena is the issuer of the bonds, it is
advisable to transfer title of the project from the Pasadena Surplus Authority to the City of Pasadena and
assign the lease agreement to to the City of Pasadena.
Recommended structure for repayment of the
$700,000 Loan.
Western Justice Center has completed the rehabilitation of one of the three buildings and recently opened
such building for business.
Of the $700,000 in proceeds of the 1993 COP issue,
designated for use for the Western Justice Center property, the City will pay off the balance of the GSA loan
($214,549.81 as of August 1, 1994), pay all costs associated with the Third Amendment to the Original
Lease including Western Justice Center’s pro-rata
share of the costs of issuance of the COPs, legal fees
related to the Third Amendment, and fees associated
with the periodic review and disbursement of funds to
the Western Justice Center. The remaining balance of
the approved $700,000 (i.e., $458,000) will be periodically disbursed to Western Justice Center as a tenant

App. 219
improvement allowance for the restoration of the second of the historical bungalows. The entire amount advanced (i.e., $700,000), together with interest thereon
from the date of disbursement at the rate of 5.33% per
annum (the interest rate on the COPs) will be repaid
to the City by the tenant as rent as follows: No payments shall be due, and interest shall accrue, until
March 31, 1996. Thereafter, commencing April 1, 1996,
the $700,000 advanced amount, plus accrued interest,
will be repaid as additional rent amortized over the
next succeeding 18 years in an amount equivalent to
the City’s periodic debt service requirements on the
COP’s.
Western Justice Center has provided the following preliminary rough budget for the use of the $458,000 (a
final approved budget is a condition of disbursement of
funds):
1. $350,000 will be used for rehabilitation of the
second building;
2. $50,000 will be used for reimbursement of
loans to Western Justice Center the proceeds of which
were used to provide infrastructure improvements
serving all three buildings; and
3. $58,000 will be used to preserve the roof of the
third building and/or repair or restore earthquake
damage to the third building and construct earthquake
reinforcements to the third building.

App. 220
The tenant improvement allowance will allow Western
Justice Center to rehabilitate the second building and
provide immediate protection to the third building necessary to prevent further deterioration thereof while
Western Justice Center seeks donations and other
sources of funds to rehabilitate the third building.
There is no guaranty or timetable within which the
Western Justice Center will rehabilitate the third
building however, the Original Lease, as amended by
the Third Amendment, requires Western Justice Center to perform said rehabilitation during the lease
term.
FISCAL IMPACT:
All costs associated with this matter will be paid by
Western Justice Center in the form of rent including
their pro rata share of the cost of issuing the Certificates of Participation. There is no fiscal impact to the
General Fund. All lease payments received by the City
will be used to pay the debt service on the $700,000
portion of the bonds.
Respectfully submitted,
/s/ Philip A. Hawkey
Philip A. Hawkey
City Manager/Executive Officer

App. 221
Prepared by:
/s/ Vic Erganian
Vic Erganian
Principal Financial Analyst/
Assistant Treasurer
Reviewed by:
/s/ Mary J. Bradley
Mary J. Bradley
Director of Finance
/s/ Ted Reynolds
Theodore Reynolds
Assistant City Attorney

RESOLUTION NO. SPR 7143
A RESOLUTION OF THE COMMISSION OF
THE PASADENA SURPLUS PROPERTY AUTHORITY APPROVING THE CONVEYANCE OF
REAL PROPERTY TO THE CITY OF PASADENA
WHEREAS, there has been presented to the
Pasadena Surplus Property Authority (“Authority”) a
quitclaim deed wherein the Authority agrees, for valuable consideration, to transfer to the City of Pasadena
the real property commonly known as 55-85 South
Grand Avenue in the City of Pasadena (the “Property”);
and
WHEREAS, the Commission of the Pasadena Surplus Property Authority deems it to be in the best

App. 222
interests of the Authority to transfer the Property to
the City of Pasadena;
NOW, THEREFORE, the Commission of the Pasadena Surplus Property Authority resolves and declares
as follows:
1. The Commission hereby approves the quitclaim deed which has been presented to the Authority,
substantially in the form on file with the Clerk of the
Authority, and hereby authorizes and directs the Executive Director and Clerk of the Authority to execute,
acknowledge and deliver said document, and to perform all acts necessary or appropriate to effect the
transfer of the Property to the City of Pasadena.
Adopted at a special meeting of the Commission
of the Surplus Property Authority on the 18th day of
July
, 1994, by the following vote:
AYES:

Commissioners Cole, Holden,
Thomson, Paparian, Nack

NOES:

None

ABSENT:

Commissioners Crowfoot, Richard

ABSTAIN:

None
/s/ Maria M. Stewart
MARIA M. STEWART
Clerk of the Authority

App. 223
APPROVED AS TO FORM:
VICTOR J. KALETA
General Counsel
By: /s/ Ted Reynolds
Theodore J. Reynolds

RESOLUTION NO. 7144
A RESOLUTION OF THE CITY COUNCIL OF
THE CITY OF PASADENA APPROVING THE
ACQUISITION OF REAL PROPERTY LOCATED
AT 55-85 SOUTH GRAND AVENUE AND ACTIONS RELATED THERETO
WHEREAS, there has been presented to the City
Council a quitclaim deed wherein the Pasadena Surplus Property Authority (the “Authority”) agrees, for
valuable consideration, to transfer to the City of Pasadena (the “City”) the real property in the City commonly known as 55-85 South Grand Avenue (the
“Property”);
WHEREAS, as part of the transaction, it is proposed that the City repay the balance of the loan to the
Authority from the United Stated General Services
Administration in connection with the purchase of the
Property;
WHEREAS, there has been presented to the City
Council an amendment to Lease Agreement No. 13,753
between the City and the Western Justice Center, the
current tenant of the Property; and

App. 224
WHEREAS, the City Council deems it to be in the
best interests of the City to undertake the above transactions;
NOW, THEREFORE, the City Council of the City
of Pasadena resolves and declares as follows:
1. The City Council hereby accepts the quitclaim
deed which has been presented to the City Council,
substantially in the form on file with the City Clerk,
and hereby authorizes and directs the City Manager
and City Clerk to execute, acknowledge and deliver a
certificate of acceptance, and to perform all acts necessary or appropriate to effect the transfer of the Property to the City.
2. The City Council hereby approves repayment
by the City of the balance of the loan to the Authority
from the United States General Services Administration in connection with the purchase of the Property,
and directs the City Treasurer to Perform all acts necessary or appropriate to effect such repayment.
3. The City Council hereby approves that certain
Third “Amendment”) which has been presented to the
City Council, substantially in the form on file with the
City Clerk, and hereby authorizes and directs the City
Manager and City Clerk to execute and acknowledge
the Amendment, and to perform all acts necessary or
appropriate to effect the terms and conditions of the
Amendment and the intention of this Resolution.

App. 225
Adopted at the regular meeting of the City Council on the 18th day of July
, 1994, by the following
vote:
AYES:

Councilmembers Cole, Holden,
Thomson, Paparian, Nack

NOES:

None

ABSENT:

Commissioners Crowfoot, Richard

ABSTAIN:

None
/s/ Maria M. Stewart
MARIA M. STEWART,
City Clerk

APPROVED AS TO FORM:
VICTOR J. KALETA
City Attorney
By: /s/ Ted Reynolds
Theodore J. Reynolds
Assistant City Attorney

App. 226
Recording Requested by:
City of Pasadena
And when recorded return to
and mail tax statements to:
City of Pasadena
100 North Garfield Avenue
P.O. Box 7115
Pasadena, California 91109
QUITCLAIM DEED
The undersigned grantor(s) declare(s):
Documentary transfer tax is $0.00.
Exempt from Documentary Transfer Taxes Pursuant to R & T Code Section 11922
FOR A VALUABLE CONSIDERATION, receipt of
which is hereby acknowledged, the PASADENA SURPLUS PROPERTY AUTHORITY, a public body, corporate and politic, hereby quitclaims, releases and
remises to
the CITY OF PASADENA, a municipal corporation,
the following described real property located in the
City of Pasadena, County of Los Angeles, State of California:
See Exhibit “A” attached hereto and incorporated
by reference herein.
See also Rider attached hereto and incorporated
herein.

App. 227
IN WITNESS WHEREOF, the undersigned have executed this Grant Deed as of the date set forth below.
Dated:

8/16/94

PASADENA SURPLUS PROPERTY AUTHORITY, a public
body, corporate and politic
By: /s/ Kathryn Nack
Kathryn Nack, President
Attest:
/s/ Maria M. Stewart
Maria Stewart, City Clerk

State of California
County of Los Angeles

}
}
}

On 8/16 , 1994, before me, Maria M. Stewart a
Notary Public, personally appeared Kathryn Nack
, personally known to me
(or proved to me on the basis of satisfactory evidence)
to be the person(s) whose name(s) is/are subscribed to
the within instrument and acknowledged to me that
he/she/they executed the same in his/her/their authorized
capacity(ies), and that by his/her/their signature(s) on
the instrument the person(s), or the entity upon behalf
of which the person(s) acted, executed the instrument.
WITNESS my hand and official seal.
[NOTARY STAMP]
Signature Maria M. Stewart
(seal)

App. 228
Exhibit “A”
Legal Description
That portion of Lot 1 of Vista Crest Tract, in the City
of Pasadena, in the County of Los Angeles, State of
California, as per map recorded in Book 5 Page 34 of
maps and that portion of Lots 2 and 3 of Berry and
Elliott’s Subdivision, Division “D”, of San Gabriel Orange Grove Association Lands, in the City of Pasadena,
in the County of Los Angeles, State of California, as per
map recorded in Book 32 Page 55, and in Book 2 Page
600, all of Miscellaneous Records, in the Office of the
County Recorder of said County, described as follows:
Beginning at the Northeast corner of Lot 1 of
Vista Crest, as per map recorded in Book 5,
Page 34 of Maps, Records of said County, said
corner being on the Westerly line of Grand
Avenue (70 feet wide); thence North 3 degrees
13 minutes 59 seconds East, 142.78 feet along
the West line of Grand Avenue to the beginning of a tangent curve, concave Westerly,
having a radius of 250.00 feet; thence Northerly along said curve, an arc distance of
86.18 feet; thence leaving the Westerly line of
said Grand Avenue South 86 degrees 25
minutes 43 seconds West, 111.41 feet; thence
South 0 degrees 45 minutes 56 seconds West,
8.98 feet; thence South 89 degrees 11 minutes
22 seconds West, 19.79 feet; thence South 0
degrees 34 minutes 14 seconds East. 90.38
feet: thence South 89 degrees 46 minutes 51
seconds West, 23.53 feet: thence South 0 degrees 12 minutes 40 seconds East, 137.76 feet;

App. 229
thence North 89 degrees 47 minutes 20 seconds East, 152.45 feet to the Westerly line of
said Grand Avenue; thence North 8 degrees 27
minutes 30 seconds East, 16.32 feet to the
point of beginning.

Rider to Quitclaim Deed
The GRANTOR further assigns to Grantee all leasehold interests affecting the property, including that
certain Lease Agreement dated April 4, 1989, by and
between the GRANTOR, as Landlord, and the WESTERN JUSTICE CENTER, as Tenant, as such Lease
has been amended.
The GRANTEE covenants for itself, and its assigns
and every successor in interest to the property hereby
conveyed, or any part thereof, that the said GRANTEE
and such assigns shall not discriminate upon the basis
of race, color, religion, sex, or national origin in the use,
occupancy, sale, or lease of the property, or in their employment practices conducted thereon. This covenant
shall not apply, however, to the lease or rental of a room
or rooms within a family dwelling unit; nor shall it apply with respect to religion to premises used primarily
for religious purposes. The United States of America
shall be deemed a beneficiary of this covenant without
regard to whether it remains the owner of any land of
interest therein in the locality of the property hereby
conveyed and shall have the sole right to enforce this
covenant in any court of competent jurisdiction.

App. 230
The GRANTEE further covenants for itself, its successors, and assigns and every successor in interest to the
property hereby conveyed, or any part thereof that the
real property above described Is hereby conveyed subject to the conditions, restrictions, and limitations
hereinafter set forth which are covenants running
with the land; that the GRANTEE, its successors, and
assigns, covenants and agrees, that in the event that
the property is sold or otherwise disposed of, these covenants and restrictions shall be inserted in the instruments of conveyance.
(1) The structure(s) situated on said real property will be preserved and maintained in accordance
with plans approved in writing by the California State
Historic Preservation officer (SHPO), Sacramento, California.
(2) No physical or structural changes or changes
in color or surfacing will be made to the exterior of the
structure(s) and architecturally or historically significant interior features as determined by the California
SHPO without the written approval of the California
SHPO.
(3) In the event of a violation of the above restrictions, General Services Administration of the
United States of America or the California SHPO may
institute a suit to enjoin such violation or for damages
by reason of any breach thereof.
(4) These restrictions shall be binding on the
Parties hereto, their successors, and assigns in perpetuity; however, the California SHPO may, for good

App. 231
cause, modify or cancel any or all of the foregoing restrictions upon written application of the Grantee, its
successors or assigns.
The acceptance of the delivery of this Deed shall constitute conclusive evidence of the agreement of the
Grantee to be bound by the conditions, restrictions,
and limitations, and to perform the obligations herein
set forth.
Development of the property shall be in compliance
with The Secretary of the Interior’s Standards for Rehabilitation and Guidelines for Rehabilitating Historic
Buildings and development plans shall be approved
by the SHPO for guidance in planning the development of the property. If the Grantee and the SHPO are
unable to agree on the proposed development, the
Grantee shall forward all documentation relevant to
the dispute to the Advisory Council on Historic Preservation. The Grantee, SHPO, and the Advisory Council
on Historic Preservation shall reach an agreement regarding the proposed development. If such an agreement cannot be reached the Advisory Council on
Historic Preservation shall forward all relevant project
materials with comments to the General Services
Administration. The General Services Administration
will consider such comments and if necessary take action in accordance with the terms and conditions of
these covenants.
THIS QUITCLAIM IS MADE SUBJECT TO all
covenants, easements, reservations and encumbrances
whether of record or not.

App. 232
THIS QUITCLAIM IS MADE FROM GRANTOR
TO GRANTEE TOGETHER WITH all and singular
the tenements, hereditaments and appurtenances
thereunto belonging, or in anywise appertaining, and
the reversion and reversions, remainder and remainders, rents, issues and profits thereof, and also all the
estate, right, title, interest, property possession, claim
and demand whatsoever, in law as well as in equity, of
the said GRANTOR of, in or to the foregoing described
premises, and every part and parcel thereof with the
appurtenances.
TO HAVE AND TO HOLD, all the singular, the
said premises, with-the improvements thereon, unto
the said GRANTEE, its successors and assigns.

CERTIFICATE OF ACCEPTANCE
(Government Code Section 27281)
This is to certify that the interest in real property
conveyed by the Quitclaim Deed dated August 16
,
1994, from the PASADENA SURPLUS PROPERTY
AUTHORITY, a public body, corporate and politic
(“Grantor”), to the CITY OF PASADENA, a municipal
corporation, is hereby accepted by the undersigned officer on behalf of the CITY OF PASADENA pursuant
to authority conferred by Resolution No. 7144 adopted
on July 18
, 1994, and the Grantee consents to
recordation thereof by its duly authorized officer.

App. 233
Dated:

August 16

, 1994
CITY OF PASADENA
By: /s/ Kathryn Nack
Kathryn Nack, Mayor

ATTEST:
/s/ Maria M. Stewart
Maria Stewart, City Clerk

